<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, MARCH 14, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Brown, Shelby, Cochran, 
Alexander, Graham, and Moran.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. HILDA L. SOLIS, SECRETARY

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. The Subcommittee on Labor, Health and Human 
Services, and Education, and Related Agencies will come to 
order.
    Welcome back to the subcommittee, Madam Secretary. You are 
joining us today at a critical time for our Nation's workforce.
    The economy is moving in the right direction. U.S. 
employers added 227,000 jobs in February, marking 3 months in a 
row of job gains of more than 200,000. In the private sector, 
we have had 24 straight months of job growth. The outlook for 
manufacturing is particularly encouraging, with 429,000 jobs 
added in the past 2 years.
    But too many people still remain unemployed or 
underemployed. More must be done to ensure that all Americans 
benefit from economic growth, not just the wealthy in our 
country.
    And so I applaud the efforts that you and your Department 
are making to get more Americans back to work, and to keep our 
workers safe, especially in times of budget constraints.

                  FISCAL YEAR 2013 PRESIDENT'S BUDGET

    Under the President's request, funding for the Department 
in fiscal year 2013 would drop slightly below the level for 
fiscal year 2012. Obviously, we are going to ask you to do more 
with less. I am pleased, however, that within the President's 
total, he has proposed increases for efforts to prevent the 
misclassification of workers, to protect whistleblowers, and to 
enhance oversight of the sub-minimum wage program for workers 
with disabilities.
    The President's budget would also continue the disability 
employment initiative that we started in the fiscal year 2010 
appropriations bill. While the overall unemployment rate in 
February was 8.3 percent, the rate for people with disabilities 
was 15.8 percent--almost double. So we must do a better job of 
removing employment barriers for people with disabilities. Your 
Department's disability employment initiative will surely help.

                       JOB CORPS CENTER CLOSURES

    One reduction proposed by the President is to cut funding 
for operating Job Corps centers by $23 million. His plan is to 
close a small number of centers that are chronically low 
performing.
    As you know, I have always been a strong supporter of Job 
Corps. These centers play a crucial role in giving young people 
the training they need to enter the workforce, the military, or 
postsecondary education. And my experience with their work in 
Iowa has been very positive. The center in Denison, Iowa, is 1 
of only 3 in the country to be named a Job Corps Center for 
Excellence by the Department of Labor (DOL).
    A new center in Ottumwa, Iowa, for which you were present 
during the groundbreaking, opened its doors this past October, 
and is taking an innovative approach to training its students. 
The center has a partnership with a nearby community college, 
Indian Hills Community College, that will give its students 
access to higher education at the same time they are enrolled 
in the Job Corps center.
    So I think the Congress should continue to strongly support 
the Job Corps program. But, then again, we also have a 
responsibility to hold centers accountable for their 
performance. If there are centers that fail to serve their 
students year after year, then no one is helped by continuing 
to provide them with taxpayer funding.

                          PREPARED STATEMENTS

    What I will want to understand better is how the Department 
plans to define ``chronically low-performing'', and what 
criteria will be used to determine whether a center should be 
closed. And that is something for an ongoing discussion.
    So, Madam Secretary, I will leave the record open at this 
point for an opening statement by Senator Shelby and Chairman 
Inouye.
    [The statements follow:]
            Prepared Statement of Senator Richard C. Shelby
    Madam Secretary, our Nation continues to face an unemployment rate 
more than 8 percent, the longest stretch of high unemployment in this 
Nation since the Great Depression.
    Moreover, the official unemployment rate of 8.3 percent does not 
adequately illustrate the current employment turmoil. The official rate 
excludes ``discouraged'' workers--those who want to work, but have not 
searched for a job in the last month and those working part-time but 
who would prefer a full-time job.
    If these groups were counted, the real unemployment rate would be 
14.9 percent.
    As more and more Americans are unemployed or underemployed, they 
are looking toward the Department of Labor (DOL) to provide job 
training and employment placement. We need to ensure that DOL is using 
its funds effectively and efficiently and that Americans are receiving 
the training they need to re-enter the labor force.
    DOL's fiscal year 2013 request is for $12 billion. DOL claims that 
the 2013 request reduces spending by $1.2 billion. This is misleading.
    With the transfer of the community service employment for older 
Americans program to another agency and the decrease in the 
unemployment insurance workload, DOL's request is not a decrease of 
$1.2 billion, but less than one-half that amount.
    In this difficult economic environment, limited funding should be 
targeted to programs that are most effective. I have repeatedly 
expressed concern about the Job Corps program. While Job Corps has a 
noble goal and a difficult challenge, it is an expensive program per 
enrollee, it has a number of historically low-performing centers in the 
system, and there are concerns that the program's outcomes may not 
justify the program's costs.
    I appreciate you taking my concerns into consideration and 
proposing a fiscal year 2013 budget that streamlines the program and 
strengthens its accountability.
    However, I do remain concerned that other job training programs 
have not received the rigorous evaluations necessary to determine 
whether their costs are justified by their outcomes. Many of the 
Workforce Investment Act (WIA) programs have not been evaluated since 
2005, and we do not have current data to assess whether they are 
working.
    In this time of record unemployment, I believe DOL should target 
worker training programs to ensure unemployed Americans can return to 
work. Unfortunately, there are several unnecessary initiatives that 
cost hundreds of millions of dollars, such as the Workforce Innovation 
Fund and the One-Stop Rebranding proposal, that will not train a single 
worker.
    The budget submission for the Workforce Innovation Fund requests 
$125 million this year while the Fund has $175 million in the bank. I 
think everyone would agree that we should not add a third year of 
funding to a program that has not awarded a single grant and has 
unknown results.
    In addition, the One-Stop Rebranding initiative allocates $50 
million for a publicity campaign. How will either of these proposals 
help Americans return to work?
    In difficult budgetary times, we need to make tough choices and 
prioritize spending. I look forward to working with the chairman and 
DOL to target funding that puts Americans back to work.
                                 ______
                                 
             Prepared Statement of Senator Daniel K. Inouye
    Mr. Chairman, thank you for chairing this hearing to review the 
President's fiscal year 2013 budget for the Department of Labor.
    I would like to extend a warm aloha to Secretary of Labor, Hilda 
Solis. Madam Secretary, I will continue to do all I can to support your 
vision of good jobs for everyone, because a strong economy depends on a 
strong middle class.

    Senator Harkin. And in the interest of time, since we have 
a series of votes starting at 11:30 a.m., Madam Secretary, I 
have your statement. It will be made a part of the record in 
its entirety.
    Again, welcome back. I will, for the record, say that 
Secretary Hilda L. Solis was sworn in as the 25th Secretary of 
Labor on February 24, 2009. Prior to her confirmation, she was 
one of us, as a Representative of the 32d Congressional 
District in California, holding that position from 2001 to 
2009.
    The Secretary is a graduate of California State Polytechnic 
University, and earned her master of public administration from 
the University of Southern California.
    So, Madam Secretary, again, welcome, and please proceed as 
you so desire.

                  SUMMARY STATEMENT OF HILDA L. SOLIS

    Secretary Solis. Thank you so much, Mr. Chairman, and also 
to the subcommittee members. Senator Brown, it is good to see 
you and other members that I know will be joining us shortly.
    I want to thank you for the invitation to testify before 
you today. And I provided, as you stated, my written testimony 
for the record, but wanted to review a few highlights with you. 
I also want to thank you for all that you did over the past 
year to assure that the Congress adopted an appropriations bill 
that balanced the need of deficit reduction with the real needs 
of American workers.
    DOL's budget request reflects the approach the President 
has taken to make priority investments in areas that we know 
are essential to helping America get back to work. And some of 
the most significant of these proposals are not before this 
subcommittee, but are essential to securing the position as the 
most competitive economy in the world, such as proposals to 
include access to education and job training.
    I am going to concentrate on those items before the 
subcommittee which address the need to invest in our workforce, 
protect workers on the job, and secure Americans' incomes and 
benefits. In some cases, we have made tough decisions on 
finding reductions, as you well stated, Mr. Chairman, in order 
to put America on a more sustainable fiscal course. This is 
part of the administration-wide effort to improve efficiency 
and find savings. My testimony lists these items, which can 
provide you with information to justify the specific actions.

                  INVESTING IN A COMPETITIVE WORKFORCE

    But I want to concentrate on two particular areas this 
morning, first, the need to invest in a competitive workforce. 
And as the President has said, for an economy that is built to 
last, we must get all of our dislocated and low-income workers 
back to work.
    The budget request continues the Department's commitment to 
those who are most vulnerable to the economic distress by 
maintaining and, in some cases, restoring funding for our 
employment and training programs. To support innovation in our 
workforce investment system we are asking for an increase in 
the Workforce Investment Fund that will allow us to test new 
ideas and replicate proven strategies for delivering better 
employment and training results. I like to call the Workforce 
Innovation Fund a reform effort, because we are really looking 
at and testing new types of techniques and coordination that 
actually help to enhance our programs.
    We also know that returning veterans can contribute greatly 
to our economy. This has been a big discussion item with the 
Congress as well as the President. That is why the unemployment 
rate for recent veterans is so troubling to many of us. We will 
bolster our support for newly separated veterans by expanding 
the Transition Assistance Program, known as TAP, and employment 
workshops that are advanced through our State grants for 
veterans' employment services, by other investments necessary 
to implement the recently enacted Veterans Opportunity to Work 
(VOW) to Hire Heroes Act. I want to publicly thank Senator 
Murray, who is not here but has been a champion in particular, 
for her leadership with respect to veterans.

      RE-EMPLOYMENT SERVICES FOR UNEMPLOYMENT INSURANCE CLAIMANTS

    I also would like to state that to help workers continue to 
receive Unemployment Insurance (UI) benefits, they also need 
assistance. And we are proposing a $30 million investment for 
employment service grants to States to fund re-employment 
services for UI claimants, as well as an increase of $15 
million for re-employment and eligibility assessment.
    Eligibility assessment and re-employment services have been 
found to be highly effective at helping UI claimants find 
higher-paying jobs sooner, while at the same time saving money 
for the UI system. You might recall that in the last few years 
people typically get on the phone and call in when they are 
having to register for their employment benefits. We have to do 
a bit more to actually bring the individual in so we can do an 
assessment, get them a program and the assistance that they 
need, diagnostic testing, whatever it takes, to make sure that 
they are successful. And those routes tell us that they are 
more effective, and it is more cost effective.

                        ONE-STOP CAREER CENTERS

    As you know, the system of the one-stop career centers is 
the core delivery mechanism for employment and training 
services. To strengthen our community-based system, the budget 
includes a $50 million allocation to create a uniform and 
recognizable brand for the system. What we are talking about is 
really coordination, and making very clear that the workforce 
systems can be easily identified by users as well as employers. 
As you know, even in your State, you may have a different name 
that doesn't relate directly to the one-stop center, and most 
people are confused about what that means. So we are trying to 
re-brand, and also create more mechanisms to use online tools, 
better technology. Whether you are in rural America or in an 
inner-city, you ought to be able to access same kinds of 
services. So, we are attempting to coordinate that effort.

                       WORKER PROTECTION PROGRAMS

    We are also maintaining our efforts to ensure that persons 
with disabilities have the opportunity to use the system in a 
better way. And we also need to support the worker protection 
programs that are not only there to protect American workers, 
but are crucial to ensuring that all firms are playing by the 
same set of rules. Because, as you know, when wages are not 
provided to employees, as well as into our tax system, overall 
consumers and the public lose. So we think that there is more 
that we can do in that area.
    As we continue to recover from one of the worst economic 
crises in three generations, it is especially important that we 
invest in the enforcement of key laws to protect our workers 
through their wages and benefits. Thus, the budget a requests 
for funding for Wage and Hour Division (WHD), including 
additional funds for the enforcement of the Fair Labor 
Standards Act and the Family Medical Leave Act, along with an 
investment both in wage and hour and in unemployment insurance 
to address the practice of employee misclassification, as you 
stated earlier, Mr. Chairman. I know that that is of particular 
interest to you. I also want to thank you for the increase that 
we were able to provide to WHD, looking at the targeted 
enforcement program of 14c, one that you have been very 
involved in.

         MINE SAFETY AND HEALTH ADMINISTRATION MINE INSPECTIONS

    The budget also includes funding to allow for our Mine 
Safety and Health Administration (MSHA) to meet its statutorily 
mandated inspections, while maintaining our efforts within both 
MSHA and our Office of the Solicitor to continue the progress 
that we have seen already being made to reduce the backlog of 
contested citations. We must continue our efforts in this area 
to ensure that we are holding mine operators accountable if 
they fail to meet their legal and moral responsibility to 
operate safe mines.

                    FISCAL YEAR 2013 REQUEST SUMMARY

    In conclusion, I wish to summarize: DOL's fiscal year 2013 
budget request provides investments to prepare Americans with 
the skills they need, to assist businesses who are looking for 
employable individuals, and to help workers and employers find 
each other in a more efficient manner so that we can enhance 
our workforce system.
    This proposal also ensures that we have fair and safe 
workplaces for our workers. We must continue to foster safe 
workplaces with respect to workers' rights, provide a level 
playing field for businesses, help American workers provide for 
their families and keep the pay and benefits that they earn. We 
will focus on our shared long-term goal of reducing the Federal 
deficit, and I believe it is possible to do so in a way that 
meets these goals and also helps achieve a better and efficient 
system.

                           PREPARED STATEMENT

    I look forward to working with you and this subcommittee in 
the future on this particular area.
    Again, thank you, Mr. Chairman, for inviting me here to 
this hearing. I appreciate that.
    [The statement follows:]
                  Prepared Statement of Hilda L. Solis
    Chairman Harkin, Ranking Member Shelby and members of the 
subcommittee, thank you for the invitation to testify today. I 
appreciate the opportunity to appear before you to discuss the fiscal 
year 2013 budget request for the Department of Labor (DOL).
    To build an economy that is built to last, we have to do more to 
live within our means and restore fiscal accountability and 
responsibility. The President has put forward a plan to make priority 
investments in areas essential to helping America win the race for the 
jobs and industries of the future, while making difficult choices to 
identify cuts and savings that ask for shared sacrifices across the 
board. The budget proposes specific steps to boost growth and secure 
the United States' position as the most competitive economy in the 
world, such as improving access to education and job training, so that 
our workers are the best prepared in the world for the jobs of the 21st 
century.
    The DOL fiscal year 2013 budget request reflects this direction. To 
build on the economic gains we have experienced under this 
administration, we must create good jobs and make investments that will 
boost economic growth. The request makes targeted investments and 
introduces significant reforms to give workers a fair shot to gain 
skills that make them more employable, regain their footing after a job 
loss, find new employment opportunities, maintain workplace safety and 
health, exercise their voice in the workplace, and enjoy critical wage 
and hour protections.
             targeted investments through difficult choices
    As the President said in the State of the Union Address, we must 
renew our commitment to revitalizing our Nation's economy and to 
building an America that is built to last--where everyone gets a fair 
shot, does their fair share, and plays by the same set of rules.
    DOL's 2013 budget request focuses on how we can help accomplish 
this goal in innovative and cost-effective ways, to ensure we are 
delivering critical services for American workers in everything from 
job training to workplace protection. However, in light of current 
economic realities, and like many families across the country, we had 
to make some tough choices to ensure we are able to:
  --Invest in a competitive workforce;
  --Protect American Workers; and
  --Secure Americans' incomes and benefits.
    In some cases, that meant making tough decisions on funding 
reductions that will put America on a more sustainable fiscal course. 
Consistent with administration-wide efforts to improve efficiency and 
find savings, DOL's budget proposes to streamline operations by:
      Eliminating Overlapping Training Programs.--The missions of the 
        Women in Apprenticeship in Non-Traditional Operations and 
        Veterans Workforce Investment program will continue to be 
        advanced through other Departmental training offices and 
        programs.
      Re-proposing the fiscal year 2012 request to transfer the 
        Community Service Employment for Older Americans program to the 
        Department of Health and Human Services' Administration on 
        Aging in recognition of the dual purpose of the program to 
        support the economic well-being of seniors, while improving 
        coordination with other senior-serving programs with similar 
        purposes.
      Closing a Small Number of Chronically Low-Performing Job Corps 
        Centers.--While most centers meet program standards, some 
        centers have been persistently low-performing based on their 
        educational and employment outcomes, and have remained in the 
        bottom cohort of center performance rankings for many years. 
        Especially in a constrained budget environment, and given the 
        resource intensiveness of the Job Corps model, it is neither 
        possible nor prudent to continue to invest in centers that have 
        historically not served students well. The populations 
        previously served by these Job Corps centers will be eligible 
        to attend higher-performing centers. Job Corps will also make 
        changes to its strategies and approaches based on the findings 
        of program evaluations, strengthen the performance measurement 
        system, and report center-level performance in a more 
        transparent way.
      Reforming the Regional Office Structure of Five Offices Within 
        DOL.--The Occupational Safety and Health Administration (OSHA); 
        the Employee Benefits Security Administration (EBSA); the 
        Office of the Solicitor (SOL); and the Women's Bureau, where 
        the savings are reinvested dollar-for-dollar in the Wage and 
        Hour Division (WHD), and the Office of Public Affairs. By 
        consolidating or streamlining offices we will minimize 
        administrative costs while ensuring that offices are 
        strategically placed to perform DOL's functions across the 
        country.
      Curbing Nonessential Administrative Spending.--In support of the 
        President's message on fiscal discipline and spending 
        restraint, DOL has established a plan to reduce the combined 
        costs of certain administrative expenses by more than 20 
        percent from fiscal year 2010 levels by the end of fiscal year 
        2013. Reduction efforts focus on travel, printing, supplies, 
        advisory contracts, the executive fleet, extraneous promotional 
        items, and employee information technology devices.
      Improving Program Effectiveness and Efficiency.--DOL's fiscal 
        year 2013 budget request continues past efforts to enhance 
        program effectiveness and improve efficiency. We will invest in 
        program evaluations to be overseen by the Chief Evaluation 
        Officer and request expanded authority to set aside funds from 
        major program accounts for an increased number of evaluations. 
        These investments will provide DOL with valuable information 
        about strategies and approaches that work and ensure that our 
        resources are invested strategically in proven tactics.
                  investing in a competitive workforce
    Particularly during this time of high unemployment, we believe it 
is imperative to provide both a helping hand and a viable path back to 
employment. To get America back to work, DOL will continue critical 
investments in job training and resources for job seekers. Not only do 
these investments provide a lifeline for those who still need critical 
help, but they will also save resources of the Unemployment Insurance 
(UI) system and other programs at DOL by helping people get back to 
work. The budget documents have been provided to the subcommittee and 
are available on our Web site, but for now, I want to share some key 
investments included in our budget request before your subcommittee:
      Training and Employment Services.--For an economy built to last, 
        we must get our dislocated and low-income workers back to work. 
        The budget request continues DOL's commitment to those who are 
        most vulnerable to economic distress by maintaining funding for 
        our core training programs while also restoring funding to 
        programs that serve some of the most vulnerable populations. 
        This includes continued requests for the joint Employment and 
        Training Administration and the Office of Disability Employment 
        Policy Disability Employment initiative, and our policy work 
        aimed at increasing the employment opportunities for persons 
        with disabilities, including integrated employment for people 
        with severe disabilities.
      Workforce Innovation Fund.--The public workforce investment 
        system is more important now than ever, but we need to make it 
        more efficient, streamlined, and targeted to serve our growing 
        customer base. To ensure that our investments in employment and 
        training are focused on reform, DOL will invest $100 million in 
        the interagency Workforce Innovation Fund, which will test new 
        ideas and replicate proven strategies for delivering better 
        employment and training results at a lower cost to service 
        providers, allowing for more participants to be served at 
        static funding levels. This investment will be combined with 
        $25 million from the Department of Education for a total fund 
        of $125 million in fiscal year 2013. Within the Fund, $10 
        million is dedicated to building knowledge of what strategies 
        are most effective with disconnected youth.
      Veterans' Employment and Training Service.--We know returning 
        veterans can contribute greatly to our economy and that recent 
        veterans have particularly high unemployment rates. The 
        Department will bolster its support for newly separated 
        veterans by delivering effective education, employment, and 
        other transition services that enable them to move successfully 
        into civilian careers. The recently enacted Veterans 
        Opportunity to Work to Hire Heroes Act expands tax credits to 
        encourage the hiring of veterans and expands access to the 
        Transition Assistance Program (TAP) employment workshops that 
        are offered to separating servicemembers. The budget builds on 
        these efforts by boosting funding for TAP and grants for 
        employment services to veterans by $8 million more than 2012 
        levels.
      Employment Service.--The Nation continues to struggle with high 
        levels of unemployment and the acute needs of employers seeking 
        qualified workers. The employment service fills a critical role 
        in helping connect workers with jobs, and serves more than 17 
        million participants annually. To help workers receiving UI get 
        the assistance they need to find work, the budget proposes an 
        additional $30 million for the employment service grants to 
        States to fund re-employment services for UI beneficiaries. 
        These types of intensive re-employment services and job search 
        assistance have been found to be one of the least costly and 
        most effective ways to get the unemployed back to work.
      One-Stop Career Centers.--The system of One-Stop Career Centers 
        is the core delivery system for employment and training 
        services. To strengthen this system, the budget includes $50 
        million to create a recognizable and uniform brand for the 
        career center system, improve access to workforce services, and 
        create on-line tools to reach individuals sooner and more 
        frequently while offering personalized services.
    The President's budget request includes additional legislative 
proposals for job training and education resources that we are 
requesting other congressional committees to act upon. These proposals 
include:
      Community College to Career Fund.--An educated and skilled 
        workforce is critical for the United States to compete in the 
        global economy. To help forge new partnerships between 
        community colleges and businesses to train 2 million workers 
        for good-paying jobs in high-growth and high-demand industries, 
        the Departments of Labor and Education will invest $8 billion 
        more than 3 years in this Fund. These investments will give 
        more community colleges the resources they need to become 
        community career centers where people learn crucial skills that 
        local businesses are looking for right now, ensuring that 
        employers have the skilled workforce they need and workers are 
        gaining industry-recognized credentials and receiving training 
        relevant to the local needs of employers to build strong 
        careers.
      Pathways Back to Work Fund.--Many Americans of all ages need 
        better access to job opportunities and employment-based 
        training in order to succeed in today's economy. Building on 
        successful American Recovery and Reinvestment Act programs that 
        provided employment opportunities for low-income adults and 
        youths, the budget also includes a $12.5 billion Pathways Back 
        to Work Fund to make it easier for the long-term unemployed and 
        low-income workers to remain connected to the workforce and 
        gain new skills for long-term employment.
                      protecting american workers
    Worker protection programs are crucial to ensure all firms are 
playing by the same set of rules to keep workers safe. The fiscal year 
2013 budget preserves this administration's recent investments in 
worker protection. Some of the highlights of our worker protection 
request include:
      Mine Safety and Health.--The Mine Safety and Health 
        Administration (MSHA) provides miners across the Nation with 
        safer and more healthful workplaces through enforcement of mine 
        safety and health laws, as well as through technical 
        assistance, training, and outreach. The budget request for MSHA 
        of $372 million provides funding to allow MSHA to carry out its 
        mission, while achieving efficiencies and reallocating 
        resources into its highest-priority activities, including 
        statutorily mandated inspections in the coal and metal/nonmetal 
        enforcement programs.
      Case Backlog Before the Federal Mine Safety and Health Review 
        Commission (FMSHRC).--The budget includes $16.9 million for 
        MSHA and SOL to continue ongoing work to address the backlog of 
        contested citations at FMSHRC. We must continue our efforts in 
        this area to ensure that we are holding mine operators 
        accountable if they fail to meet their legal and moral 
        responsibility to operate safe mines. If we do not reduce the 
        backlog, some mine operators will continue to contest 
        violations as a way of ``gaming the system'' to delay payment 
        of civil penalties and avoid scrutiny under MSHA's existing 
        pattern of violation regulations. This will lead to even higher 
        contest rates and potentially unsafe mines.
      Occupational Safety and Health Administration (OSHA).--OSHA uses 
        enforcement and compliance assistance activities to ensure that 
        this Nation's employees are able to return home safely from 
        work every day. The request of $565 million for OSHA includes 
        an additional $5 million to support OSHA's enforcement of the 
        21 whistleblower protection programs it administers that 
        protect workers and others who are retaliated against for 
        reporting unsafe and unscrupulous practices.
      International Labor.--DOL must ensure American workers are given 
        a fair shot to compete on a level playing field with their 
        overseas counterparts. The budget requests $95 million for the 
        Bureau of International Labor Affairs (ILAB) to strengthen 
        workers' rights and protections in our trading partner 
        countries, including an increase of $2.5 million for enhanced 
        trade agreement monitoring and enforcement.
                securing americans' incomes and benefits
    It is essential that we take steps to ensure that America's workers 
are not permanently affected by economic distress. To that end, DOL's 
budget includes resources to help those who have been affected stay 
afloat while they struggle to get back on their feet. Some key 
investments we propose in the fiscal year 2013 budget to ensure 
Americans' income and benefits security are:
      Wage and Hour.--As we continue to recover from one of the worst 
        economic crises in three generations, it is especially 
        important that we invest in the enforcement of key laws that 
        protect our workers' wages and benefits. In fiscal year 2013, 
        DOL will continue to protect workers and level the playing 
        field for businesses by providing WHD with $238 million, 
        including an additional $6.4 million for increased enforcement 
        of the Fair Labor Standards Act and the Family and Medical 
        Leave Act (FMLA), which ensure that workers receive appropriate 
        wages, overtime pay, and the right to take job-protected leave 
        for family and medical purposes.
      Employee Misclassification.--When workers are misclassified as 
        independent contractors, they are deprived of benefits and 
        protections to which they are legally entitled, such as 
        overtime and unemployment benefits. At the same time, those 
        businesses that play by the rules are placed at a disadvantage 
        against employers who violate the law. The fiscal year 2013 
        budget proposes $14 million to combat misclassification, 
        including $10 million for grants to States to identify 
        misclassification and recover unpaid taxes within the 
        unemployment insurance system and $3.8 million for the WHD to 
        detect and deter the misclassification of employees as 
        independent contractors and strengthen and coordinate Federal 
        and State efforts to enforce labor violations arising from 
        misclassification.
      Unemployment Insurance.--This administration is committed to 
        protecting the financial integrity of the UI system and helping 
        unemployed workers return to work as swiftly as possible. The 
        budget provides full funding for State administration of the UI 
        program, as well as an increase of $15 million for re-
        employment and eligibility assessments. Eligibility assessments 
        and re-employment services have been found to be highly 
        effective at helping UI claimants find higher paying jobs 
        sooner, while at the same time saving money for the UI system. 
        To help those who have lost their jobs, the President's budget 
        also seeks to strengthen the UI safety net. While not before 
        this subcommittee, the budget request incorporates the 
        Reemployment NOW program originally included as part of the 
        American Jobs Act, which includes resources and reforms to help 
        UI claimants get back to work quickly. The Reemployment NOW 
        program provides funds to introduce programs that allow the 
        flexible use of unemployment benefits for short-term employment 
        and for individuals who want to start their own businesses, 
        some of the elements of which were adopted as part of the 
        recently enacted Extended Benefits, Reemployment, and Program 
        Integrity Improvement Act (Public Law 112-96). The budget also 
        proposes to put the UI system back on the path to solvency and 
        financial integrity by providing immediate relief to employers 
        to encourage job creation now, reestablishing State fiscal 
        responsibility going forward, and working closely with States 
        to eliminate improper payments.
      Employee Benefits Security.--To protect health and retirement 
        benefits, DOL is requesting $183 million for EBSA for the 
        protection of more than 140 million workers, retirees, and 
        their dependents who are covered by more than 700,000 private 
        retirement plans, 2.5 million health plans, and similar numbers 
        of other welfare benefit plans which together hold estimated 
        assets of $6 trillion.
      Pension Benefits.--The budget proposes to strengthen the defined 
        benefit pension system for the millions of Americans who rely 
        on it by giving the board of the Pension Benefit Guaranty 
        Corporation (PBGC) authority to adjust premiums and directing 
        the board to consider a number of factors, including a plan's 
        risk of losses to the PBGC. This action will both encourage 
        companies to fully fund their pension benefits and ensure the 
        continued financial soundness of the PBGC. It is estimated that 
        this proposal will save $16 billion more than the next decade.
      State Paid Leave.--Too many American workers must make the 
        painful choice between the care of their families and a 
        paycheck they desperately need. While the FMLA allows workers 
        to take job-protected, unpaid time off, millions of families 
        cannot afford to take advantage of this unpaid leave. DOL's 
        budget request includes a $5 million proposal for a State Paid 
        Leave Fund to provide technical assistance and support to 
        States that are considering paid-leave programs to help workers 
        who must take time off to care for a seriously ill family 
        member.
                               conclusion
    To summarize, DOL's fiscal year 2013 budget request provides 
investments to help better connect workers and employers and prepare 
Americans with the skills they need--and that businesses are looking 
for--for the jobs of today and the jobs of the future. It also ensures 
that we have fair and safe workplaces for our workers. An economy built 
to last will require good jobs that pay well and provide security for 
the middle class, and this entails undertaking actions now to support 
and strengthen economic growth and reallocate resources to allow 
targeted investments where they are needed. Our efforts will help to 
get America back to work, foster safe workplaces that respect workers' 
rights, provide a level-playing field for all businesses, and help 
American workers provide for their families and keep the pay and 
benefits they earn. I am committed to achieving my goal of good jobs 
for everyone while the administration focuses on our shared long-term 
goal of reducing the Federal deficit. I believe it is possible to do 
both and stand ready to work with you in the weeks and months ahead on 
a responsible way forward.
    Mr. Chairman, thank you for inviting me today. I am happy to 
respond to any questions that you may have.

    Senator Harkin. Thank you, Madam Secretary.
    We will begin a round of 5-minute questions here, as soon 
as I figure out who has control of my clock here. Here we go. 
And then I will recognize Ranking Member Shelby.
    Madam Secretary, first of all, I just want to say that last 
evening, I have looked over your entire statement and noted the 
sections where you are bumping up some funding. I absolutely 
cannot find anything that I really disagree with. I think you 
have got the right priorities. I think where you are focusing 
some additional monies is where they ought to be focused, and 
you have my full support in that.
    Again, we will have to see how the whole appropriations 
process works out this year, but I do believe that you have 
done a great job, and your staff has done a great job in making 
sure we have the right priorities funded, and bumped up a 
little bit in those areas that are needed.

           SEQUESTRATION UNDER THE BUDGET CONTROL ACT OF 2011

    One question I just want to ask for the record, and I ask 
it of all the Secretaries that appear before this subcommittee, 
and that is the impact of sequestration. Under the Budget 
Control Act of 2011, funding for almost all programs face a 
possible across-the-board cut in January 2013 if the Congress 
does not enact a plan before then to reduce the national debt 
by $1.2 trillion. In other words, the Congress could approve 
the Departments of Labor, Health and Human Services, and 
Education, and related agencies appropriations bill later this 
year, but find that every budget item is going to be cut by 
sequestration.
    Now, this responsibility rests with the Office of 
Management and Budget (OMB). They have not announced how they 
are going to carry out the process. However the Congressional 
Budget Office (CBO), that is who we rely on, estimated that 
most nondefense discretionary programs would face a cut of up 
to 7.8 percent. Some, such as the Center on Budget and Policy 
Priorities, think the cut could be even larger, about 9.1 
percent. But for the sake of discussion, we will go with CBO.
    I just wonder, have you looked at this question? What would 
the impact be of a 7.8-percent cut to the services and 
activities of your Department? Again, I am particularly 
interested in what that would mean for job training programs 
and worker protection.
    Secretary Solis. Thank you, Mr. Chairman.
    I know that our effort, with the administration, is to work 
with the Congress to see that we can enact a balanced approach 
to deficit reduction. So that is our first priority. We still 
stand very committed to finding some resolution there.
    With respect to the details of sequestration, I cannot get 
into the procedures and how that will be conducted, because I 
know OMB and the administration would like to avoid 
sequestration to begin with. Nevertheless, that is something 
that they will also have to help guide us on.

               PROGRAMMATIC IMPACTS OF A 7.8-PERCENT CUT

    But I will tell you that, based on overall, your question 
about a reduction of 7.8 percent, in terms of job-training 
programs, we are looking at a hit of about $500 million to our 
workforce system, and also the inability, to reach 1.7 
additional participants. And, of course, you and I know how 
important this 1.7 million individuals that would be cut short 
of our services, and in a time of high unemployment. That is 
not a good sign.
    With respect to veterans, which I know this subcommittee is 
very focused on as well, we are looking at a reduction of about 
$13 million overall in the efforts to try to find employment 
services and provide help for veterans.
    With respect to the Job Corps program--and, in fact, I have 
some students that are visiting us from the Potomac center here 
that have chosen to come and attend this hearing--we are 
looking at a Job Corps program cut, that would be about $122 
million reduction overall. That would mean 3,100 or 3,145 to be 
exact, fewer slots that we would not be able to offer around 
the country. And in a time of high unemployment for youth, 
which is at 16 percent, that obviously would have a devastating 
effect.
    In worker protection, in terms of safety, monitoring, and 
being able to provide technical assistance to businesses, we 
are looking at a worker protection reduction in our agencies of 
$136 million. Again, that would also hurt the safety, well-
being, and protection of workers in the workforce.
    That is about as best as I can gauge right now, Mr. 
Chairman. But, certainly, we want to work with you and the 
Congress to avoid sequestration.
    Senator Harkin. Well, thank you, I appreciate that. And I 
might be asking for further clarification in written 
correspondence, because I just think people have to know that 
it is not just the defense industry that would be hit. They 
have, of course, been very vocal in their opposition to the 
sequestration, about what it would mean for cuts in aircraft 
and warfighting equipment. But we also have to look at what it 
is going to do to our human infrastructure in this country, if 
we had the sequestration. And a lot of that falls in your 
Department.
    So I think it is important for us to note what is going to 
happen if we have the 7.8-percent sequestration. So I thank you 
very much for outlining them.
    I would yield now to our ranking member.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Madam Secretary, we welcome you again here.

         JOB CORPS: DEFINING CHRONICALLY LOW-PERFORMING CENTERS

    In the area of the Job Corps, I have several concerns about 
the cost per student, program performance evaluations, and 
employment outcomes over the life of a Job Corps participant. I 
am pleased to see, however, that the fiscal year 2013 budget 
includes reforms to improve the outcomes and strengthen 
accountability. But we have not seen a lot of the details in 
your request.
    The budget includes, as I understand it, a proposal to 
close chronically low-performing centers. That sounds good. But 
it does not define a chronically low-performing center.
    Can you discuss aspects of your proposal, specifically the 
approximate number of centers that you intend to close, what 
classifies the center as low performing, and how will you use 
those savings from the closure? I think you are going down the 
right road, but I want to hear some specifics, if you can 
discuss them.
    Secretary Solis. Thank you, Senator Shelby. I know that 
this is of concern of other members on the subcommittee. And 
while I strongly believe that the Job Corps program is one of 
our premier programs, I have had the ability to work with many 
of them and probably have a record now as one of the 
secretaries that has visited most of the Job Corps centers in 
the country. And I can tell you that our goal remains to 
continue to try to have at least one Job Corps in each State, 
and we hopefully are continuing to achieve that, which is very 
important with the addition of the New Hampshire site and 
Wyoming site.
    But we need to look at performance, and looking at how well 
we are doing and how well we are not doing. And I certainly 
care about that.
    Senator Shelby. Well, that goes to the durability and the 
reputation of the program, doesn't it?
    Secretary Solis. Exactly. And it is very important that we 
are training individuals for good certificates, and that we 
don't evaluate these Job Corps centers by criteria that they 
have not been introduced to before. So that is one thing that 
we want to make sure of.
    I cannot give you a list right now of the job centers that 
we are looking at, but we will be looking at criteria that we 
have used in the past to look at low-performing centers to see 
what improvements they have made----
    Senator Shelby. Is that how you would define a ``low-
performing center?''
    Secretary Solis. There would be other aspects, as well, but 
nothing that I think would be out of the ordinary would be 
entirely new. So we would use the best criteria, and also what 
kind of attempt they have made over the past 3 years to correct 
themselves. Since I have been there, we have tried to institute 
better evaluation and technical assistance.
    I think the message is very clear. It isn't just with Job 
Corps but our other programs as well. We think that there 
should be higher standards. In my opinion, I would love to see 
more of our students while obtaining their high school or GED, 
also enrolled at a community college. And some of our centers 
do that, and I want to be able to set a marker so that we can 
enhance the growth and ability so those young people have more 
choices. That is the direction that the Department will take.
    Senator Shelby. But the bottom line is, and you know this 
well, is you have to measure what we are spending money for, 
what is working and what is not working, what centers are 
efficient and which ones aren't. Otherwise, we are just 
throwing money away, aren't we?
    Secretary Solis. And, Senator, I would tell you that before 
anything is made public, we will converse with you----
    Senator Shelby. Will you consult with----
    Secretary Solis. Coordinate----
    Senator Shelby [continuing]. The chairman of the 
subcommittee?
    Secretary Solis. Yes, and we will also make sure that the 
public is fully aware, so we give ample opportunity for 
communities to come forward and also make comments. We will go 
through the Federal Register process.
    Senator Shelby. Sure. Thank you.

                         UPDATES TO H-2B RULES

    I have another area, the H-2B rules. Many industries, as 
you well know, including the seafood and timber industries rely 
on DOL's H-2B visa program to find temporary seasonal workers. 
The seasonal nature of these industries means that these 
businesses routinely face shortages of local workers during 
their peak season.
    The H-2B program not only keeps these businesses open, but 
also contributes to the creation of additional year-round jobs 
for local workers by being open.
    For the second year in a row, it is my understanding that 
the Department has proposed an H-2B rule that would add 
regulatory burdens and costs to American businesses. In 
particular, an H-2B worker would be required to receive a 
minimum of three-quarters of their wages for each 12-week 
period they are employed, even if they do not work three-
quarters of the time due to weather or other unforeseen 
circumstances. Further, the rule would require, as I understand 
it, employers to pay transportation and subsistence costs to 
and from the workplace for those workers hired under the 
program.
    Many small businesses that use the H-2B program are, you 
know, just simply cannot afford these regulations, and will 
ultimately close, costing us jobs, be more job losses. These 
rules, I believe, are clearly not meant to reform the program 
but, some people believe, to shutter it.
    Do you understand that these rules, as we understand it, 
and they are being implemented, will kill American jobs, not 
create them? And what can we do about this? What is the real 
thrust here?
    What we want to do is create jobs, sustain jobs, isn't it?
    Secretary Solis. The Department has a responsibility, as 
you know, to ensure that the H-2B program works for American 
workers. Yet, one of our priorities is to make sure that we 
strengthen the recruitment requirements for employers, and 
establish an online national job registry because of the high 
rate of unemployment.
    So we also understand that there is a need to at least give 
American workers a chance to apply for these jobs. And what we 
have actually done here is try to minimize abuses that we have 
heard that have occurred.
    Senator Shelby. Sure.
    Secretary Solis. With respect to recruiters that have been 
somewhat unscrupulous----
    Senator Shelby. Sure.
    Secretary Solis. In terms of enticing individuals to come 
through the program.
    Senator Shelby. And you aim to get rid of those people, 
sure.
    Secretary Solis. What we are attempting to do is to hear 
from the employers, and we have heard from those folks that you 
did mention. We did meet with them, and talked about how to 
look at enhancing and improving upon the system as it works 
now. And I know we still have a ways to go. In fact, as a 
result of an appropriations rider, the effective date of the 
wage rule has changed from October 1, 2012.
    The rule changes and the methodology of how H-2B wages are 
calculated will be looked at. And what our attempt here is 
trying to make sure that people are paid adequate wages, that 
foreign workers aren't just drawn here with the belief that 
they are going to have good wages. And then we are 
shortchanging other competitors, businesses that are playing by 
the rules. So we always look to ensure that we can provide 
fairness in those wages.
    Senator Shelby. Well, there should be fairness, and people 
ought to go by the law. And you have to root out fraud and 
everything else.
    But on the other hand, if you put such a burden on these 
small businesses, look at the jobs, the unemployment rate. You 
know, look at the rate of people who have quit looking for a 
job, is 15 percent.
    We shouldn't try to kill and tighten up and over-regulate 
these businesses, should we? I think a lot of the employers 
think that is what you are doing.
    Secretary Solis. Well, we are going to work hard with 
business and try to see how we can better inform them of how 
these programs fully operate. Because the job market has 
changed, and the dynamics of our unemployment situation has 
caused us to look at things a little differently.
    And we will be conducting more outreach, such as, national 
webinars, and making sure that the employer community is 
engaged with us and we are engaged with them. But we have met 
with several Senators on this particular issue, and we are very 
much aware of their comments and concerns.
    Senator Shelby. Don't forget a balanced approach.
    Secretary Solis. Absolutely.
    Senator Shelby. What you do with regulations if you overdo 
it.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. And welcome, Madam 
Secretary, nice to see you.

              WORKER TRAINING PROGRAMS AND THE SECTORS ACT

    Early in my term, in 2007, I conducted dozens of 
roundtables around Ohio where I would meet with sort of cross-
sections of communities, and what was clear to me was that even 
as the economy worsened in 2008, is that employers oftentimes, 
and a wide cross-section of employers, had difficulty finding 
qualified workers. And what we sort of came up with, and I have 
introduced this legislation in three different Congresses now, 
is the Sectors Act, which, as you know, and as you and I have 
talked, Madam Secretary, pretty much empowers local businesses, 
community colleges, workforce investment boards, unions when 
applicable, to right, sort of from the bottom up, to construct, 
well, worker training programs.
    We saw something similar to that, and that the Labor 
Department helped to fund. Just a few weeks ago I was at 
Cincinnati State in southwest Ohio with a group of, in the 
biosciences school, in the school of biosciences, if you will, 
with employers. And they had, in part with this Labor 
Department grant, were seeing a number of people connected that 
way, and employers who need pretty highly skilled workers 
coming out of Cincinnati State finding them.
    The President included $8 million for the Community College 
to Career Fund. I think we have seen quantitative evidence that 
this kind of worker training works.
    And I would like your thoughts on how the Department is 
currently supporting sector partnerships, how does the 
administration plan to move the fiscal year 2013 proposal 
forward? How does, what role does the Labor Department play in 
this?
    Secretary Solis. I want to commend you for having the 
foresight to put forward legislation when you did, because it 
is exactly where we need to go. And we are not going to wait 
for reauthorization of Workforce Investment Act (WIA), because 
we have been in gridlock, even though I know the Senate has 
been very much more forward-thinking about working together.
    We have identified programs that we have funded already 
that are looking at sectors. And we have partnered with other 
agencies like Departments of Energy and Commerce so that we can 
help to fund and provide new initiatives, and support in 
innovation for sectors.
    So, just like Silicon Valley, you see a section of 
California that has taken off with IT over the years, and that 
has been changing. We want to continue to fund those kinds of 
regional sectors that are looking at broad growth in the next 
decade or so, and also looking at places like North Carolina 
and even Florida, where we know that the National Aeronautics 
and Space Administration (NASA) effort is going to be changing 
there. But we should not allow for that brain trust to leave by 
somehow incentivizing businesses and others to come forward.
    And we see it best done with community colleges. We are 
requiring them to do much more. And while this funding has been 
a great opportunity, there is still much more work that we have 
to do because community colleges typically don't always, how 
can I say, go out onto the assembly line and floor and really 
engage with some of the businesses to get the best curriculum, 
and find out exactly what employers want. Some are doing a 
better job than others--but we need to do more. And that is 
why, through the Workforce Innovation Fund, we are continuing 
to fund those efforts.
    Also, through the community college and the Trade 
Adjustment Assistance (TAA) program has just been phenomenal. 
We are already seeing some of the benefits from that. I just 
came off a bus tour with Dr. Jill Biden, and we visited your 
State of Ohio, Columbus State University, and heard from many 
of those businesses that have taken advantage of these programs 
that are now actually thrusting us into new areas of renewable 
energy, manufacturing, and creating a need for businesses to be 
attracted to a particular area because they know they are going 
to have better skilled individuals, and that the communities 
themselves are even offering up tax credit incentives to make 
that happen.
    So I think this is a very good thing that is going on. And 
it is a win-win for all of us, particularly these training 
programs that are finally, I think, reaching the type of folks 
that have been out of work for long periods, and helping to get 
dislocated workers into a new train of thought where if, they 
were doing something for 25 years and their job is no longer 
there, they can now receive upgraded skill certificates. So I 
think certificates, and making it more measurable in that way, 
we are having better results.
    And we are using the dollars more efficiently.
    Senator Brown. Thank you. Let me shift in my last question.

                  YOUTH UNEMPLOYMENT AND JOB TRAINING

    Ohio's unemployment rate is much too high. It is below the 
national average, but still much too high. Even more troubling 
is the unemployment rate among young people, as you know. And 
in Ohio, people aged 16 to 19 have, last year their 
unemployment rate was 19.5 percent.
    I have worked on the Youth Corps Act of 2012, which would 
help to address the need to provide young adults, especially 
those who are in some sense disconnected with more employment 
opportunities. Talk to me about what the Labor Department is 
doing with employment opportunities, especially for young 
adults, especially as summer nears, when the mayors don't have 
the opportunity to put as many young people to work teaching 
them skills, and teaching them work habits, and giving them 
some financial help.
    What are we doing?
    Secretary Solis. Well, Senator, as you know, in the 
Recovery Act we did receive funding to help push out summer 
youth employment around the country. We had close to 400,000 
student participants, which was good because that helped to 
provide them with good work experience and a pay check.
    We continue to work with our youth field programs to assure 
that we are continuing to train individuals. And you can see in 
the audience here today we also have some young students from 
Potomac Job Corps that are entering into areas like 
pharmaceutical assistance and security. We are seeing that we 
are changing our curriculum to make it more amenable and cost 
effective, and really listening to what employers want we can 
make that bridge a lot sooner.
    We also are making investments with students and young 
people that have had trouble with the law, through our 
reintegration of ex-offenders programs. That continues to be a 
high priority, and we are working with the Department of 
Justice to help alleviate some of those issues and barriers 
that continue to be major impediments for people to reintegrate 
into society.
    The President also has now taken up this initiative to 
create summer jobs but on a volunteer basis. Since there is no 
funding for this initiative, we are asking for corporations to 
step forward. We have about 170,000 corporations that have now 
said that they will work with us, set up mentoring programs, 
internship programs, and paid positions. But we need more 
corporations, and more small businesses, and even nonprofits to 
participate. So that is something that the President has 
strongly gotten behind.
    I remain very committed to not only Summer Youth, but to 
all of our youth programs, because I think that we have too 
many young people that are out of work; there is a 16-percent 
underemployment rate and in some areas, as you know, depending 
on the particular ethnic backgrounds, it is much higher. And 
that is unacceptable at a time when we need everybody to be 
working.
    I look forward to working with you on ideas that you might 
have on how we can make our programs a more efficient, and 
hopefully get more of the private sector involved in joining in 
our partnerships.
    Senator Brown. Thank you.
    Senator Harkin. Thank you, Senator Brown.
    Senator Moran.
    Senator Moran. Mr. Chairman, thank you.
    Madam Secretary, I am pleased to have the opportunity 
finally to visit with you this morning. I want to follow up on 
at least the topic that was just raised in your conversation 
with the Senator from Ohio and, in fact, in response to the 
question from the Senator from Alabama about youth. And I 
noticed that you said that we have high unemployment especially 
with youth. And in regard to Senator Brown, you were talking 
about mentoring programs and internships.

                       CHILD LABOR IN AGRICULTURE

    And I am very concerned about the DOL's proposed 
regulations as they deal with youth labor in regard to farms. 
And disappointed--you and I know each other from our days of 
serving in the House of Representatives--and disappointed in 
the Department's effort at outreach and understanding of what I 
think is a very unique way of life. The Department, on its own 
volition, decided to alter, at least propose altering, the 
regulations related to young people working on farms, including 
young people working on their own families' farms. And this is 
an issue that fundamentally alters a historic and familiar 
relationship so important to America, and particularly 
important to rural America.
    And so I am here to engage in a conversation, but to 
criticize not only the process but, at least to date, the 
result that your Department is pursuing in regard to these 
regulations.
    I have asked--again, from our experience in the House I 
consider you to be a conscientious, well-intentioned, open-
minded person. But I do want you to know that we have reached 
out to you, invited you to meet with me, which was declined, 
invited you to come to Kansas, which was declined. Not to 
necessarily spend time with me, but to be on family farms, to 
meet with Future Farmers of America (FFA) students, see what a 
4-H program is like, to get an experience of something that is 
a pretty common way of life in many places across the country.
    Also, 30 Senators wrote you, the DOL, a letter expressing 
concerns and raising questions. We were told--it was a 
bipartisan letter, we were told that the Department would not 
respond to that letter, but that it would be considered just 
like other comments made by citizens in regard to those rules.
    And so I have the sense that there are those who have the 
ability and desire to have a conversation with you at the DOL 
so that you are fully aware of the consequences of the proposed 
changes that you are making.
    The rules that you are proposing deal, at least in my view, 
in three broad areas. One is a parental exemption, the question 
of whether or not children could work on their own family's 
farm. And the idea that you would even--and I understand that 
you are re-proposing that portion of the rule, and I am worried 
that that sends a message that things are okay. We don't know 
what that re-proposed rule is going to look like, but the fact 
that you would suggest rules that relate to whether a farmer's 
own child at age 15 can work on their own farm suggests that 
input is needed, that this is a major change in the way that we 
live our lives.
    And as you talked about the need for youth employment, it 
is one of the few remaining opportunities for many rural youth 
in small towns across Kansas and around the country to find 
employment in the summer and throughout the school year.
    In addition to that, you want to intrude upon what is 
currently working, in my view, well, related to student learner 
exemptions, and replace 4-H and FFA and county extension 
programs with a DOL program. And you indicate in the proposed 
rules that you believe 4-H and FFA and county extension are, 
quote, too locally driven and lacking Federal direction.
    In my view, those kinds of programs that are locally driven 
by people who have experience, knowledge and a desire to see 
children in their own communities succeed is exactly the kind 
of programs we need.
    And finally, the third component of your proposed rules 
deals with hazardous occupations. And in that regard, the 
regulation is so overly broad, regulations prohibiting a young 
person from working 6 feet off the ground mean that no child, 
no young person is going to be in the cab of a tractor or a 
combine. And, in fact, your rules suggest that a young person 
could not even use a power-driven screwdriver. The language of 
the legislation prohibits anything for a young person to use 
that is not driven by their own power. And so, based upon the 
broad language of this ``hazardous occupation'', do you believe 
that you are prohibiting the use of a power, a battery-powered 
screwdriver?
    The consequences of the things that you put in your 
regulations lack common sense. And, in my view, if the Federal 
Government can regulate the kind of relationship between 
parents and their children on their own family's farm, there is 
almost nothing off limit in which we see the Federal Government 
intruding in a way of life.

                      ADMINISTRATIVE PROCEDURE ACT

    Senator Harkin. Madam Secretary, before you answer that, I 
just want to interject something here.
    I understand the Senator has concerns about this proposal. 
I think we probably all do, those of us from rural areas. I 
still live in my hometown of 150 people. Not too many people 
can say that. And we are all farm-based, and so we all have 
concerns about it.
    However, I just want to state that I and my colleagues need 
to recognize that the DOL must be careful to adhere to the 
Administrative Procedures Act (APA) while it is engaged in this 
rulemaking. Under the APA, the Department is limited in the way 
it is able to discuss a proposed rule, either in meetings or in 
correspondence with interested parties.
    So, you know, this goes back--I've been here a long time. 
Sometimes we all get frustrated with rulemakings. But I 
recognize that whether it is a Democratic or Republican 
administration it doesn't make any difference, they still have 
to adhere to the APA. And so they are limited in what they can 
say, and how they can approach it.
    All the indications I have is that the Secretary takes the 
views and concerns of the agriculture community seriously. They 
are carefully reviewing the more than 10,000 comments it has 
received on this rulemaking. They are consulting with the U.S. 
Department of Agriculture (USDA). And any letters that I write, 
or anybody else writes, will be considered as part of those, as 
part of those comments.
    So I just wanted to state that for the record, under the 
APA.
    Please proceed.
    Secretary Solis. Thank you, Mr. Chairman. And also, Senator 
Moran, I understand your concern, and have taken note of 
comments by other Members of Congress and Senators that have 
communicated with us on this rule. I take very seriously the 
comments that you have made. And I realize that you sent a 
letter to us, but it was at a point where I couldn't respond 
because we were already entering into that gray area where I am 
not allowed to publicly put anything in writing because of the 
comment period.
    But I will tell you that other letters that we received, 
10,000 in fact, had similar subject matters. So it is noted.
    I also want to let you know that, while I wasn't able to 
visit with your local farmers or you in your district, or your 
State, that doesn't mean that my staff isn't available to work 
with you and your subcommittee staff. We have had meetings with 
your staff when you were unable to be there. And we have tried 
to mitigate and at least explain, where there are issues. Some 
of the comments that you make about the use of powered 
screwdrivers and what have you, are taken out of context, and 
they are not what we are proposing. So we do need to do a 
better job of communicating it that is what is being said out 
there.
    I do want to make very clear that it is important for us to 
allow for young people to have the ability to go through 
education programs such as 4-H programs. I don't think this 
rule in any way will hinder that involvement. We are concerned 
when there are fatalities, when we still see the second-largest 
rate of fatalities occurring on farms.
    And while I don't have a problem with children working on 
their parents' or relatives' farms, that is a question that we 
are going to seek comment on. Personally I agree that, those 
are things that should be allowable, quite frankly. But I do 
know that we have to protect and prevent any further injuries 
from young people that are working in settings that are not 
protected.
    We have seen serious fatalities, a record of more than, 
21.3 percent per 100,000. And I just received a report that was 
issued yesterday by the Journal of Pediatrics that also states 
very clearly that we have seen an increase in injury and cost 
to businesses because of fatalities of young people in 
agriculture. Not all of them have been through direct work on 
farms, but many of them in the agricultural industry. So I 
think there is a compelling reason to look at this. We haven't 
upgraded the rule for 40 years. And the way business is done on 
farms has changed a bit.
    We just want to make sure that we get it right, that we get 
the most abundant comments from people that are out in the 
field, that are running these operations, and to do our best to 
try to inform farmers and business owners that we want to work 
with them and provide as much technical assistance and help as 
we can. Certainly we want to clarify those areas that you 
pointed out, that I believe are misinterpreted.
    And we will do what we can to work with you on that. 
Personally, I will see to it that we do that.
    Senator Moran. Madam Secretary, I just would indicate that 
the outreach that, in my view, should have occurred before the 
proposed rules were proposed, was short, fell short. And I am 
troubled by the fact that where you start is so contrary to a 
way of life, to common sense, and to the way that things are 
done.
    I am hopeful that the comment period that you are now in 
will result in significant changes, if not withdrawal, of the 
proposed rule. In fact, we have had pages of folks who have 
contacted us with additional comments, but the comment period 
has expired.
    And it does highlight how the Department's initial 
announcement of proposed rules is so out of touch with farm 
families and youth in rural communities.
    I look forward to the degree that the chairman will allow 
the rules, to have you respond, I would be glad to continue the 
conversation.
    Senator Harkin. Okay, we will start another 5-minute round. 
Thank you.
    As I stated in my letter on this issue, I noted, that 
experts have learned a lot in the 40 years since child labor 
rules in agriculture were first issued. On Monday, the Journal 
of Pediatrics said that more than 26,000 kids and adolescents 
get injured on farms and ranches in the United States every 
year, 26,000. I would just say, Madam Secretary, I would hope 
that you would, in your looking at this, make contact with an 
organization called Farm Safety 4 Just Kids. It was started by 
Marilyn Adams in 1987. It is a wonderful organization. It 
started in Iowa, I am very proud of that. The Web site is 
www.fs4jk.org.
    They have worked with farm families all over the country on 
how to establish safe parameters for kids working on farms, 
working on farms under their parents supervision. I think they 
have really come up with ingenious ways of protecting kids on 
farms and so they could be a great source of information for 
you. My staff could get hold of the staff there for you.

           EMPLOYMENT OPPORTUNITIES FOR DISABLED INDIVIDUALS

    I had one last question, then, and that was dealing with 
the issue of disability. As you know, individuals with 
disabilities have left the workforce at twice the rate of 
people without disabilities, about 7 out of 10.
    Because so many people with disabilities in the recession 
have been laid off, as we begin to re-employ people, I hope 
that we are going to really be looking at, again, not one-for-
one, but almost two-for-one. For every one person without a 
disability, we have got to hire back two with a disability just 
so we get back to where we were prior to the recession.
    I just, again, would ask you about your disability 
employment initiative. We started that in the fiscal year 2010 
bill from this subcommittee. I know your commitment to 
finalizing section 503 rulemaking by October of this year. I 
appreciate that.
    So, I just wonder if you could just tell us about the 
disability employment initiative. Are there other proposals in 
this budget that I haven't seen to address workforce issues 
related to individuals with disabilities?
    Secretary Solis. Thank you, Mr. Chairman. I know you have 
been a tireless leader on this issue, and something that you 
care and many of us care very deeply about. I do want to say 
that we appreciate your support that you have given us at the 
Department. We have also looked at increasing, through a 
proposed rule, Federal contractors' employment opportunities 
for disabled individuals, which we think is moving in the right 
direction.
    With respect to the disability employment initiative that 
you helped to champion, ETA and our ODEP office, that is the 
Assistant Secretary for ETA, and our Director, Kathy Martinez, 
who you know very well, are working to increase access to 
training, and creating new initiatives. One is the Add Us In 
Initiative. And I think you may be somewhat familiar with that. 
The Add Us In's goal is to get small businesses to better 
understand what the expectations are, and perceptions are, with 
people with disabilities to help create and foster more 
positive outcomes, so that people won't be frightened or afraid 
to hire folks with disabilities, and understand what all that 
means. We are also working with employer associations and other 
sectors to expand that field.
    Senator Harkin. A year ago I met downtown with the U.S. 
Chamber of Commerce, under Mr. Donahue, Tom Donahue. They have 
set as a goal to employ 1--is it 1 million? One million more 
people with disabilities by 2015. I think it is 1 million, it 
may be a little bit more than 1 million. But it is a very 
aggressive goal, and here is someplace where the DOL could work 
with the chamber of commerce in making that happen.
    Secretary Solis. We are attempting to do that with some of 
the various business associations. Kathy Martinez, and our 
Assistant Secretary for ETA who is here, Jane Oates, have been 
working on this, and we know how serious it is. We do have to 
try to level the playing field. So we look forward to working 
with you.
    Senator Harkin. Kathy Martinez does a great job for you.
    Secretary Solis. Thank you.
    Senator Harkin. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman. And welcome, Madam 
Secretary.
    Secretary Solis. Thank you.

                           COMPANIONSHIP RULE

    Senator Alexander. I would like to discuss the so-called 
``companionship exemption'' under the Fair Labor Standards Act 
(FLSA), and the proposed rule of the Department, that I believe 
the comment period may end tonight. So I would like to make a 
comment about it. And then I would like to ask you three 
questions, all of which I believe you could answer yes or no 
without offending anything in the APA.
    Here is my comment. I understand it has not--my worry is 
about changing the way overtime is considered, with the 
companionship exemption. Here we are talking about a situation 
when mostly seniors would hire someone, or some small business, 
to provide a nurse or a helper to live in with that person, or 
to come to that house every day to help someone. And the 
proposals that the proposed rule would seem to have concerning 
overtime suggests to me that the rule would mean that seniors 
in America would have less care, because it would be more 
expensive. There would be fewer jobs for those who are helping, 
and it would likely force a large number of people who are now 
cared for in homes into more expensive institutional settings, 
which would drive up healthcare costs in States which are 
already struggling with healthcare costs, and are about to be 
hit with the new costs that come with the Medicaid mandates on 
the healthcare law.
    So I am concerned that the Department hasn't sufficiently 
evaluated the impact of the rule on what it will do to seniors 
who need care, on people who want jobs, and on Medicaid costs 
to the States.
    The Office of Advocacy at the Small Business Administration 
(SBA) recently sent a letter to you stating the Department's 
economic analysis doesn't fully reflect the fact the majority 
of the in-home companionship services are provided by small 
businesses, and are paid for through the private market. These 
small businesses will have to pass on the higher costs of this 
new overtime to seniors, most of whom are single and living on 
fixed incomes.
    So here are my three questions. One, will the Department 
follow SBA's recommendation to conduct a more thorough economic 
analysis before moving forward with this proposed rule? That is 
number 1.
    Number 2, my office was told by your staff that the 
Department didn't consult with a single Medicaid director when 
developing the rule. Is that true? I am especially interested 
in that because Medicaid is 24 percent of State budgets.
    And, number 3, is the Department willing to withdraw the 
rule to conduct a more comprehensive analysis of the impact on 
State Medicaid and budgets?
    Secretary Solis. Well, Senator, I would first of all tell 
you that in looking at the companionship exemption through FLSA 
that was established back in 1974, it was intended at that time 
to look at other kinds of occupations, like babysitting. It 
didn't really encompass this whole new arena of healthcare, in-
home healthcare providers. And so it has changed because of 
changing times.
    Senator Alexander. Well, but the change is that we have a 
lot more older people in America who don't have money, who are 
often single. They need help, and they can't a big overtime 
bill.
    Secretary Solis. Senator, I don't disagree, but I also know 
that there is more professionalism that has come about in this 
industry. You have different providers who would like to keep 
people not achieving, say, a better footing, in terms of the 
economy, through these jobs. So they do not want to pay them. 
Many of them have already commented that they are very 
concerned about the overtime pay. But we are looking at an 
industry of about 2 million women, mostly women in this area, 
that are already trying to make ends meet, and are paid very, 
very low wages----
    Senator Alexander. Well, if you put them out of work with 
higher costs caused by your overtime rule, they will really 
have a hard time making ends meet.
    Secretary Solis. Well, I think one of the things that we 
are attempting to do here is also level the playing field. 
Because you do have some good providers, some good folks that 
are playing by the rules.
    Senator Alexander. There is no rule that requires overtime 
pay.
    Secretary Solis. Well, what we are looking at, Sir----
    Senator Alexander. So what you are doing is talking about 
raising the cost of home healthcare to people who can't really 
afford it, and putting people out of work who can't get the 
job. That is what you are really talking about.
    Secretary Solis. Well, we are still taking comments. And I 
know that we have, because of the enormous amount of comment--
--
    Senator Alexander. Well, what about the answer to my three 
questions? Will you get an SBA report before you move ahead? 
Will you--did you consult with any Medicaid director in any 
State? And, if you didn't, will you before you do the rule?
    Secretary Solis. Well, certainly we have a responsibility 
to always look at economic impact.
    Senator Alexander. Well, the answer can be ``Yes'' or 
``No'', Madam. Did you, or will you, follow the SBA's 
recommendation? Yes or no?
    Secretary Solis. I will get back to you on that.
    [Clerk's Note.--Additional information is available in 
questions submitted by Senator Alexander under heading 
``Proposed Companionship Exemption Rule''.]
    Senator Alexander. That is not a yes or a no. Did you 
consult with any Medicaid director in any State about the 
increased healthcare costs?
    Secretary Solis. We have consulted with a broad variety of 
appropriate groups.
    Senator Alexander. Did you consult with any Medicaid 
director, which is 24 percent of the costs of a State budget 
about the impact on their healthcare costs?
    Secretary Solis. My staff met with several stakeholder 
groups, yes.
    Senator Alexander. Did you meet with any Medicaid director?
    Secretary Solis. I did not directly.
    Senator Alexander. Did your staff? They told me they 
didn't.
    Secretary Solis. I have to ask my----
    Senator Alexander. So you don't know.
    Secretary Solis [continuing]. Wage and Hour Deputy.
    Senator Alexander. You don't know? Whether you met with----
    Secretary Solis. Not offhand. But I know that I have been 
informed fully that they have met with various stakeholder 
groups.
    Senator Alexander. Well, I didn't ask that. I asked whether 
you met with a Medicaid director about this----
    Secretary Solis. I did not personally, Senator.
    Senator Alexander. And if you didn't--well, whether you did 
or not----
    Secretary Solis. No, I did not.
    Senator Alexander. Are you willing to consult with Medicaid 
directors about----
    Secretary Solis. Certainly. Certainly.
    Senator Alexander [continuing]. The effects of the proposed 
rule?
    Secretary Solis. Certainly. Certainly. Certainly.
    Senator Alexander. Thank you.
    Senator Harkin. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. Thank you, Madam 
Secretary.

                           H-2B VISA PROGRAM

    I want to talk about the H-2B program. And, one, I 
appreciate your staff coming over to meet with several Senators 
that were concerned about this. I thought it was a productive 
meeting. And Senator Mikulski from Maryland was deeply 
involved, so this is a bipartisan issue.
    I think most Americans would be surprised to know, would 
you agree, that apparently there is a labor shortage in 
America, even though we have 8.3 percent unemployment in 
certain areas of our economy?
    Secretary Solis. I know that in certain sectors there is 
that issue does exist.
    Senator Graham. Yes. How can that be?
    Secretary Solis. How can that be?
    Senator Graham. People ask me that. I mean, I just wonder, 
I mean, if we have 8.3 percent unemployment, and maybe 15 
percent of underemployed, and people have stopped working, how 
can it be that we need visa programs for the seafood industry, 
the landscaping industry, and H-1B, the high-tech industry?
    I mean, have you got any ideas on how that happened?
    Secretary Solis. Well, all I can tell you is that for our 
purposes at the DOL, we are trying to assist in providing 
information to American workers about these employment 
opportunities, these openings----
    Senator Graham. And I think you are doing a----
    Secretary Solis. That are available.
    Senator Graham. I think you are doing a good job.
    But, I mean, let me talk about the Kiawah Island Resort, 
they're hosting the PGA, and please come, everybody, in August 
2011. They are having to expand their workforce. That is good 
news. They need some workers, seasonal workers all the time, 
but a plus-up here.
    And they were advertising for service workers, you know, 
maids and other folks to help with the increased capacity 
there, increased business. And they advertised, they needed 150 
workers, and I think we got nine people from the region that 
basically applied. And I can't give you the exact number, but 
about one-third of them couldn't make it because of the drug 
test. So now they have to go to Jamaica and try to bring in 
140-something folks who work hard and do a good job, and that 
was astounding to me. But when you go--have you ever been in a 
chicken processing plant? You know, I know a lot of people from 
the South, it is not a real surprise that American workers have 
moved on from these jobs. It is not because we are lazy, it is 
just because I think the American workforce has higher 
aspirations. And a lot of these jobs that are manual labor 
jobs, like landscaping, and chicken processing, and meat 
processing, employers just cannot find people here at home.
    And I don't think it is an advertising problem. You are 
doing a good job trying to advertise more. And the pay scale, 
because of the rule, is dramatically higher than the minimum 
wage. And the concerns we had is that you were calculating a 
pay scale increase not based on the local community like work 
requirements, but a broader geographic area. You were requiring 
more transportation cost in and out that was making it harder 
for people to afford to get these workers.
    So what I worry about is that we need to give employers 
access to labor, and the first person they should try to hire 
is an American, paying a decent wage. But if you can't hire an 
American, do you agree with me we should have a visa program 
that works for American employers?
    Secretary Solis. Well, I would agree that our purpose is 
to, try to entice American workers to these jobs.
    Senator Graham. Right.
    Secretary Solis. And if they are not able to find them 
after they have gone through a thorough advertisement, beyond 
just the local community paper.
    Senator Graham. Now, we all agree with that.
    Secretary Solis. Because we have abused this program in the 
past.
    Senator Graham. No, we all agree with that. Let us say we 
do it the way that we all agree on, and you just can't find the 
workforce for whatever reason, we want a visa program on the 
high-tech and low-tech end that actually meets employers' 
needs, is that correct?
    Secretary Solis. I would agree with that. And I also would 
think that our priority is to make sure that we don't also 
drive down wages in the past there have been unscrupulous 
employers that have not paid, say, the going rate in certain 
areas.
    Senator Graham. But, in----
    Secretary Solis. And so they have abused the program. We 
are finding that out, and we are trying to clean it up.
    Senator Graham. But the visa program has always had a wage 
calculation requirement. The push-back you got from a lot of 
people from the seafood industry and the landscaping is that 
the cost of this program was getting to be exorbitantly high, 
and it was just not paying what people in South Carolina make. 
You had a broader view of things. The transportation costs 
increased dramatically.
    And as the law, as I understand the law, you can't pay an 
American worker any less than you pay an H-2B visa worker, is 
that correct?
    Secretary Solis. Yes.
    Senator Graham. So you are driving up wages even for the 
local workforce.
    And so I just want to end with this thought: Let us keep 
working together to work on a visa program that meets the needs 
of employers, so they will stay in business, and that American 
workers can go to find a decent paying job, and that the visa 
program doesn't put American workers at risk because we are 
driving up the cost unnecessarily here.
    So, I just want to keep working with you on this. This is a 
big deal to people in my State and, I think, just throughout 
the country. And this is not a Republican issue, this is a 
bipartisan issue. So I look forward to working with you on 
reforming the visa program.
    Secretary Solis. Senator, I agree, and look forward to 
working with you. I agree that we need to work with those 
industries that are growing, the high-tech area in particular, 
and making sure that everyone is using the same reference, in 
terms of bringing individuals here, and they are fully aware of 
what that means--but always giving preference to American 
workers here, that they have first dibs on those jobs. And that 
has been a big game change, I think, in the last few years, 
because of the fiscal crisis that we are in. So we do want to 
do our best.
    And we have worked with Senators, yourself, and we thank 
you for your leadership on this issue and look forward to 
working with.
    Thank you.
    Senator Harkin. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

                 GULFPORT, MISSISSIPPI JOB CORPS CENTER

    Madam Secretary, in 2005, the year 2005, Hurricane Katrina 
struck the Mississippi gulf coast, resulting in huge damages to 
property and businesses and homes all throughout the region.
    Since that time, the Congress has appropriated $14 million 
specifically for the reconstruction of our Gulfport Job Corps 
Center in Gulfport, Mississippi. And I hate to mention this, 
but the center has not been rebuilt yet, and I don't know why.
    But I hope you can help us figure out a way to move forward 
with allocation of previously appropriated funds, or the use of 
funds that we may now appropriate, that can be used under your 
authorities for the construction of facilities for worker 
training and other activities that are appropriate under the 
law for a Job Corps center replacement facility.
    Do you have any plans, specifically, for dealing with this 
need of the Department? Is it considered something that is a 
priority in the DOL?
    Secretary Solis. Senator, I think the last time I was here 
before the subcommittee we had a conversation about this. And I 
do remain committed to continuing to build out that particular 
facility. But I know since that time there have been some local 
issues with respect to the construction of that facility, 
because there are some buildings that are historic in nature, 
that were brought to our attention by the local community 
there. So I know that that has been a challenge for us, in 
terms of figuring out exactly how we go about building and 
starting the construction.
    So I am mindful of that, and want to see how quickly that 
can be resolved, working with you and, of course, taking in 
public comment.
    But while we are waiting, I am responsible for using the 
monies that had been set aside to facilitate other construction 
of other facilities. So I will do that, but I will remain 
committed to working with you, and hopefully see that we can 
get some resolution on a site there that would be amenable to 
the community, as well as to the folks that are involved in 
this process. But we have to do it legitimately. As you know, I 
have to follow procedures, rules, that have been laid down long 
before I arrived as Secretary of Labor.
    Senator Cochran. Well, I appreciate that you have to 
operate under the restraints of law and currently existing 
regulations. But the local community in the Gulfport area, and 
those who would benefit from the training to obtain good-paying 
jobs is still a very serious need in that region.

                          PROPOSED H2-B RULES

    One other question that I have relates to the gulf coast, 
as well. And it involves the seafood community. There have been 
a lot of problems in the Gulf of Mexico that have been 
identified. Many of these are challenging, to say the least.
    But the Department has proposed two H-2B rules that will 
make the process of hiring workers even more cumbersome and 
more challenging to deal with in a positive way.
    Now, I don't know all of the specifics about this, but I am 
told by my staff members in the Gulfport office that we have a 
lot of workers available for H-2B worker's permits. And I 
wonder what is your reaction to the challenge of putting 
together a seasonal workforce under new recruitment timeframes? 
What can we expect?
    Secretary Solis. Senator, we are obviously very concerned 
about this, as well. We have received numerous comments 
regarding this proposal, and know that we are trying, to 
address this as best we can. We want to make sure that we do 
our best to make sure that American workers, have access to 
those jobs, as well--I totally agree with you, because of the 
fact that we have seen such great impacts in the gulf, and want 
to work with you.
    I want to minimize abuses that have occurred in the past. I 
believe that there is more opportunity to have a better, robust 
program that actually helps to give those individuals that are 
engaged in that particular visa program a good quality of life.
    But we want to minimize those unscrupulous businesses that 
take advantage, and drive down costs, and do that deliberately 
because they don't want to pay good wages. So many have been 
able to do that in the past that we are trying to clarify and 
upgrade our rules.
    Our intention is to be very clear and transparent about it. 
But I know that there are folks out in the field that may not 
feel that way, and we want to work with them. That is why we 
are doing more outreach, we are doing more webinars. We are 
consulting with more business, and will do whatever we need to, 
in particular in the gulf. I would love to have my regional 
staff, work with you and your staff, and those appropriate 
individuals, you deem appropriate that we need to work with.
    Senator Cochran. Well, I appreciate the fact that this has 
your personal attention and we thank you for your efforts.
    Secretary Solis. Thank you. Thank you, Senator.
    Senator Harkin. Thank you, Senator.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, Senator Kirk is unable to be 
here. And, Madam Secretary, he has a number of questions, and I 
would submit them to you for the record to answer, if you would 
please.
    Thank you very much.
    Senator Harkin. It looks like our votes are about ready to 
start.
    I just wanted to comment about referring to what Senator 
Alexander was talking about, home care workers and the proposed 
regulation.
    It seems to me that as society has changed, more and more 
people want to receive care in their homes, but we have learned 
some things about this. We know that it is cheaper for society 
as a whole for the elderly to be taken care of in their homes, 
rather than to go to an assisted living place, an institution 
or a nursing home. And, in most cases the quality of life is 
much better for the elderly. They are in their homes, they are 
in their neighborhoods.
    And so this whole thing has built up over the last 30 or 40 
years as we are living longer in our society, I think as 
Senator Alexander alluded to. But it just seems to me that the 
answer to this is not to say that if you are low-income 
elderly, then we need a whole bastion of low-income workers to 
take care of you, who are paid sub-minimum, poverty wages. That 
doesn't seem to help society much, and it doesn't help the 
elderly.
    Some States have already moved ahead. Twenty-one States 
currently offer some protection to home care workers. Sixteen 
States now require overtime for home care workers. So I think 
we are basically moving in the right direction.
    Home care workers need to be better qualified. We know 
instances, case after case, of an elderly person being taken 
care of by someone that is not being paid very well. They are 
not really qualified. The elderly person doesn't take his or 
her medicine. They may fall because they are not supervised 
properly, and maybe don't have the proper barriers in the 
house. They break a hip, they go to the hospital, and the costs 
go up for society because they are covered by Medicare, or 
Medicaid as the case may be. Maybe they are dual-eligible.
    So I think, the time has come to address this issue of home 
care workers, their qualifications and how they are trained, to 
make sure that they are paid to do a job that I think is one of 
the most important jobs in our society. That is to make sure 
that elderly have a good quality of life, that they can 
maintain themselves in their own homes and their own 
communities without being forced to go to an institution.
    So we have to come up with the wherewithal to make sure 
they are paid adequately. As I said, the answer is not to have 
a whole bastion of workers out there that are paid poverty 
wages to take care of the elderly.
    Last, we tried to get a Community Living Assistance 
Services and Supports (CLASS) act into ACA, where people could 
put some money aside for contingencies like this later in life. 
Well, a CLASS Act has got some problems, I know that. But it 
seems to me that we need to have some source of revenues for 
people when they get older to make sure that they can get that 
kind of home care if they so desire.
    The problem, as I have said many times, I have said it 
forthrightly, the only problem with the CLASS Act, it was 
voluntarily. And young people never think they are going to get 
old. They are never going to need that, so they're not going to 
put any money into it.
    But we have seen the value of Social Security, we have seen 
the value of Medicare. We have seen the value of disability 
insurance, all the three components of Social Security, which 
are mandatory, upheld by the Supreme Court numerous times. It 
seems to me we need one more tranche. Because of the longevity 
of people living now, we need another tranche in there, and 
that is a mandatory part that would go toward home care for the 
elderly, and so that we can have a good workforce out there 
that is qualified, trained, paid well, to take care of elderly 
in their own homes.
    So I would just state that for the record, if anybody 
wanted me to go on and on about this!
    Do you have anything else you wanted to add?
    Senator Moran. Mr. Chairman, thank you. I just want to 
follow up.
    I just want the Secretary to know that folks in rural 
America, farm families, care greatly about their kids and their 
safety. Every parent wants to make certain that their child has 
the opportunity to grow up in a safe environment, and have the 
opportunity to earn a living, and learn a trade and a 
profession and pursue the American dream.
    I just want to make certain, absolute certain, that in this 
need to find this safe environment by the Department of Labor, 
that you don't overreact, that you don't overreach, and that we 
don't fundamentally alter the way that rural Americans have 
lived their lives.
    I think teaching, for example, is a noble profession. And 
how do we find good teachers? How does somebody decide they 
want to be a teacher? Well, they experience a great teacher in 
their life, and so they grow up thinking, when I grow up, I 
want to do what this teacher has done for me.
    And your rules as proposed change the way in which we are 
going to have the opportunity for a young person to experience 
working on a farm, their own family's or their neighbor's. And 
we are going to lose that opportunity for that young person to 
say, when I grow up I want to be a farmer, I want to be a 
rancher.
    This is a huge and significant issue for those of us who 
care about rural America. And the rules as proposed are overly 
broad, and overreach, and an involvement in ways that, in my 
view, destroy that opportunity, alter for generations to come 
the chance we have to have farm kids experience that and grow 
up with a dream to farm and ranch in this country.
    We need your help, we need your attention to this proposed 
rule, and would ask again that you alter the plan that you are 
on.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you.
    Madam Secretary, again, thanks for your appearance here. 
Thanks for your response.
    Secretary Solis. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Harkin. We may have some further written questions, 
and we will leave the record open for 10 days for such 
questions.
    [The following questions were not submitted at the hearing, 
but were submitted to the Department for response subsequent to 
the hearing:]
               Questions Submitted by Senator Tom Harkin
                          sequestration impact
    Question. Please elaborate on your response to my question about 
sequestration. I'd like more specific information on the impact of a 
7.8-percent cut on agencies of the Department of Labor (DOL), their 
missions and individuals served by their programs.
    Answer. As I mentioned in the hearing, our effort, with the 
administration, is to work with the Congress to enact a balanced 
approach to deficit reduction. That is our first priority; we remain 
very committed to finding some resolution. By design, the sequester is 
bad policy, bringing about deep cuts in defense and non-defense 
spending and threatening continued economic growth and prosperity. The 
President's 2013 budget presents a balanced plan that contains 
sufficient deficit reduction to avoid a sequester. The budget also 
preserves the Department's core functions and makes important 
investments in areas such as job training and worker protection. 
Although the administration is continuing to analyze the potential 
impact of the sequester, I will tell you that it would be very 
difficult for us to manage cuts of 7.8 percent to our programs and 
still achieve our fundamental mission to prepare and protect American 
workers.
    For example, a 7.8-percent decrease in funding in our employment 
and training programs would result in a reduction of more than $500 
million for our workforce system, meaning that more than 1.7 million 
fewer participants could be trained, retrained, or be helped to find a 
job. For the Workforce Investment Act (WIA) formula grant programs, 
this would mean a reduction of more than $60.1 million for adults, 
resulting in approximately 483,000 fewer job-seekers receiving needed 
services to find sustainable employment; a decrease of $78.6 million 
for dislocated workers, resulting in approximately 63,000 fewer workers 
served; and a reduction of $64.3 million for youth, resulting in 18,600 
fewer disadvantaged youth served. In addition, the Dislocated Workers 
National Reserve would be decreased by $17.5 million, and Community 
Service Employment for Older Americans would be reduced by nearly $35 
million, resulting in approximately 5,500 fewer job-seeking older 
Americans served should this program remain in the Employment and 
Training Administration (ETA) of DOL.
    For the statewide activities funds in each of the three formula-
funded streams, some States may face a funding deficit to administer 
WIA in program year 2013 if the policy of reducing statewide activities 
funds from 15 percent to 5 percent is continued. If funded at a level 
that is 7.8-percent less than the fiscal year 2012 enacted level, 
approximately eight States (likely Wyoming, North Dakota, South Dakota, 
Vermont, Alaska, Nebraska, New Hampshire, and Delaware given program 
year 2012 formula allotments) would have less than $300,000 available 
to administer their Workforce Investment Act programs.
    In the Job Corps program, a 7.8-percent cut to our current level of 
operations funding would result in a decrease of close to $122.4 
million and would translate into approximately 5,000 fewer student 
enrollments. Funding at this level would also delay the opening of the 
new center in New Hampshire and require us to accelerate plans to close 
Job Corps Centers far beyond the chronically low-performing centers 
that we are committed to addressing, impacting not only the students 
who would not be served, but the communities where centers are located. 
Funding for Construction would be reduced by approximately $8.2 
million, delaying construction and center renovation projects and 
deteriorating center facility conditions, and a reduction of nearly 
$2.3 million to Job Corps Administration would require a cut of 22 
full-time equivalent (FTE) employees, achieved either through attrition 
or a reduction-in-force (RIF).
    For the State Unemployment Insurance and Employment Service 
Operations (SUIESO) appropriation, a reduction of 7.8 percent to the 
fiscal year 2012 funding level translates to a decrease of nearly $56.3 
million for the employment service, resulting in approximately 
1,735,000 fewer job-seekers served. Funding for the One-Stop Career 
Centers would be reduced by nearly $5 million, which would result in 
one or two fewer Disability Employment Initiative grant to States, a 
small reduction in labor market information grants to States, and 
postponement of enhancements to electronic tools.
    A decrease of this magnitude would also require ETA to reduce 
Federal staff by about 51 full-time positions, with severe impacts on 
the oversight, accountability, and efficacy of ETA programs.
    For our worker protection agencies, a 7.8-percent reduction in 
funding would mean a decrease of approximately $136 million. This would 
have a significant impact on our efforts to ensure safe and healthful 
workplaces, and to ensure that workers get the wages and benefits to 
which they are entitled. These reductions would likely impact our most 
vulnerable workers just as we are emerging from an economic recession.
    At this decreased funding level, the Employee Benefits Security 
Administration (EBSA) would be reduced by approximately $14.3 million 
and 100 FTE. This would force EBSA to eliminate nearly 10 percent of 
its workforce and constrain spending in its enforcement, participant 
assistance, and regulatory programs. As a result, EBSA would conduct 
fewer civil and criminal investigations. In addition, effectiveness 
would decline as each Benefit Advisor would have to handle a greater 
percentage of call volume, resulting in less time to analyze and 
resolve participant disputes and inquiries and reducing benefit 
recoveries by an estimated $16 million.
    For the Wage and Hour Division (WHD), a 7.8-percent decrease would 
result in a cut of $17.7 million and 122 FTE, of which 80 would likely 
be investigators. Such a reduction would substantially hamper the 
agency's efforts to level the playing field for all businesses and 
ensure basic fairness in the workplace, particularly affecting the most 
vulnerable low-wage workers in the Nation. A decline of this magnitude 
in WHD investigator staff would result in fewer investigations and less 
money in the hands of workers who purchase basic goods and services in 
this country. More than $17.8 million in back wages would go 
uncollected and more than 21,000 workers would not receive the 
compensation to which they are entitled. In addition, fewer 
investigations could well mean that more children are exposed to 
threatening or hazardous workplace conditions that would otherwise be 
prevented by investigator site visits.
    At a reduced funding level for the Office of Federal Contract 
Compliance Programs (OFCCP), the agency would face a decrease of $8.2 
million and 68 FTE. Any reduction in funding would significantly impact 
the agency's ability to protect workers from discrimination. 
Specifically, OFCCP would reduce the number of supply and service 
investigations, construction evaluations, and Functional Affirmative 
Action Plan (FAAP) reviews such that more than 95,000 employees will be 
affected.
    Reducing funding for the Occupational Safety and Health 
Administration (OSHA) by more than $44 million would put our Nation's 
workers at unnecessary risk by reducing enforcement staffing by 81 FTE, 
60 of which would be Compliance Safety and Health Officers, resulting 
in a decrease of 2,100 inspections. With 2,100 fewer programmed 
inspections targeted to the most dangerous workplaces, fatality and 
injury and illness rates would likely increase. OSHA's whistleblower 
protection program would also be cut by 20 investigator FTE, leading to 
an increase in the already-growing backlog of cases, and making the 
agency unprepared to administer recent whistleblower statutes, such as 
for finance reform and food and safety reform.
    In addition, OSHA's State Plans would be cut by almost $8 million 
at a time when many States are already in difficult financial 
situations due to reductions in funding at the State level. This would 
result in the unemployment of State Plan inspectors, and would lead to 
4,000 fewer inspections of hazardous workplaces. On-site consultation 
programs for small businesses would be reduced by $4.4 million, which 
would lead to the unemployment of staff in these State-based programs 
and an estimated 2,200 fewer consultation visits provided to small 
businesses. Finally, OSHA would be forced to eliminate almost all 
compliance assistance specialists by cutting an additional 31 FTE. The 
agency would be forced to all but eliminate compliance assistance 
efforts for high-demand areas such as residential fall protection and 
severely cut its Voluntary Protection Program.
    For the Mine Safety and Health Administration (MSHA), decreasing 
the agency's funding by more than $29 million could result in delays of 
resolving potentially unsafe conditions and lessen MSHA's ability to 
maintain readiness in the event of a mine emergency. The recent MSHA 
internal review on the Upper Big Branch mine disaster documented the 
effects of imposing resource constraints deep enough to affect MSHA's 
enforcement efforts. At this level, MSHA's ability to maintain staffing 
levels would be impaired. Delays in hiring and training new personnel 
could lead to the staffing and experience shortcoming identified in the 
internal review. A 7.8-percent decrease would also adversely impact the 
ability of the Coal Mine Safety and Health (CMSH) and the Metal and 
Nonmetal Safety and Health programs to conduct all of their required 
inspections and impact MSHA's enhanced enforcement efforts targeting 
the most egregious and persistent violators through the Pattern of 
Violations program and the Special Emphasis dust inspections. It will 
also affect MSHA's ability to support the mine safety and health 
backlog project, and to conduct impact inspections, part 50 audits, 
accountability reviews.
    Additionally, MSHA would have to reduce engineering support to 
enforcement personnel as they encounter difficulties during their 
inspection functions, as well as administrative support for the 
approval of plans, such as dust, ventilation, and roof control. This 
would lengthen the time necessary to review the various plans submitted 
by operators and test equipment destined for use in mines to ensure it 
is intrinsically safe.
    A 7.8-percent reduction would impact MSHA's ability to ensure that 
miners are aware of their rights and responsibilities, impeding MSHA's 
efforts to conduct prompt investigations of miner discrimination 
complaints and investigations of knowing and willful violations of the 
Mine Act, including civil and potential criminal violations. Likewise, 
at the decreased level, MSHA would be forced to reduce efforts such as 
the Small Mine Consultation program and production and distribution of 
training materials to the mining industry, impacting MSHA's ability to 
provide mine operators effective compliance assistance. Many of these 
materials are the primary vehicle for providing safety and health 
awareness to miners. All of these actions have the potential to place 
miners' safety at risk.
    Funding at 7.8-percent less than the fiscal year 2012 enacted level 
for the Office of the Solicitor (SOL) equates to a reduction of $9.8 
million. Because SOL funding largely supports FTE who provide 
litigation and other legal services to the Department in all of its 
enforcement and program areas, a decrease of this magnitude would 
require a reduction of approximately 50 FTE. Based on SOL's major areas 
of work, this would result in approximately 1,100 fewer litigation 
matters opened and concluded compared to SOL's actual litigation 
workload completed in fiscal year 2010 of 14,630 litigation matters 
opened and 14,204 litigation matters concluded. Likewise, SOL would 
have a diminished ability to provide legal opinion and advice, with an 
estimated reduction of 700 fewer opinion matters opened and 400 fewer 
opinion matters concluded, compared to the fiscal year 2010 actual 
results of 8,678 opinion matters opened and 6,198 opinions matter 
concluded.
    For the Bureau of Labor Statistics (BLS), a reduction of 7.8 
percent, or $47.5 million, in fiscal year 2013 would force the Bureau 
to eliminate approximately eight of its survey programs. While the 
administration would have to determine which programs would 
specifically have to be eliminated, this reduction would likely lead to 
cuts in widely used data used to determine the state of the economy and 
for other key purposes.
    At the reduced funding level, the Bureau of International Labor 
Affairs (ILAB) would be cut by nearly $7.2 million. Some key impacts of 
reductions on this scale would be diminishing ILAB's capacity to combat 
child labor and to support projects abroad to ensure that U.S. workers 
do not suffer unfair competition in today's global labor market; 
reducing ILAB's capacity to monitor and enforce the labor commitments 
of trade partners under Free Trade Agreements, and labor obligations 
under Trade Preference Programs; hampering ILAB's capacity to engage in 
oversight and auditing of projects abroad funded by appropriations for 
specified purposes; and reducing policy engagements on job creation and 
worker protection with key economies such as China, India, Brazil, 
Russia, South Africa, and other G-20 members.
    A 7.8-percent decrease to the Veterans' Employment and Training 
Service (VETS) would reduce funding to this agency by more than $20.6 
million. This includes a reduction of about $13 million to Jobs for 
Veterans State Grants, which would reduce State Disabled Veterans 
Outreach Program and Local Veterans Employment Representative staff by 
approximately 165 positions. This reduction in personnel would result 
in approximately 53,000 fewer veterans receiving specialized services, 
including 7,100 veterans with significant barriers to employment who 
would not receive intensive services and thus continue to have issues 
with obtaining employment.
    With a reduction of $3 million to the Homeless Veterans 
Reintegration Program, VETS projects that approximately 1,500 homeless 
veterans with significant barriers to employment would not receive 
critically needed employment services. Since there are no other Federal 
programs reaching out to homeless veterans with employment services, 
and based on historical placement rates, approximately 889 homeless 
veterans would not be placed into employment and reintegrated back into 
the workforce. With these reductions, the administration's commitment 
to eliminate homelessness amongst veterans by 2015 will not be met.
    At a 7.8-percent funding reduction for the Transition Assistance 
Program, VETS would only be able to provide the mandated Employment 
Workshop to 150,904 transitioning servicemembers and would not be able 
to fulfill the legislative mandates in the VOW Act. This funding level 
would grossly underfund a statutory requirement of the Agency and leave 
approximately 155,084 transitioning servicemembers unserved.
    As you can see through the examples given above, a 7.8-percent 
across-the-board reduction to our programs would have a devastating 
impact on the Department. At a time when we are just starting to see 
strong signs of renewed economic growth, it makes no sense to undermine 
this progress with harmful automatic cuts to Federal discretionary 
spending.
            wage equality for individuals with disabilities
    Question. The fiscal year 2013 budget request for WHD includes 
additional resources and staff for oversight related to the Fair Labor 
Standards Act 14(c) program. How will the WHD and other DOL agencies 
not only improve compliance with the law but also work to improve 
integrated and competitive wage outcomes for individuals with 
disabilities under the budget request?
    Answer. DOL's WHD is working to enhance its investigation actions, 
technical assistance, and certification process on behalf of workers 
with disabilities. In addition, WHD and the Office of Disability 
Employment Policy (ODEP) are working collaboratively to ensure outreach 
efforts include relevant up-to-date information about available 
resources to ensure employers are aware of their obligations and how to 
comply with the law and that workers who have disabilities know and 
understand their rights. For example, WHD is collaborating with ODEP to 
include information about available resources and best practices at 
regional educational events in fiscal years 2012 and 2013 for Community 
Rehabilitation Programs that employ individuals with the most 
significant disabilities. WHD will also examine the Fair Labor 
Standards Act section 14(c) certification program to develop 
subregulatory processes that strengthen safeguards against 
noncompliance and maximize use of adaptive technology to provide 
frontline training to certification seekers. WHD will also collaborate 
with ODEP and other stakeholders to further develop existing programs 
and to identify new avenues of outreach to people with disabilities, 
caregivers, family members, and employers to ensure all stakeholders 
have equal access to information about effective, full employment of 
workers with disabilities. Among other methods, the agency will explore 
how the certification process may be used as a vehicle for 
disseminating new, state-of-the-art employment information and 
resources to affected employers and employees. The Department takes 
very seriously its role in ensuring that the Nation's workers receive 
the full protections afforded under the provisions of the law and will 
provide additional specific training to agency staff to ensure 
investigations and outreach efforts are timely and effective and 
maximize positive impact for workers with disabilities.
                     regional office consolidation
    Question. Please provide more information on the Department's 
proposed consolidation of regional offices, including how the involved 
agencies will continue to meet their goals and objectives under the 
regional reorganization and the specific factors that went into 
identifying the regions proposed for consolidation for each involved 
agency.
    Answer. The budget proposes adopting a leaner, more efficient 
approach for five offices within the DOL:
  --OSHA;
  --SOL;
  --Office of Public Affairs (OPA);
  --the Women's Bureau (WB); and
  --the EBSA.
    In fiscal year 2013, each of these bureaus will consolidate their 
regional offices to ensure that they are strategically placed to 
perform DOL's key functions across the country while eliminating 
unnecessary administrative costs.
    In an effort to streamline agency operations, OSHA proposes to 
reorganize its regional structure and jurisdictional authority from its 
current operation of 10 Regional Offices (ROs) to 7. The reorganization 
will involve the consolidation of OSHA's Regions 1 (Boston) and 2 (New 
York); Regions 7 (Kansas City) and 8 (Denver); and Regions 9 (San 
Francisco) and 10 (Seattle). The estimated savings would come largely 
from the saved compensation from three Regional Administrator positions 
and related benefits. Additional savings would be achieved through 
reduced rent needs and travel expenditures.
    SOL is working on regional office consolidation to better align 
legal offices with the Department's component agency structures, with 
eventual reduction from eight to six SOL regions. As an initial step, 
SOL is planning to reduce one region (Kansas City) in fiscal year 2012.
    OPA consolidation of regional offices includes the closure of 
offices in Denver, Colorado and Seattle, Washington. These offices have 
been essentially closed since fiscal year 2011 due to attrition of 
Federal staff. OPA will continue to meet agency goals and objectives 
continuing to have the workload of the Denver and Seattle locations 
processed and managed by the remaining regional offices in Chicago, 
Dallas, and San Francisco.
    For the WB, the consolidation of regional offices will refocus the 
agency to its policy responsibilities as it works through other DOL 
agencies for its outreach functions. The Department strongly supports 
the work of the WB and believes that increased collaboration with other 
regional DOL agencies will allow the Bureau to more effectively and 
efficiently carry out its mission.
    The WB is developing objective criteria to guide the process for 
consolidation of its regional offices. The goal is to continue to meet 
the Bureau's mission in the most coordinated and efficient manner. We 
anticipate that we will be able to achieve this goal by maintaining 
those WB regional offices in geographical locations where other DOL 
regional offices exist and opportunities for sister agency 
collaboration will be maximized.
    The Department remains committed to the advancement and rights of 
working women, particularly those who are the most vulnerable. 
Consolidating the Bureau's regional offices will result in savings that 
are reinvested, dollar-for-dollar, in the enforcement of the Family and 
Medical Leave Act and Fair Standards Labor Standards Act--two laws that 
have a direct and tangible benefit for women in the workforce.
    As with the WB, EBSA is still developing the details of its effort 
to consolidate regional offices. The objective of EBSA's consolidation 
is to increase the efficiency and effectiveness of the enforcement and 
worker assistance operations. Similar to OSHA's approach, a primary 
guiding principle in the EBSA effort is to not allow a reduction in 
front-line enforcement or other services for the public because of 
consolidation. Some of the specific factors that EBSA is considering in 
identifying the regions proposed for consolidation options include the 
closer alignment of regional offices with financial centers, number of 
plans, participants and beneficiaries, and total plan assets; a better 
alignment of regional workload; the elimination of some split state 
responsibility in regional jurisdictions; and taking advantage of the 
regional locations of other DOL offices such as SOL and the Office of 
Assistant Secretary for Administration and Management.
    occupational safety and health administration (osha) enforcement
    Question. The President's fiscal year 2013 budget request includes 
$207 million for Federal OSHA enforcement and $104.2 million for State 
OSHA enforcement. At this funding level, Federal OSHA has approximately 
1,000 workplace inspectors and can inspect workplaces under its 
jurisdiction once every 129 years. This is similar to the number of 
inspectors in fiscal year 2001 and compares to nearly 1,500 Federal 
OSHA inspectors onboard in fiscal year 1980--a time when the workforce 
was significantly smaller.
    With so few inspectors responsible for the safety and health of 140 
million workers, what is the Obama administration's strategy for 
ensuring that there is a strong effective enforcement program to ensure 
that workers safety and health is protected on the job?
    Answer. The agency attempts to shape and focus enforcement 
activities to have an impact on as many workplaces as possible, rather 
than just the workplace which was the target of the inspection. To 
achieve its goal of reducing workplace injuries, illnesses, and 
fatalities through Federal enforcement, OSHA uses strategies that make 
the most-effective use of its limited resources and powers. The agency 
also is working closely with Labor's Chief Evaluation Officer to assess 
its strategies--through current studies involving Site-Specific 
Targeting (SST) and On-site Consultation--and using data and evidence 
to make program changes when needed. OSHA uses the following 
enforcement strategies.
         targeting the most hazardous worksites for inspection
    In addition to inspections that OSHA is required to perform or 
prioritizes, such as imminent danger, fatalities, catastrophes, 
complaints and referrals, OSHA targets inspections through a variety of 
means, including:
  --SST is based on the OSHA Data Initiative and targets establishments 
        in general industry with high injury/illness rates.
  --Local and National Emphasis Programs (LEPs/NEPs) target high-hazard 
        industries (e.g., shipbreaking), hazards that may lead to 
        severe illnesses (e.g., lead and silica), and hazards that may 
        lead to severe injuries (e.g., amputations).
  --The Construction Targeting Program (C-Target) is based on a random 
        selection of construction projects from a data file provided by 
        F.W. Dodge and incorporates a modeling system to predict level 
        of activity at a given construction site.
     leveraging enforcement actions to maximize hazard elimination
    The agency has two enforcement strategies designed to leverage 
enforcement action to maximize the elimination of workplace hazards 
that lead to injuries, illnesses, and death:
  --The Severe Violators Enforcement Program (SVEP), which is intended 
        to focus enforcement efforts on significant hazards and 
        violations by concentrating inspection resources on employers 
        who have demonstrated recalcitrance or indifference to their 
        OSH Act obligations by committing willful, repeat, or failure-
        to-abate violations in certain circumstances. SVEP actions 
        include mandatory follow-up inspections, nationwide inspections 
        of related workplaces/worksites, increased company awareness of 
        OSHA enforcement, enhanced settlement provisions, and Federal 
        court enforcement under section 11(b) of the OSH Act.
  --Corporate or Enterprise Wide Settlement Agreements (CSAs) are made 
        with employers that have workplace hazards at multiple sites. 
        Through a CSA, OSHA broadens its effect on employers' 
        compliance and abatement efforts from one establishment at a 
        time to hundreds or even thousands of workplaces at a time.
               getting the most deterrence from penalties
    Actual and potential penalties deter employers from maintaining 
hazardous workplaces that do not comply with the requirements of the 
OSH Act. However, OSHA's statutory penalty limits are low, compared to 
other Federal agencies. As a result, OSHA must use leveraging 
strategies in order to get the most deterrence from the penalties OSHA 
imposes.
    OSHA implemented a revised penalty system in fiscal year 2011, with 
the goals of increasing deterrence, decreasing noncompliance, and 
reducing workplace injuries, illnesses, and fatalities. Since that 
time, OSHA has been monitoring the effect of the new penalty system and 
has recently adjusted the penalty policy to allow a 60-percent 
reduction in penalty for employers that have between 1 and 25 
employees. These monitoring efforts will continue and the agency will 
modify the system as necessary.
           focusing enforcement on a broader range of hazards
    Under the General Duty Clause (section 5(a)(1)) of the OSH Act, 
employers must provide a workplace ``free from recognized hazards that 
are causing or are likely to cause death or serious physical harm.'' 
OSHA is actively using the General Duty Clause to address hazardous 
conditions in areas where there are currently no standards, such as 
heat exposure, workplace violence and combustible dust.
                increased publicity and direct outreach
    OSHA uses increased publicity and direct outreach to reach many 
more workplaces, supporting its goal of reducing workplace injuries, 
illnesses, and deaths.
    The fear of public disapproval, as a result of being identified as 
a violator of OSHA regulations, motivates employers to abate workplace 
hazards. OSHA has received reports that some employers have abated 
hazards in their workplaces, without any OSHA action directly aimed at 
them, after learning from the media about other employers who have 
received OSHA citations, sizable fines, and public notoriety for unsafe 
workplaces.
    In addition, OSHA continues direct outreach to employers about 
hazards that OSHA believes put workers at particular risk of injury, 
illness, or death. For example, OSHA has continued its campaign on 
distracted driving and will actively work with NIOSH in support of its 
``Construction Fall Protection Campaign''. OSHA applied this strategy 
in the grain storage industry in fiscal year 2011, following several 
grain entrapment deaths and a study by Purdue University showing that 
the number of grain entrapments in the United States was increasing 
annually. OSHA sent a strong warning letter to more than 1,900 grain 
storage employers in States covered by Federal OSHA and to 350 
employers in State Plan States. Several months later, OSHA sent another 
letter to approximately 10,170 establishments, 6,200 of which were 
covered by Federal OSHA.
  occupational safety and health administration (osha) state programs
    OSHA State Plans are responsible for workplace safety and health 
for 40 percent of U.S. workers. Although State Plans develop and 
enforce their own standards, section 18(c)(2) of the OSH Act requires 
these programs to be at least as effective in providing safe and 
healthful employment and places of employment as Federal OSHA programs.
    Federal OSHA conducts annual on-site monitoring visits in each 
State plan to ensure that their standards and enforcement program are 
at least as effective as the Federal program. Federal OSHA is currently 
in the process of concluding an agreement with the state plans 
concerning new effectiveness measures that are scheduled to go into 
effect at the beginning of fiscal year 2013.
             improving the whistleblower protection program
    Question. Recently OSHA has reorganized their Whistleblower 
Protection Office to make the program more effective and to respond to 
criticism found by the Government Accountability Office (GAO) in 
several reviews. Could you describe what steps DOL/OSHA is taking to 
improve the effectiveness of its Whistleblower Program and how DOL 
intends to use the additional funds and personnel that have been 
requested for this program?
    Answer. In addition to reorganizing and raising the status of the 
Whistleblower Protection office within OSHA, the agency is currently 
undertaking numerous internal improvement efforts in order to improve 
the efficacy of its whistleblower program.
    Due to an increase in the number of whistleblower complaints filed 
with the agency over the past decade, OSHA has steadily accumulated a 
sizeable backlog of whistleblower complaints awaiting investigation. To 
address this issue, the Agency conducted a re-evaluation of its 
investigative processes and is developing numerous strategies for 
streamlining the process, including simplified paperwork requirements, 
new priority-based intake procedures, and a new approach for sharing 
information between parties of a case. Once implemented, these 
strategies will allow OSHA to better manage its whistleblower caseload, 
resulting in higher-quality investigations and better customer service.
    The agency is also developing an alternative dispute resolution 
(ADR) program for whistleblower cases, which will serve as a valuable 
conflict resolution alternative to the resource-intensive and time-
consuming investigative process. OSHA's ADR program will encourage 
early and fair resolution of whistleblower complaints by providing 
parties with an opportunity to explore resolution options with a 
neutral, third-party mediator.
    OSHA is expanding its audit activities of the whistleblower program 
to promote accountability and ultimately improve the quality of 
whistleblower investigations. Newly developed audits will evaluate how 
closely regional investigators are following the Whistleblower 
Investigations Manual and applicable whistleblower regulations in their 
casework. Planned audit activities include a comprehensive audit of 
regional practices to be performed every 4 years by the National 
Office, as well as self-administered audits for the regions to perform 
during the years that they are not audited by the National Office.
        steps to improve effectiveness of whistleblower program
    Additional OSHA projects aimed at improving the effectiveness of 
the whistleblower program include:
  --Drafting new chapters to the Whistleblower Investigations Manual to 
        provide more comprehensive guidance to the investigators in the 
        field, and to promote consistency in investigative procedures 
        across the regions;
  --Revising OSHA's information database to include a more detailed 
        internal control system, which will allow OSHA to identify 
        impediments to efficient investigations and better manage 
        investigative resources by tracking and monitoring the critical 
        phases of on-going investigations;
  --Reconfiguring current training courses for new whistleblower 
        investigators to better prepare new hires, and expanding OSHA's 
        training offerings to include advanced courses for more senior 
        investigators, as well as training for regional supervisors and 
        whistleblower managers.
  --Redesigning OSHA's whistleblower program Web site 
        (www.whistleblowers.gov) to improve user navigability, and 
        developing an online complaint filing system to allow workers 
        to initiate the complaint-filing process electronically.
  --Drafting and publishing four Interim Final Rules and four Final 
        Rules, and establishing the procedures for the handling of 
        retaliation complaints under the whistleblower provisions of 
        several statutes recently enacted or amended by the Congress.
             planned use of additional funds and personnel
    The fiscal year 2013 budget provides an increase of $4.8 million 
and 37 FTE for the whistleblower program. The additional funds and 
staff requested are essential if OSHA's whistleblower program is to 
continue its improvements. Without additional investigator staff, OSHA 
is challenged in meeting the growing demands of its increased statutory 
responsibilities.
    Over the past decade, large increases in the number of 
whistleblower complaints received by OSHA and assignment of new 
whistleblower statutes to OSHA by the Congress have not been matched 
with adequate investigator personnel to handle those complaints. A DOL 
Office of Inspector General (OIG) report (Number 22-12-014-10-105, 
issued January 20, 2012) determined that reducing the caseload to six 
per investigator would require an additional 58 investigators. OSHA's 
fully trained whistleblower investigators currently carry around 30-40 
cases at a time on average. Without more investigators, investigative 
quality and timeliness will continue to suffer. Additionally, 
investigator turnover will remain high as over-worked investigators 
leave OSHA for opportunities elsewhere, compromising training resources 
and depriving the program of experienced whistleblower investigators 
within its ranks.
  reducing employer burden in meeting occupational safety and health 
                    administration (osha) standards
    Question. Please describe specific actions the OSHA will take to 
meet ``the agency's expanded commitment to reduce the burden on 
employers to the extent possible while still fulfilling its mission.''
    Answer. The increase provided in the fiscal year 2012 
appropriations for the On-site Consultation Program will allow OSHA to 
increase its commitment to assisting small businesses with identifying 
workplace hazards, providing advice on compliance with OSHA standards 
and assisting in the establishment of safety and health management 
systems. The additional funding will provide resources for increasing 
awareness about the On-site Consultation Program's services, training 
for consultants to ensure that their skills are maintained and 
expanded, and promoting and supporting OSHA initiatives through 
outreach, including the planned Fall Prevention Outreach Campaign, 
residential construction initiatives, safety and health in the 
healthcare sector, vulnerable workers and the Injury and Illness 
Prevention Program.
    In addition, OSHA will provide resources to help employers comply 
with new or updated standards. For example, OSHA will issue additional 
compliance assistance resources for its updated Hazard Communication 
Standard. These compliance assistance resources will include small 
entity compliance guides for chemical producers and users and a model 
training program. OSHA will continue to provide employers with 
resources to help them comply with OSHA requirements and protect 
workers from a variety of workplace hazards, including falls and 
working outdoors in the heat.
    Finally, all of OSHA's regulatory activity includes vast 
opportunities for input by stakeholders, including small businesses, 
concerning measures OSHA can take to reduce burdens while providing the 
protection to workers that the OSH Act mandates.
  state involvement in occupational safety and health administration 
                             (osha) policy
    Question. How has OSHA involved State plans in development of 
national policy, including national emphasis programs?
    Answer. OSHA recognizes that since States with OSHA-approved State 
plans are expected to participate in OSHA's National Emphasis Programs 
(NEPs), they should have the opportunity to participate in the 
development of these programs. OSHA meets several times every year with 
the Occupational Safety and Health State Plan Association (OSHSPA), an 
organization that represents the 27 States with OSHA-approved safety 
and health programs. When prospective NEPs are discussed at an OSHSPA 
meeting, States are encouraged to raise any concerns or experiences 
that they have on the issue, either during or following the meeting.
    To further improve communication, OSHA implemented a more formal 
system to give the State plans an expanded opportunity, beyond 
discussions at regular OSHSPA meetings, to provide input into the 
development of specific NEPs and other major OSHA policy documents. 
Directives and other policy documents that constitute changes to the 
Federal program which will impact State programs, including NEPs and 
other enforcement policies, are being shared in draft on a special 
limited access Web site for State review in draft and comment prior to 
issuance. Six documents, including five NEPs, have been shared with the 
States in this manner, and conference calls were held between the 
States and the OSHA technical staff involved in developing the 
policies. OSHA has made significant changes in the directives in 
response to written comments submitted by States. OSHA also welcomes 
any State suggestions for hazards or industries that rise to the level 
of a national problem.
                      voluntary protection program
    Question. For the past 5 years with closed data, under the fiscal 
year 2012 budget and fiscal year 2013 request please provide a history 
for the approval of new Voluntary Protection Program (VPP) sites, 
renewal of VPP sites and total number of VPP sites.
    Answer.

                                                    VPP DATA
----------------------------------------------------------------------------------------------------------------
                                                                                                   Total active
                           Fiscal year                                  New         Reapprovals    end of fiscal
                                                                                                       year
----------------------------------------------------------------------------------------------------------------
Fiscal year 2007 actual.........................................             256             203           1,902
Fiscal year 2008 actual.........................................             230             235           2,110
Fiscal year 2009 actual.........................................             172             239           2,284
Fiscal year 2010 actual.........................................             175             253           2,446
Fiscal year 2011 actual.........................................             101             298           2,445
Fiscal year 2012 operations plan................................             100             280  ..............
Fiscal year 2013 budget.........................................              60             280  ..............
----------------------------------------------------------------------------------------------------------------

    Question. Also, what has the VPP Review Workgroup found in terms 
its review of VPP and recommendations for program improvement?
    Answer. OSHA formed a VPP Review Workgroup in 2011 made up of 
representatives from OSHA's National and Regional Offices. The 
workgroup was responsible for conducting a comprehensive review of the 
VPP and submitting recommendations for improving the program. The 
recommendations of the workgroup are currently under review. OSHA has 
begun evaluating and prioritizing suggested recommendations for changes 
that are determined to be key and that will strengthen the program's 
effectiveness and integrity.
                  one-stop career center system review
    Question. ODEP and ETA are conducting a separate independent survey 
of the physical, programmatic, and communications accessibility of the 
One-Stop Career Center system and review of Workforce Investment Board 
policies and procedures relative to the availability of intensive and 
training services for individuals with disabilities. What are the 
findings from this work? What corrective actions are planned?
    Answer. ODEP, ETA, and the Chief Evaluation Office (CEO) currently 
are planning the accessibility study and review of Workforce Investment 
Board policies and procedures. CEO will provide the funding for 
designing and conducting the accessibility study and currently is in 
the process of developing a Blanket Purchase Agreement (BPA) in order 
to competitively secure services to do so. The DOL's CEO has indicated 
that the BPA contract should be awarded this spring, at which time the 
Task Order for the accessibility study will be the first procurement 
action. The accessibility study is expected to begin in summer 2012, 
with findings projected to be available in late 2013.
                  universal dislocated worker program
    Question. Earlier this month the Obama administration announced a 
proposal to create a Universal Dislocated Worker program. The proposal 
would consolidate the Trade Adjustment Assistance program with the 
Workforce Investment Act's Dislocated Worker program and provide the 
same benefits to all workers. Can you explain how National Emergency 
Grants (NEGs), which are funded through the National Reserve, fit into 
the Universal Displaced Worker program proposal? Would NEGs continue to 
be funded with discretionary funding?
    Answer. NEGs give the Secretary of Labor the ability to provide 
resources in situations where the workforce system is unable to meet an 
unanticipated need for reemployment services, such as a natural 
disaster or a large plant closure. These grants would work in 
conjunction with the Universal Displaced Worker (UDW) program, as they 
do currently with the Workforce Investment Act's (WIA) Dislocated 
Worker formula program. Since NEGs are designed to respond to 
unanticipated events that yield unknown needs for workforce services, 
we believe it appropriate that they continue to be funded with 
discretionary funds out of the WIA appropriation, and accordingly NEGs 
would continue to be funded separately. It is important that the 
Secretary retain this flexibility to respond to events such as natural 
disasters, large plant closures, and other events which temporarily 
create more demand for services than the affected State and local 
workforce systems can address on their own, or which require a unique 
set of services, such as employing dislocated workers in jobs related 
to disaster recovery. We would work with the Congress to ensure that 
the benefits and services NEGs provide complement those provided under 
the UDW program.
                       federal regulation waivers
    Question. The President's budget requests legislative language that 
would allow the Secretaries of Labor and Education to waive statutes 
and regulations relating to the Workforce Investment Act of 1998, the 
Wagner-Peyser Act and title I of the Rehabilitation Act in instances 
when the Secretaries believe waivers would substantially improve 
education and employment outcomes. Additionally, in the Solicitation 
for Grants Announcement for the Workforce Innovation Fund (SGA/DFA PY-
11-05) you encourage applicants to include information on how waivers 
of Federal laws or regulations, if waived, would enhance the proposed 
innovations. Can you provide examples of which laws and regulations you 
believe are prohibiting successful outcomes for workforce services 
delivery and information? Can you also describe how you would evaluate 
waiver requests? How would you define ``substantial improvement of 
education and employment outcomes''?
    Answer. Waiver authority can be one of the most effective tools the 
Federal Government has to spur experimentation and innovation. 
Particularly in the absence of significant funding to entice States and 
locals to come forward with new ideas, administrative flexibility is a 
powerful tool.
    Because States and local areas are in the best position to identify 
statutory or regulatory barriers that may impede innovation and 
improvements in workforce service delivery, the President's budget 
requests expanded waiver authority for the Workforce Investment Act of 
1998 (WIA), the Wagner-Peyser Act (W-P), and title I of the 
Rehabilitation Act to provide greater opportunity and flexibility to 
States in designing strategies that best fit their needs. Enhanced 
waiver authority would enable States to test innovative structural and 
service delivery approaches in a limited setting to improve participant 
outcomes and the cost-effective delivery of services.
    The Department has exercised its authority under WIA to approve 
hundreds of waivers requested by States during the last decade, and has 
a well-established process for evaluating such requests. The Department 
believes this process can easily be adapted in the context of the 
Workforce Innovation Fund to incorporate a collaborative review of 
waiver requests with the Department of Education that affect programs 
administered by both agencies, including approval of such requests by 
both the Secretaries of Labor and Education or their designees. In 
reviewing applications, we would expect requesters to be able to 
demonstrate how their proposed approach would improve outcomes 
consistent with the purpose of the programs involved. As set forth in 
the fiscal year 2013 budget, waivers would only be provided to projects 
which include:
  --A plan to effectively evaluate the impact of the strategies being 
        tested on outcomes for program participants;
  --A strong accountability system, including outcome measures which 
        show outcomes for program participants and demonstrate that 
        subpopulations with the greatest barriers to employment are 
        being appropriately served by the workforce system; and
  --Other required elements, as established by the Secretaries in 
        regulation or grant solicitation.
    DOL also requires States to report annually on outcomes achieved by 
waivers in the WIA annual performance report that States are 
statutorily required to submit to the Department, and would continue to 
do so.
                      national apprenticeship act
    Question. DOL is working on regulations for Equal Employment 
Opportunity in the National Apprenticeship Act, which should increase 
nontraditional job opportunities for women and underrepresented 
populations and accomplish the same goals of Women in Apprenticeship 
and Non-Traditional Occupations Act (WANTO). Can you provide an update 
on the timing of the regulations?
    Answer. Since 2010, ETA has consulted stakeholders, including the 
Secretary's Advisory Committee on Apprenticeship, to gather input for 
development of this rule through a variety of methods, including 
virtual Webinars and in-person town hall meetings. The Department is in 
the process of drafting this Notice of Proposed Rule Making, and 
anticipates publishing it in 2012.
                       job corps center closures
    Question. Can you tell me more about how ``chronically low-
performing'' Job Corps centers will be defined and the process the 
Department will undertake to close a center? Can you tell me more about 
how low-performing centers have been identified in the past and what 
opportunities they have been given to improve?
    Answer. The Department has established a comprehensive performance 
management system to assess program effectiveness across multiple 
components of services and programs offered to Job Corps students. The 
performance management system serves three primary purposes, as 
follows, to:
  --Meet accountability requirements for establishing performance 
        measures (also known as metrics) and reporting student outcomes 
        for the Job Corps system prescribed in the WIA legislation, 
        Common Performance Measures for Federal youth training 
        programs, and DOL priorities;
  --Assess centers' and agencies' accomplishments in implementing 
        program priorities and serving students effectively; and
  --Have a management tool that provides useful and relevant feedback 
        on performance, while encouraging continuous program 
        improvement.
    To assess center performance against established goals and 
priorities, the Office of Job Corps' Federal staff conduct on-site 
center assessments and monitoring trips, and electronic desk monitoring 
and contractor performance reporting. Underperforming centers may be 
placed on a corrective action plan or performance improvement plan. 
Such a plan may be targeted to a specific area of performance (e.g., 
academic attainment) or in cases of significant underperformance, may 
include overall center operations.
    Chronically low-performing centers are those that have consistently 
failed to meet performance standards over the past several program 
years. The Department is using its existing performance measures as the 
key component for developing its methodology for identifying centers 
for closure that will be published in the Federal Register for the 
public and stakeholders to provide feedback, prior to its use in 
selecting centers for closure.
    Further, the Department will ensure that it follows the 
legislatively mandated process for closing a Job Corps Center, per 
section 159 of the WIA, which includes the following:
  --Advance announcement to the general public of the proposed decision 
        to close the center, through publication in the Federal 
        Register or other appropriate means;
  --Establishment of a reasonable comment period, not to exceed 30 
        days, for interested individuals to submit written comments to 
        the Secretary; and
  --Notification of the Member of Congress who represents the district 
        in which such center is located, within a reasonable period of 
        time in advance of any final decision to close the center.
                 rebranding of workforce career centers
    Question. The President's budget includes a proposal to rebrand the 
workforce career centers. Can you provide additional information or 
examples of why the system needs rebranding? What barriers does the 
current branding pose to workers in need of services? And would States 
compete for funding or would the Department work with each State on the 
rebranding process?
    Answer. A 2005 GAO report (``Employers Are Aware of, Using, and 
Satisfied with One-Stop Services, but More Data Could Help Labor Better 
Address Employers' Needs'') found that only about one-half of employers 
are aware of the public workforce investment system. In addition, each 
year, 20 million individuals tap into our existing workforce system 
resources, but there are millions more who could benefit from being 
able to reliably find the services they need to succeed in today's 
economy. Currently, names for One-Stop Career Centers vary from State 
to State, or even from town to town, and online Federal, State, and 
local tools are spread across many Web sites with different names. 
Jobseekers may not understand that these resources are available to 
connect them to training and other supports. Veterans transitioning to 
civilian life might look for a One-Stop Career Center, but cannot find 
anything nearby with that name. Businesses that are well-connected to 
the workforce system in one State may not be aware that the same 
services are available to them elsewhere, under a different name.
    The Department's initiative to establish the American Job Center 
Network is designed to give workers and businesses an easily 
identifiable source for the help and services our workforce system 
provides. While the Department will initiate this effort in fiscal year 
2012, under the President's fiscal year 2013 budget proposal, the 
Department will:
  --Use a significant portion of the funds (approximately 70 percent) 
        to support co-location among partner programs, increase the 
        number of American Job Centers and service points, and increase 
        public awareness and accessibility of workforce services 
        through nationwide outreach and education using the American 
        Job Center brand. These funds would be distributed to States 
        and locals, with a small national reserve for administration 
        and technical assistance.
    --To increase the number of service points, funds can be used to 
            establish new service points for workforce services in 
            local communities, such as computers at a library or 
            community-based organization to access online services, or 
            expanding access to workforce services within community 
            colleges and schools, or even creating kiosks in major 
            commercial chains.
    --The recipients may also use these funds to expand workforce 
            services during hours convenient for working adults and 
            businesses, particularly small businesses. In addition, 
            States will use the funds to fully implement the American 
            Job Center brand, and funds could support Web site 
            adjustments and outreach through multiple media. The 
            Department will also seek to create a national outreach and 
            education plan to increase awareness and usage of the 
            public workforce investment system.
  --The Department will use the remaining funds to expand current 
        national electronic tools to provide more interactivity between 
        the online customer and the virtual services currently 
        available through www.CareerOneStop.org. The new electronic 
        tools would include a jobseeker portfolio, an interactive 
        resume analysis tool, an interactive knowledge and diagnostic 
        database providing automated responses to common questions, and 
        virtual chats with career counselors. For jobseekers who lack 
        computer skills or Internet access, the Department will also 
        expand its telephone contact centers to provide on the phone 
        some of the personal interaction offered through staff-assisted 
        services at brick and mortar One-Stop Career Centers.
      re-employment services for unemployment insurance claimants
    Question. The President's budget includes increased funding for 
Employment Service Grants to States to carry out more intensive re-
employment services for Unemployment Insurance (UI) claimants, among 
other activities. Can you provide information on the successful re-
employment services that the Department will highlight and encourage 
States and local areas to implement?
    Answer. Providing effective re-employment services to unemployed 
(including long-term unemployed) jobseekers and minimizing erroneous 
payments are high priorities for the Department and its partners, the 
State workforce agencies. Re-employment assistance can result in more 
rapid re-employment, shorter claim duration, and fewer erroneous 
payments of UI benefits. For example, in Nevada, a pilot program of Re-
employment and Eligibility Assessments (REAs) coupled with re-
employment services reduced weeks claimed by 2.96 weeks and benefits 
received by $805. Further study revealed that REAs in Nevada increased 
re-employment by close to 20 percent initially and by close to 10 
percent into the second year following participation in the program. 
REAs also increased earnings by 25 percent initially and close to 15 
percent into the second year after participation in REAs. Thus, 
eligibility assessment and re-employment services not only shorten UI 
duration, but also persistently boost employment and earnings. 
Effective re-employment services for UI claimants include at the 
minimum the provision of labor market and career information, an 
assessment of the skills of the individual, and orientation to the 
services available through the One-Stop Centers established under title 
I of WIA. Some claimants benefit from additional services such as 
comprehensive and specialized assessments, job search counseling and 
the development or review of an individual re-employment plan, 
individual and group career counseling, and training services. The 
Department encourages States and local One-Stop Centers to consider the 
claimants' individual circumstances and adopt approaches that are most 
likely to effectively speed their return to work.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
                      compact of free association
    Question. In 1986, the United States entered into Compacts of Free 
Association with the Federated States of Micronesia and the Republic of 
the Marshall Islands. In 1994, the United States entered into a similar 
relationship with the Republic of Palau. The Compacts set forth the 
bilateral terms for government, economic, and security relations 
between the United States and the Freely Associated States (FAS), and 
the laws approving the Compact set forth the U.S. policy context and 
interpretation for the Compacts. Section 141 of the Compact provides 
that certain FAS citizens ``may be admitted to, lawfully engage in 
occupations, and establish residence as a nonimmigrant in the United 
States and its territories.'' However, the Congress also stated, in 
section 104(e)(1), that ``it is not the intent of Congress to cause any 
adverse consequences for an affected jurisdiction.'' It is estimated 
that affected areas of the United States are spending upward of $200 
million annually for healthcare, education, and other services for FAS 
migrants. Although the Compacts allow the FAS migrants to engage in 
work in the United States, employers find that there is a significant 
need for language and cultural education and job training. How best can 
the Department of Labor assist States and territories in preparing 
Compact migrants for employment opportunities?
    Answer. Migrants from the Marshall Islands and Micronesia are 
eligible to receive labor exchange and employment services and 
Workforce Investment Act (WIA) authorized employment and job training 
programs in One-Stop Career Centers across mainland United States and 
outlying areas. There is a wide range of services available through the 
One-Stops that can be tailored to meet the employment and training 
needs of these individuals. Many outlying areas--Guam, American Samoa, 
the Virgin Islands, and Northern Mariana Island, including the Republic 
of Palau--receive annual WIA title I (WIA Adult, Dislocated Worker and 
Youth programs) formula allotments. The availability of WIA title I 
funding to Palau has also been extended through fiscal year 2012 in the 
Consolidated Appropriations Act of 2012 (in the Department of 
Education's General Provisions at section 306, title III, division F, 
Public Law 112-74).
    In addition to the One-Stops, the Department's competitive grants 
to States and outlying areas, such as the recent Trade Adjustment 
Assistance Community College and Career Training Grant program, bolster 
the capacity or the workforce system to provide quality employment and 
training services and programs. Freely Associated States migrants can 
potentially benefit from access and participation in these programs to 
improve their employment outcomes.
    Since 2003, the Marshall Islands and Micronesia no longer receive 
WIA title I funding for employment and training services provided 
through the WIA Adult, Dislocated Worker and Youth programs, but have 
been receiving funds from the Department of Education's appropriation 
(see Compact of Free Association Amendments of 2003, Public Law 108-188 
(December 17, 2003)), codified at 48 U.S.C. 1921d(f)(1)(B)(iii) (the 
``Compact'').
 aligning hawaii's prepaid health care act and the affordable care act
    Question. Hawaii has traditionally experienced a much lower rate of 
uninsured individuals due to the landmark State law, the Prepaid Health 
Care Act (PHCA), which requires employers to provide healthcare 
coverage to full-time employees. As the State works to implement 
elements of the Affordable Care Act (ACA), questions have arisen 
regarding the ability for Hawaii's law to interact with the ACA in a 
manner that would allow Hawaii residents maximum benefits. Will there 
be further guidance from the Department of Labor (DOL), specific to 
Hawaii's healthcare environment, on how the PHCA can work in 
conjunction with the requirements of the ACA? Is it DOL's desire for 
Hawaii to maintain the requirements of the PHCA?
    Answer. DOL is committed to working with the State of Hawaii 
regarding the coordination of the PHCA and the ACA. DOL also works with 
our Federal partners in ACA implementation, such as the Department of 
the Treasury and the Department of Health and Human Services, on these 
issues, as necessary. Conversations about specific interactions have 
already begun and will continue to ensure the best result for Hawaii 
residents and their health coverage.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
      government accountability office principles for successful 
             collaboration between employers and employees
    Question. In the January 2012 Government Accountability Office 
(GAO) report, ``Innovative Collaborations between Workforce Boards and 
Employers Helped Meet Urgent Local Workforce Needs'', GAO identified 
six principles for successful collaboration, including leadership, 
leveraging resources, and providing business responsive services by 
examining 14 examples of collaborations between local workforce board, 
employers, community colleges, Manufacturing Extension Partnerships 
(MEPs), economic development and others. How is the Department of Labor 
(DOL) using its resources to ensure that all boards and the entire 
system are putting these principles in place?
    Answer. GAO's report findings validate the Department's 
longstanding position that stronger partnerships between employers and 
the public workforce system improve employment and retention outcomes 
for our Nation's workers. The report also echoes the Department's 
strategic thinking on the importance of linking workforce services to 
meet the needs of regional and local economies, and the need for public 
workforce system reform through the reauthorization of the Workforce 
Investment Act of 1998 (WIA).
    A key area of exploration for the Department is enhancing our dual-
customer approach to effectively serve both workers and employers. We 
continue to provide technical assistance on business engagement to 
workforce system practitioners. For example, in May 2011, we provided 
in-person and virtual training for business liaisons in local workforce 
areas, and established a set of online resources available for business 
liaisons across the country. In 2012, we are planning to offer a series 
of activities and learning opportunities to promote and enhance 
services to business customers, beginning with a National Job Fair 
Month, scheduled for June 2012. In addition, we want to emphasize that 
while the Department provides policy leadership and guidance to the 
One-Stop delivery system, States have a critical role in making 
business engagement a priority, including tracking data on services to 
employers. The Department's on-line technical assistance platform for 
workforce practitioners contains numerous examples of promising State 
and local practices in business engagement.
    The Department is also working across Federal agencies to 
streamline administrative processes and better align resources and 
programs to ensure effective service delivery. The Departments of 
Labor, Health and Human Services, and Education continue to seek 
opportunities to develop joint guidance to State and local grantees, 
and to implement cross-cutting demonstration projects that encourage 
partnerships and improve models for delivering quality services across 
programs at lower costs.
              workforce investment act program performance
    Question. The annual performance results for WIA programs this past 
year noted that nearly 8.7 million workers received assistance and more 
than one-half of the people who got help through WIA gained employment, 
despite the fact that there are nationally more than four jobseekers 
for every available job. On top of that, 4 out of 5 job seekers who 
gained employment through WIA were retained in their employment 
according to the Department's data. Additionally, 8 out of 10 employers 
who utilized the workforce system were satisfied by the assistance they 
received from the workforce system. What does this data reveal about 
WIA programs ability to effectively respond during periods of high 
unemployment, such as the country has experienced for the last several 
years?
    Answer. These data illustrate in a statistical manner the value of 
the services provided by WIA programs. The workforce system experienced 
a tremendous increase in demand for its services during recent economic 
downturn. In response, the Department has implemented various 
strategies including:
  --on-the-job training;
  --setting new goals for the increased attainment of industry-
        recognized credentials, including degrees and certificates by 
        workforce system participants;
  --issuing guidance on entrepreneurship and self-employment 
        activities;
  --emphasizing the importance of longer-term training; and
  --encouraging the development of career pathways, especially for low-
        skilled youth and adults.
    The benefits of these strategies are evidenced by the higher-
employment outcomes of WIA program completers.
    It is worth noting that according to the latest Job Openings and 
Labor Turnover Survey data provided by the Bureau of Labor Statistics 
(BLS), there are roughly 12.8 million unemployed Americans looking for 
work and 3.5 million job openings. This ratio shows that the average 
job seeker only has a 27-percent chance of obtaining the job they want 
and need due to the high level of competition. However, WIA program 
completers are finding employment at more than twice that rate, further 
showing the value of WIA program services in helping job seekers gain 
skills that employers demand.
    Although the Department is proud of the accomplishments of the 
workforce system, we recognize more must be done to create an economy 
that is built to last. The President's blueprint for growth includes 
new proposals that would allow the Department to pursue additional 
strategies intended to strengthen manufacturing, energy, education, and 
skills training. Additionally, the reauthorization of WIA remains a 
unique opportunity to modernize and position the workforce system to 
help even more workers and employers.
                       job corps center closures
    Question. Please provide a detailed plan regarding the Department's 
plan to identify and close ``low-performing'' Job Corp centers. Please 
include a time line, a description of the selection factors, the 
Department's definition of ``low-performing'' and which centers the 
Department would currently label as ``chronically low-performing.'' 
Please also include a description of the cost-effective strategies 
identified in rigorous evaluations that the Department plans to move 
toward as well as the changes in performance measurement and reporting. 
Finally, please describe how the Department will work with the 
Department of Agriculture regarding the evaluation of Civilian 
Conservation Centers.
    Answer. Chronically low-performing centers are those that have 
consistently failed to meet performance goals over the past several 
program years. The Department is using its existing performance 
measures as the key component for developing its methodology for 
identifying centers for closure that will be published in the Federal 
Register for the public and stakeholders to provide feedback, prior to 
its use in selecting centers for closure. A timeline has not yet been 
developed for the closure process.
    The Department will ensure that it follows the legislatively 
mandated process for closing a Job Corps center, per section 159 of the 
WIA, which includes the following:
  --Advance announcement to the general public of the proposed decision 
        to close the center, through publication in the Federal 
        Register or other appropriate means;
  --Establishment of a reasonable comment period, not to exceed 30 
        days, for interested individuals to submit written comments to 
        the Secretary; and
  --Notification of the Member of Congress who represents the district 
        in which such center is located within a reasonable period of 
        time in advance of any final decision to close the center.
    As you may know, the U.S. Department of Agriculture Forest Service 
operates 28 Job Corps centers under an Interagency Agreement with the 
DOL. The performance of these centers is evaluated in the same manner 
as those centers operated by private entities under contract with the 
Department. DOL's Federal staff perform the same on-site and electronic 
monitoring of the operated centers, including the development and 
implementation of performance improvement plans, when necessary. All 
Job Corps centers will be evaluated for closure using the same 
methodology.
    The Department is currently conducting a study to review the 
program's operations and performance management practices. The final 
results of this study will be available in summer 2013 and will be used 
to implement reforms and efficiencies system-wide.
    Regarding changes to performance metrics and reporting, beginning 
in Program Year 2010, the Department began tracking Job Corps student 
attainment of industry-recognized credentials. These credentials, which 
include industry certifications, state licensures, and pre-
apprenticeship credentials, provide students with geographic and 
economic mobility. They demonstrate to employers that Job Corps 
graduates have attained the skills and knowledge necessary to compete 
in today's workforce.
    The Department is also taking steps to make Job Corps' performance 
measures more transparent and accessible to the public and the 
program's stakeholders. The Office of Job Corps has launched on its Web 
site an interactive map (at http://www.jobcorps.gov/AboutJobCorps/
performance_planning/omsdata.aspx) that provides information on each 
Job Corps centers' performance. Job Corps will also offer an online 
guide explaining the program's performance management system in 
layperson terms. Later this year, the Department will submit a report 
to the Congress detailing the results of each of the metrics outlined 
in the WIA.
                       job corps center contracts
    Question. Please provide a description of the process the 
Department uses to award contracts for Job Corp centers. Also please 
describe any planned changes to this process, the rationale for any 
changes, and the anticipated impacts of such changes.
    Answer. DOL uses competitive procedures prescribed by the Federal 
Acquisition Regulations (FAR) 6.1 and FAR 6.2. In accordance with FAR 
Part 10 and FAR 19.502-2, DOL reviews the market research conducted by 
the Contracting Officers to determine if a requirement shall be set-
aside for small business concerns, HUBZone small business concerns, 
8(a) firms, or Service Disabled Veteran Owned Small Business concerns. 
On rare occasions, and only as permitted by the exceptions provided in 
FAR 6.3, DOL uses this authority to award contracts without competitive 
procedures.
    DOL utilizes ``contracting by negotiation'' techniques defined 
under FAR Part 15 and, when doing so, conducts a trade-off analysis 
among evaluation factors to determine which contractor offers the best 
value to the Government. When the Department conducts such a trade-off 
analysis, technical approach (e.g., quality of services provided to the 
students) is the most important evaluation factor.
    Due to pending litigation, the Department cannot comment on any 
planned changes to this process.
                     regional office consolidation
    Question. Please provide a detailed description of the Department's 
regional office closure plan including specific offices and locations. 
In addition, please describe how the services provided by such center 
will be provided under the consolidation plan.
    Answer. The budget proposes adopting a leaner, more efficient 
approach for five offices within the DOL:
  --the Occupational Safety and Health Administration (OSHA);
  --the Office of the Solicitor (SOL);
  --the Office of Public Affairs (OPA);
  --the Women's Bureau (WB); and
  --the Employee Benefits Security Administration (EBSA).
    In fiscal year 2013, each of these Bureaus will consolidate their 
regional offices to ensure that they are strategically placed to 
perform DOL's key functions across the country while eliminating 
unnecessary administrative costs.
    In an effort to streamline agency operations, the OSHA proposes to 
reorganize its regional structure and jurisdictional authority from its 
current operation of 10 Regional Offices (ROs) to 7. The reorganization 
will involve the consolidation of OSHA's Regions 1 (Boston) and 2 (New 
York); Regions 7 (Kansas City) and 8 (Denver); and Regions 9 (San 
Francisco) and 10 (Seattle). The estimated savings would come largely 
from the saved compensation from three Regional Administrator positions 
and related benefits. Additional savings would be achieved through 
reduced rent needs and travel expenditures.
    The Solicitors' Office (SOL) is working on regional office 
consolidation to better align legal offices with the Department's 
component agency structures, with eventual reduction from eight to six 
SOL regions. As an initial step, SOL is planning to reduce one region 
(Kansas City) in fiscal year 2012.
    OPA consolidation of regional offices includes the closure of 
offices in Denver, Colorado and Seattle, Washington. These offices have 
been essentially closed since fiscal year 2011 due to attrition of 
Federal staff. OPA will continue to meet agency goals and objectives 
continuing to have the workload of the Denver and Seattle locations 
processed and managed by the remaining regional offices in Chicago, 
Dallas, and San Francisco.
    For the WB, the consolidation of regional offices will refocus the 
agency to its policy responsibilities as it works through other DOL 
agencies for its outreach functions. The Department strongly supports 
the work of the WB and believes that increased collaboration with other 
regional DOL agencies will allow the Bureau to more effectively and 
efficiently carry out its mission.
    The WB is developing objective criteria to guide the process for 
consolidation of its regional offices. The goal is to continue to serve 
the highest number of women possible in the most coordinated and 
economically efficient manner. We anticipate that we will be able to 
achieve this goal by maintaining those WB regional offices in 
geographical locations where other DOL regional offices exist and 
opportunities for sister agency collaboration will be maximized.
    The Department remains committed to the advancement and rights of 
working women, particularly those who are the most vulnerable. 
Consolidating the Bureau's regional offices will result in savings that 
he budget would reinvest, dollar-for-dollar, in the enforcement of the 
Family and Medical Leave Act and Fair Standards Labor Standards Act--
two laws that have a direct and tangible benefit for women in the 
workforce.
    As with the WB, the EBSA is still developing the details of its 
effort to consolidate regional offices. The objective of EBSA's 
consolidation is to increase the efficiency and effectiveness of the 
enforcement and worker assistance operations. Similar to OSHA's 
approach, a primary guiding principle in the EBSA effort is to not 
allow a reduction in front-line enforcement or other services for the 
public because of consolidation. Some of the specific factors that EBSA 
is considering in identifying the regions proposed for consolidation 
options include the closer alignment of regional offices with financial 
centers, number of plans, participants and beneficiaries, and total 
plan assets; a better alignment of regional workload; the elimination 
of some split State responsibility in regional jurisdictions; and 
taking advantage of the regional locations of other DOL offices such as 
SOL and the Office of Assistant Secretary for Administration and 
Management.
     consolidation of workforce investment act program evaluations
    Question. Please describe how the Department will sufficiently 
evaluate programs under title I of the WIA should program evaluation 
and research responsibilities be consolidated under the Departmental 
Program Evaluation office as proposed under the budget. What impact, if 
any, would such consolidation have on the gold standard evaluation?
    Answer. The fiscal year 2013 budget proposes the use of a set-aside 
to finance evaluations for DOL's WIA programs, as well as pilots, 
demonstrations, and research considered applied research for employment 
and training programs, building on language that was included in the 
2012 enacted appropriations bill. The 0.5 percent evaluation set-aside, 
which currently applies to the rest of the Department's funding, is 
intended to ensure that sufficient funding is available to carry out 
comprehensive, rigorous, and robust research and evaluations and to 
promote greater stability of funding for these efforts across the 
Department as a whole. Specifically, the Department is requesting that 
up to 0.5 percent of the amounts appropriated for training and 
employment services also be made available to support evaluations under 
the oversight of the Department's Chief Evaluation Officer. The 
projects on Employment and Training Administration (ETA) programs will 
continue to be guided by the current Five-Year Research and Evaluation 
Strategic Plan, which is specified under WIA section 171, and ETA's 
Five Year Learning Agenda developed jointly with the Chief Evaluation 
Office. This set-aside proposal for evaluations is an addition to a 
provision included in the Consolidated Appropriations Act of 2012 that 
authorized the Secretary to ``reserve not more than 0.5 percent from 
each appropriation made available in this Act identified in subsection 
(b) in order to carry out evaluations of any of the programs or 
activities that are funded under such accounts.''
    There will be no effect on the Workforce Investment Act Adult and 
Dislocated Worker Programs Gold Standard Evaluation (WGSE); that 
evaluation is included in the ETA Strategic Plan and in the ETA 
Learning Agenda. Initiated in fiscal year 2010, the WGSE is a random 
assignment evaluation of two major programs under title I of WIA. The 
evaluation measures the postprogram impacts on employment and earnings 
of receiving intensive services and training funded through WIA, as 
compared to receiving core services only and/or services funded through 
other sources. The complete evaluation is being conducted over the 
course of 7 years and represents a major improvement in the specificity 
and quality of previous WIA evaluations. We anticipate the final report 
being available in late 2017.
               workforce investment act research programs
    Question. How does the Department plan to conduct pilot, 
demonstration, and research projects under WIA should funding for such 
projects be eliminated as proposed under the budget?
    Answer. In fiscal year 2013, the Department requests the use of a 
set-aside funding mechanism to finance evaluations, as well as pilots, 
demonstrations, and research for employment and training programs. The 
new set-aside approach is intended to ensure that sufficient funding is 
available to carry out comprehensive, rigorous, and robust research and 
evaluations and to promote greater stability of funding for these 
efforts across all DOL programs, including the WIA, Job Corps, 
Unemployment Insurance, and the Employment Service. The projects that 
the Department undertakes will continue to be guided by the current 
Five-Year Research and Evaluation Strategic Plan, which is specified 
under WIA section 171, and ETA's Five Year Learning Agenda developed 
jointly with the Chief Evaluation Office. Specifically, the Department 
is requesting that up to 0.5 percent of the amounts appropriated for 
these programs be made available to support this effort. Evaluations 
(which may include demonstration components) and applied research 
projects using these funds will be conducted by DOL's ETA under the 
oversight of the Department's Chief Evaluation Officer. This set-aside 
proposal builds on the provision included in the Consolidated 
Appropriations Act of 2012 that authorized the Secretary to ``reserve 
not more than 0.5 percent from each appropriation made available in 
this Act identified in subsection (b) in order to carry out evaluations 
of any of the programs or activities that are funded under such 
accounts.'' The Department considers pilots and demonstrations 
previously funded under WIA section 171 to be components of evaluations 
designed to test program interventions, services, and models.
    In addition, WIF will support pilot and demonstration activities to 
test innovative approaches to the delivery of employment and training 
services.
         workforce investment act ``pay for success'' projects
    Question. Please provide a detailed description of how ``Pay for 
Success'' projects will be identified for award and implemented under 
the Workforce Investment Fund (WIF).
    Answer. ETA plans to make available approximately $20 million for 
Pay for Success pilot grants, funded out of the fiscal year 2012 
Workforce Innovation Fund (WIF). In piloting the Pay for Success model, 
which is currently being piloted in the United Kingdom, the Department 
will provide funding for projects that will demonstrate the feasibility 
and viability of this innovative financing model. Under the Pay for 
Success grants, third-party investors pay the operating costs of an 
intervention, with the goal of achieving pre-negotiated outcomes. The 
Government repays the principal investment made for funding the 
intervention and a return on investment only if results are achieved. 
In this way, the model is different from how Government agencies 
typically fund services; Government funding is shifted from paying for 
specific processes and services to paying for specific outcomes.
    The Department plans to announce the competition for Pay for 
Success pilot project grants in a Solicitation for Grant Applications 
to be published in spring 2012. Eligible applicants will be State, 
local, or tribal government entities in partnership with a managing 
intermediary organization. This partnership must agree to a common goal 
of achieving specific workforce development-related outcomes. On the 
basis of this partnership, the intermediary will raise operating 
capital from philanthropic, private sector, and/or other social 
investors, manage the delivery of services, and be responsible for 
achieving outcomes and overall cost savings to the public sector as 
negotiated with the Government. The independent investors take on the 
risk of funding the project based on an expectation of an additional 
return on their investment if project outcomes are met. An independent 
entity, procured by the applicant, will verify if outcomes have been 
met for the purposes of repayment. The Department will pay the 
administrative costs of the grantee and the costs of the independent 
validator as they occur. Upon verification of the achievement of 
negotiated outcomes by the independent validator, the Department will 
confirm that the validation methodology was followed and make the 
appropriate payments to the State/local/tribal government grantee, 
which then flows through the intermediary to the investor(s). If the 
outcomes are not achieved, the Department will not release the funds. 
To support grantees' success and workforce system knowledge about Pay 
for Success, the Department will provide technical assistance and 
evaluation of the Pay for Success financing strategy.
    Grants under the Pay for Success financing model will be awarded 
competitively to those highly qualified applicants who best address the 
following key elements in their proposals:
  --a well-defined problem and associated target population;
  --a flexible and adaptive preventative service delivery strategy;
  --a commitment of funds from independent investors to cover all 
        operating costs of the intervention;
  --one or more well-defined, achievable target outcomes;
  --a well-defined outcome measurement and verification methodology;
  --a project timeline that clearly indicates the date by which the 
        outcome will be achieved and validated;
  --a financial model that shows public sector cost savings or 
        efficiency gains; and
  --a payment arrangement between the applicant and the intermediary, 
        to be triggered by the verified achievement of the proposed 
        outcome(s) within the grant period.
To the extent funds are not used for PFS grants, they will be allocated 
to fund non-PFS projects under the WIF.
    targeting teen unemployment under the workforce innovation fund
    Question. Please provide a justification for the Department's 
request to target youth younger than the age of 20 within the WIF.
    Answer. The teen unemployment rate continues to be at or near 
historic highs. In March 2012, the seasonally adjusted unemployment 
rate for individuals age 16-19 was 25 percent, nearly three times the 
overall unemployment rate of 8.2 percent. In addition, the Nation's 
high school dropout rate remains too high. It is critical for the 
Department to invest in innovative projects focused on improving 
services for disconnected youth so that they acquire the skills and 
tools necessary to build successful careers. In addition, the goal is 
to focus specifically on younger youth because less is known about what 
interventions are effective for them. However, while the $10 million 
innovation fund set aside is focused on youth ages 16 through 19, the 
Department anticipates other innovation projects may serve the broader 
pool of disconnected youth.
                workforce innovation fund funding awards
    Question. Please explain how the Department plans to target and 
award WIF funding should funding not be contributed by programs under 
the Department of Education.
    Answer. The Department will coordinate with the Departments of 
Education and Health and Human Services in the administration of the 
WIF to encourage collaboration across program ``silos''. In fiscal year 
2011, the Department consulted with its partner agencies in the 
development of the WIF grant competition and invited partner agency 
staff to help panel applications. We anticipate working with our 
colleagues at the Departments of Education and Health and Human 
Services to provide technical assistance to grantees on cross-program 
alignment as needed.
          rebranding and strengthening one-stop career centers
    Question. Please describe how the Department's plans to distribute 
and administer the additional $50 million in funds requested under the 
Workforce Information-Electronic Tools-System Building line for 
rebranding and strengthening the one-stop career centers, including how 
such funds will be distributed to the States. Please provide a 
description of the activities planned with this funding and the 
timeline for implementation.
    Answer. Under the President's fiscal year 2013 budget proposal, the 
Department will:
  --Use a significant portion of the funds (approximately 70 percent) 
        to support co-location among partner programs, increase the 
        number of American Job Centers and service points, and increase 
        public awareness and accessibility of workforce services 
        through nationwide outreach and education using the American 
        Job Center brand. These funds would be distributed to states 
        and locals, with a small national reserve for administration 
        and technical assistance.
    --To increase the number of service points, funds can be used to 
            establish new service points for workforce services in 
            local communities, such as computers at a library or 
            community-based organization to access online services, or 
            expanding access to workforce services within community 
            colleges and schools, or even creating kiosks in major 
            commercial chains.
    --The recipients may also use these funds to expand workforce 
            services during hours convenient for working adults and 
            businesses, particularly small businesses. In addition, 
            States will use the funds to fully implement the American 
            Job Center brand, and funds could support Web site 
            adjustments and outreach through multiple media. The 
            Department will also seek to create a national outreach and 
            education plan to increase awareness and usage of the 
            public workforce investment system.
  --The Department would begin this initiative within 45 days of 
        enactment of an appropriations act, and complete it within a 
        year.
  --The Department will use the remaining funds to expand current 
        national electronic tools to provide more interactivity between 
        the online customer and the virtual services currently 
        available through www.CareerOneStop.org. The new electronic 
        tools would include a jobseeker portfolio, an interactive 
        resume analysis tool, an interactive knowledge and diagnostic 
        database providing automated responses to common questions, and 
        virtual chats with career counselors. For jobseekers who lack 
        computer skills or Internet access, the Department will also 
        expand its telephone contact centers to provide on the phone 
        some of the personal interaction offered through staff-assisted 
        services at brick and mortar One-Stop Career Centers. Within 
        120 days of enactment of an appropriations act, the Department 
        would begin to offer expanded services through its telephone 
        contact centers. Requirements definition and development of the 
        new online electronic tools features would begin within 90 days 
        of enactment of an appropriations act, and phase one of the new 
        Web site features would launch within a year of enactment of an 
        appropriations act.
 continuing women in apprenticeship and nontraditional occupations act 
                                mission
    Question. Please describe how the Department will serve the mission 
and intent of the Women in Apprenticeship and Nontraditional 
Occupations (WANTO) program through other activities.
    Answer. The Department remains firmly committed to the goals of the 
WANTO program and will continue to work tirelessly to promote 
opportunities for women to enter Registered Apprenticeship and to 
access to non-traditional occupations.
    The Department will continue to address the goals and objectives of 
WANTO through revisions to the Equal Employment Opportunity regulations 
governing Registered Apprenticeship as well as through technical 
assistance efforts and guidance from ETA, in conjunction with the WB. 
We also believe that the broader workforce investment system can help 
women access the supports and services needed to enter and stay in 
nontraditional jobs. The number of female participants receiving 
services through the various workforce programs has increased in the 
last few years by more than 40 percent, to more than 15.7 million. In 
some American Recovery Act and Reinvestment grants, particularly the 
Pathways Out of Poverty grants, we were encouraged by solid outcomes 
for those projects that trained women in clean energy jobs. The 
Department will utilize these findings to inform new technical 
assistance to the broader workforce system.
    Last, pre-apprenticeship has shown promise in creating a more 
diverse, next generation of apprentices. ETA is developing a national 
framework to establish consistency and quality across pre-
apprenticeship programs that can help women and other under-represented 
populations gain greater access to apprenticeship and non-traditional 
employment opportunities.
                     community college career fund
    Question. When does the administration plan to provide legislative 
recommendations for the new community college to career fund?
    Answer. On March 20, 2012, H.R. 4227, Workforce Investment Act of 
2012 was introduced, including provisions that would establish a 
Community College to Career Fund. These provisions reflect extensive 
technical assistance that the Departments of Labor and Education 
provided and thus, align with the priorities and activities envisioned 
in the administration's Community College to Career Fund proposal.
                    guidance for h-2a program users
    Question. Secretary Solis, as you know, ensuring a stable workforce 
for our Nation's agriculture producers is critical to keeping food on 
our plates and not rotting in fields. The H-2A program, which is the 
pathway to bringing farmworkers in to meet these needs legally, has 
been the subject of regulatory tweaking during both this administration 
and the prior administration. My farmers are looking for consistency 
across the Department--for all of your employees to be saying the same 
thing, at any given time. I've been working with both the agriculture 
and labor constituencies for many years now trying to find a path 
forward in the form of AgJOBS. Given that legislation is not likely to 
move, it's incumbent on all of us--the Congress, and the agencies 
charged to implement H-2A program--to provide farmers and farmworkers 
with consistent guidelines and recommendations.
    Secretary Solis, my farmers are telling me that the Department 
lacks clear and consistent instruction for H-2A program users. For 
example, one grower is currently awaiting results from a DOL audit 
while simultaneously preparing contracts for the upcoming harvest 
season. However, since the grower has not seen the results of the 
audit, it is unclear how he can properly and accurately write his new 
contracts to avoid another audit. My staff have also intervened in 
several cases when Department requirements and State requirements were 
directly in conflict. Our farmers, your staff and congressional staff 
should not have to spend countless hours ironing out inconsistencies 
within the H-2A program, but should instead spend that time making the 
program work and ensuring the health and safety of our farmworkers.
    Madam Secretary, how will you lead your staff from the top-down to 
ensure that the Department provides consistent guidelines for users of 
the H-2A program?
    Answer. The Department understands the important role that 
agriculture, especially apple and cherry production, plays in the State 
of Washington's economy. The issuance of the 2010 H-2A Final Rule was a 
top management priority for the Department, making it possible for all 
those who are working hard on American soil to receive fair pay while 
at the same time expanding opportunities for U.S. workers. We share 
your concerns about this workforce issue and view the H-2A program as a 
legal means by which growers may obtain foreign labor, but only when 
they have first recruited U.S. workers and given them a fair 
opportunity to secure these jobs.
    We know employers with legitimate needs are successfully using the 
H-2A Program, and I assure you that we are continuing to take steps to 
assist H-2A employers in complying with the program's requirements by 
providing consistent and clear guidance and continuing to process 
applications efficiently. For example, we implemented a number of 
actions designed to clarify program requirements for participating 
employers and improve program performance. Over the past year, the 
Department engaged in extensive outreach and education efforts to 
familiarize program users with regulatory changes implemented through 
the 2010 H-2A Final Rule, including hosting three national stakeholder 
briefings in December 2011. Each of these briefings was designed to 
assist H-2A employers in preparing their agricultural job offers and 
applications for the 2012 planting season.
    The Department continues to meet with employers, including those 
representing Washington State, and other stakeholders to provide 
additional assistance and explanation of the H-2A program's 
requirements. The Department is continuing its efforts to make the 
program more effective and efficient for employers. The following are a 
few examples of resources for the Department has produced and posted on 
its Web site to make the H-2A program most user-friendly for employers:
  --a new employer Handbook;
  --``Filing Tips'' to avoid common mistakes;
  --four rounds of frequently asked questions to provide clear and 
        useful guidance to growers; and
  --other technical assistance materials all aimed at providing 
        consistent guidelines to farmers participating in the H-2A 
        program. All of these resources are available on the H-2A page 
        of the Department's foreign labor certification Web site at 
        http://www.foreignlaborcert.doleta.gov/h-2a.cfm#.
    We are pleased with these efforts and our actual program 
performance under the new regulations has improved significantly over 
prior years. For fiscal year 2011, the Department certified 93 percent 
of all H-2A applications filed covering more than 74,000 farm worker 
positions with approximately 85 percent of our final decisions issued 
timely. In the first 6 months of fiscal year 2012, the Department 
received more than 3,700 H-2A applications requesting more than 46,000 
farm workers--a 3-percent increase more than the same period a year 
ago. Employers received certifications for approximately 95 percent of 
H-2A applications filed with more than 82 percent of our final 
decisions issued timely. We believe these performance data indicate the 
H-2A Program is being widely used, and we expect that our performance 
will continue to improve.
    The Department will continue to work directly with employers 
participating in the H-2A Program who encounter issues or problems with 
their application. The H-2A Final Rule includes a process for employers 
to correct application or job order deficiencies, rather than having 
the application denied. However, I feel obligated to note that some of 
these required modifications are not the result of changes in the H-2A 
Final Rule, but rather the employer's (or their representative's) 
failure to comply with long-standing program requirements such as 
offering to pay the most current reimbursement to workers for meals 
when traveling or paying the current hourly Adverse Effect Wage Rate 
(AEWR). Requiring that an employer offer and pay the appropriate 
subsistence level and wage rate is essential to meeting our statutory 
mandate to ensure that the employment of H-2A workers will not have an 
adverse effect on the wages and working conditions of similarly 
employed U.S. workers.
    In other instances, the requested modifications are necessary to 
ensure the employer meets the eligibility criteria for participating in 
the H-2A Program only where there is a legitimate temporary need. Based 
on our program experience, we know that a large number of issues or 
deficiencies which affect our timely processing of applications pertain 
to applicant error or oversight and not from policy or regulatory 
disagreements.
    Question. Will you direct your staff to work in partnership with H-
2A users on issues that arise that are problematic for the Department 
and/or H-2A users?
    Answer. The Department has been and continues to be willing to work 
with H-2A users on issues that arise that are problematic for the 
Department and/or H-2A users. For instance, in an effort to improve 
customer service and provide greater assistance to the employer 
community in complying with program requirements, we recently expanded 
the use of email to quickly communicate and resolve minor deficiencies 
with employer-filed H-2A applications. Once an employer corrects these 
minor deficiencies, the application and job order are accepted for 
processing, and the employer is provided with instructions through 
email for completing the application process. This E-Mail Pilot 
Notification Program has been well received by the grower community 
and, as a result, our deficiency rate has significantly decreased. For 
the first 6 months of fiscal year 2012, the percent of employer-filed 
applications requiring a formal notice of deficiency was 38 percent; 
compared to approximately 66 percent in fiscal year 2011.
    Finally, in an effort to continue the progress in improving 
communications and work in a closer partnership with growers, the 
Office of Foreign Labor Certification recently established an H-2A 
Ombudsman Program whose primary purpose is to facilitate the fair and 
equitable resolution of concerns that arise within the H-2A Program 
community by conducting independent and impartial inquiries into issues 
related to the administration of the program and proposing internal 
recommendations designed to continuously improve the quality of 
services provided to H-2A Program users. A number of growers and worker 
advocacy organizations are already taking advantage of the new 
Ombudsman Program in order to resolve their issues. To get more 
information on the H-2A Ombudsman Program and how your constituents can 
get connected, please visit our Web site at: http://
www.foreignlaborcert.doleta.gov/h-2a_ombudsman_program.cfm.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                              h-2b rule 2
    Question. American consumers are searching for more ways to ``Buy 
American'' and support their local food producers. According to some 
estimates, the United States already has a severe seafood trade deficit 
with imports accounting for 86 percent of all seafood consumed. Did 
Department of Labor (DOL) review any specific studies on the economic 
impact of the H-2B regulations announced last month (the ``H-2B Rule 2 
Regulations'') on the U.S. seafood industry? Did DOL solicit input from 
the Department of Commerce on the impact of the H-2B Rule 2 Regulations 
on the seafood industry?
    Answer. Although the Department did not specifically solicit input 
from the Department of Commerce, it did provide opportunity for all 
interested parties to provide their views on, and analysis of, the 
proposed rule leading to the Temporary Non-agricultural Employment of 
H-2B Aliens in the United States Final Rule published February 21, 
2012. See 76 FR 15130 for the notice of proposed rulemaking and 77 FR 
10038 for the final rule. Comments in response to the proposed rule 
provided only anecdotal information on the impacts of the proposed rule 
on the seafood processing industry. We reviewed the comments received, 
and based on our review of existing data and the information received 
from the public, there was no indication that the Department overlooked 
or failed to consider economic studies or analysis specific to the 
seafood industry.
    Question. Would the DOL be willing to delay implementation of H-2B 
Rule 2 Regulations (set to go into effect on April 23d) until the Small 
Business Administration (SBA) is able to complete an economic impact 
study of the impact of the final rules on small businesses that 
participate in the H-2B program?
    Answer. The Department has provided ample time and opportunity for 
stakeholders, including the SBA, to provide their views on, and 
analysis of, the Temporary Non-agricultural Employment of H-2B Aliens 
in the United States Final Rule published February 21, 2012 (77 FR 
10038). The Department met with a wide variety of stakeholders, 
including small and seasonal business representatives, during the 
development of the proposed rule published March 18, 2011 (76 FR 
15130), upon which this Final Rule is based. The SBA's Office of 
Advocacy reviewed the proposed rule prior to its publication, during 
clearance required by Executive Order 12866. In addition, the 
Department provided the public 60 days in which to provide comment on 
the rule and during that 60-day public comment period, the Department 
met with stakeholders during a Small Business Roundtable, convened by 
the Office of Advocacy. The Chief Counsel for Advocacy submitted a 
comment on the proposed rule, which the Department addressed in the 
Final Rule, including by identifying a number of changes (e.g., such as 
extending the length of the three-fourths guarantee calculation period 
from 4 weeks to 12 weeks for job orders lasting 120 days or more and 6 
weeks for job orders lasting less than 120 days, adding catastrophic 
man-made events such as oil spills or controlled flooding to the list 
of triggers that employers could use to request cancellation of the job 
orders, send workers home, and relief from the three-fourths guarantee, 
and reducing the period during which employers are required to accept 
State Workforce Agency referrals of U.S. applicants from the later of 3 
days before the date of need or the date of the last H-2B worker's 
departure to 21 days before the date of need) intended to alleviate the 
concerns Advocacy expressed. Finally, the Office of Advocacy also 
reviewed the Final Rule prior to publication under Executive Order 
12866. SBA has had more than a year to complete and provide to the 
Department their analysis of the economic impact of the Temporary Non-
agricultural Employment of H-2B Aliens in the United States Final Rule 
published February 21, 2012 (77 FR 10038) and has not yet elected to do 
so.
    On April 26, 2012, the court in the U.S. District Court for the 
Northern District of Florida, Pensacola Division, granted a nationwide 
preliminary injunction enjoining the Department of Labor from enforcing 
the Temporary Non-agricultural Employment of H-2B Aliens in the United 
States Final Rule published February 21, 2012 (77 FR 10038).
    Question. The H-2B Rule 2 Regulations require employers guarantee 
both H-2B and ``corresponding'' American workers a total number of work 
hours equal to at least 75 percent of the workdays in every 12-week 
period--regardless of whether unforeseen factors like hurricanes or oil 
spills mean that production may be shut down. Although employers may 
seek relief from the three-quarters guarantee following a serious 
disaster, what guarantee can you provide that DOL will respond in a 
timely manner to these requests so that small businesses participating 
in the program are not penalized by an unforeseen disaster? Given the 
gulf coast's track record with disasters and its dependence on workers 
in the H-2B program, this is a key issue for many seafood businesses 
along our coastline.
    Answer. In the H-2B Notice of Proposed Rulemaking, the Department 
proposed to allow employers to terminate a job order in the event of an 
unforeseeable, catastrophic event (such as a hurricane) in order to 
address circumstances beyond the control of the employer or the worker. 
In response to employer comments on the proposed rule, the Department 
modified the provision in the Final Rule to include acts of man (such 
as an oil spill or controlled flooding) as well as acts of God. 
Termination of the job order under this provision allows employers to 
end a worker's employment and fulfill the three-fourths guarantee 
through the job order termination date, as opposed to fulfilling the 
three-fourths guarantee through the entire period of the job order.
    The Department recognizes that a timely response to an employer's 
request to seek relief under this provision is a key issue for 
businesses, including coastal seafood firms, and is confident in our 
process for responding to employers. The Department's Employment and 
Training Administration (ETA) has established a process for employers 
to electronically submit requests to terminate the job order and ETA 
commits to responding to terminations requests within 2 working days of 
receipt of such requests.
    Please note that on April 26, 2012, the court in the U.S. District 
Court for the Northern District of Florida, Pensacola Division, granted 
a nation-wide preliminary injunction enjoining the DOL from enforcing 
the H-2B Final Rule.
   operating the voluntary protection program with reduced resources
    Question. In the President's fiscal year 2013 budget, DOL has 
proposed reducing Voluntary Protection Program (VPP) budget by more 
than $3 million and reducing the number of full-time equivalents (FTEs) 
by 31. This drop is problematic because Occupational Safety and Health 
Administration's (OSHA) proposed workload for fiscal year 2013 includes 
only 60 approvals for new VPP sites. Currently, there are more than 100 
sites in the VPP in and actively pursuing VPP status in the State of 
Louisiana. Collectively, these sites employ approximately more than 
20,000 workers. How will the proposed shift in the DOL's OSHA resources 
from compliance assistance to enforcement impact these VPP sites in 
terms of their ability to either obtain or retain VPP their ability to 
participate in the VPP in 2012 and 2013?
    Answer. The reduction of $3 million and 31 FTE is proposed for 
OSHA's entire Federal Compliance Assistance budget activity, not solely 
VPP. This reduction would be achieved through the consolidation of 
compliance assistance personnel in geographically dense regions and the 
completion of outreach and training materials development in fiscal 
year 2012, which will not be needed in fiscal year 2013, and will help 
offset the very urgent need for increased resources for OSHA's 
whistleblower protection responsibilities. In addition to taking steps 
to enhance the efficiency of compliance assistance, OSHA will no longer 
offer the Corporate and Merit VPP programs. The agency plans to focus 
on maintaining the number of current VPP sites by recertifying 280 
current sites.
    It is important to note that none of the steps we are taking will 
eliminate the access of small businesses to the VPP program. In 
addition, we are maintaining the increase for our State Consultation 
program, which is the largest source of OSHA assistance to small 
businesses.
    Question. According to Government Accountability Office (GAO) 
report on the VPP published in May 2009, approximately 80 percent of 
VPP worksites have fewer than 500 employees. Has OSHA studied and 
concluded separately on the impact on small businesses of the fiscal 
year 2013 DOL budget proposal to shift OSHA resources from compliance 
assistance to enforcement?
    Answer. In its report, GAO was looking at the size of the worksite 
and not the size of the company owning the worksite. Only 6 percent of 
the total number of VPP sites meet the small business definition (250 
or fewer employees and are not part of a corporation/organization with 
500 or more employees).
    OSHA's Safety and Health Achievement Recognition Program (SHARP) is 
a recognition program similar to VPP that is focused exclusively on 
small businesses. Employers that have a full On-site Consultation visit 
and meet other requirements may be recognized under SHARP for their 
exemplary safety and health management systems. As of February 29, 
2012, there were 1,568 SHARP sites, of which 154 are new SHARP site 
that were initially recognized in fiscal year 2011.
    In fiscal year 2012, the On-site Consultation Program budget was 
increased, which enabled OSHA to increase its commitment to assisting 
small businesses with identifying workplace hazards, providing advice 
on compliance with OSHA standards and assisting in the establishment of 
safety and health management systems. This increased commitment to 
assisting small businesses will continue in fiscal year 2013.
    Question. What are OSHA's plans to review the impact on small 
businesses that participate in the VPP of implementing a user fee 
system to fund VPP?
    Answer. OSHA has no plans to implement a user fee system to fund 
VPP.
                       measuring vpp performance
    Question. The May 2009 GAO report found merit in the VPP programs 
overall, but that OSHA had not developed goals or measures to assess 
the performance of the VPP, and the agency's efforts to evaluate the 
program's effectiveness had not been adequate. OSHA generally agreed 
with the GAO Report's recommendations to develop procedures and 
measures to assess the performance of the VPP. What is the current 
status of implementing the recommendations from the GAO report for 
assessing the performance of the VPP?
    Answer. OSHA has implemented a number of new policies to improve 
the performance of VPP participants is continuing to evaluate and 
develop ways to improve internal controls and measurement of program 
performance and effectiveness as part of the ongoing VPP continuous 
improvement process. The Assistant Secretary's series of VPP policy 
memoranda (five to date, the earliest signed August 3, 2009, and the 
most recent, June 29, 2011) include instructions to strengthen 
nationwide consistency in OSHA's administration of VPP; improve the 
quality and documentation of OSHA actions following a fatality at a VPP 
site; strengthen internal controls, audit procedures, tracking, and 
proper documentation of OSHA actions; and improve annual data 
submissions required of all VPP participants and OSHA's review of the 
submissions and follow-up actions. OSHA continues to provide GAO with 
annual updates on its recommendations to improve administration and 
oversight of VPP.
    OSHA formed a VPP Review Workgroup in 2011 made up of 
representatives from OSHA's National and Regional Offices. The group 
was responsible for conducting a comprehensive review of the VPP and 
submitting recommendations to the Assistant Secretary for improving the 
program and developing goals and measures. The Workgroup reviewed 
extensive documentation and also interviewed Regional and National 
Office managers and staff, VPP participants, and other external 
stakeholders to solicit their views and recommendations for improving 
VPP. OSHA has begun working on suggested recommendations for changes 
that are determined to be key and that will strengthen the program's 
effectiveness and integrity.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                              work sharing
    Question. My work-sharing legislation was recently signed into law. 
Many States are now awaiting guidance from the Department in order to 
implement work sharing or strengthen their existing program.
    When will the Department issue guidance, specifically with respect 
to Federal financing and grants? What are the Department's plans for 
formulating model work-sharing legislation? What are the Department's 
plans for fulfilling the intent and purpose of the legislation--to 
encourage more States to adopt work-sharing, strengthen existing 
programs, and prevent layoffs--and maximize outreach to State work 
force agencies and businesses?
    Answer. The Department has been working as quickly as feasible to 
implement the many reforms to the Unemployment Insurance program 
contained in the Middle Class Tax Relief and Job Creation Act of 2012, 
including the Short Time Compensation (STC) or work-sharing provisions. 
Early priorities were implementation of the complex changes to the 
Emergency Unemployment Compensation program and the requirement that 
states provide re-employment services and re-employment and eligibility 
assessments for Emergency Unemployment Compensation (EUC) claimants, 
since these provisions had to be implemented by States immediately.
    With regard to the STC provisions, to inform our guidance and to 
meet the statutory requirement to consult with stakeholders and program 
experts, the Department held ``listening sessions'' via two Webinars on 
March 19 and 20, 2012. The Department envisions there will be several 
pieces of program guidance. The first guidance will address the new 
program definition, the transition provisions for States currently 
operating STC programs, new program reporting requirements, and the 
process for 100-percent reimbursement of STC benefits for States 
currently operating STC programs. The first guidance will provide 
preliminary information on the new 2-year Federal STC program and the 
grants. Our current target for issuing this guidance is the first week 
of May 2012. Model legislative language is in development and should be 
ready to release by the end of May 2012. As soon thereafter as 
feasible, the Department will issue more comprehensive guidance on the 
new 2 year Federal STC program and the grants, which is already in 
development. Subsequent to each piece of guidance, the Department will 
host Webinars with States to review the guidance and offer technical 
assistance.
    The Department is excited to be implementing the STC provisions in 
the act as a critical lay-off aversion tool for States. We currently 
are developing a robust outreach and technical assistance plan to 
support State take-up and employer engagement, including collection and 
dissemination of best practices. We will be happy to share that plan 
upon completion.
             libraries and the workforce investment system
    Question. Public libraries are a key access point to our workforce 
investment system. However, they are often connected to the one-stop 
system on an ad hoc basis. What role will public libraries play in the 
American Job Center Network (AJCN) proposal that the administration 
rolled out on March 12, 2012?
    Answer. Libraries will play a key role in the AJCN. The Employment 
and Training Administration (ETA) has met with representatives from the 
Institute of Museum and Library Services (IMLS) and the American 
Library Association (ALA) to brief them on the AJCN proposal. All three 
organizations have agreed to work together to meet the goals of the 
AJCN proposal. ETA representatives have participated at Library events 
sponsored by IMLS and ALA to discuss the administration proposal and 
will provide training to library staff on the Department of Labor (DOL) 
electronic tools designed to assist job seekers.
    Question. Please provide an update on the activities and outcomes 
as a result of the Department's Memorandum of Understanding with IMLS.
    Answer. DOL and the Institute of Museum and Library Services (IMLS) 
entered into a partnership in October 2009 in recognition of the 
important roles that both the public workforce system and libraries 
have in addressing the varied employment-related needs of American 
workers, job seekers, unemployed workers, and employers. IMLS and the 
Department continue to involve their respective strategic partners in 
the workforce and library systems to raise awareness and share examples 
of partnerships at the local level. In June 2010, the Department 
published a Training and Employment Notice announcing the ETA-IMLS 
partnership to the workforce system and highlighting examples of 
partnerships between the workforce system and public libraries at the 
State and local levels.
    Additionally, the Department has:
  --provided information on where to find libraries on the Department's 
        CareerOneStop Web site--America's Service Locator;
  --provided electronic training materials on various electronic tools 
        (e.g., mySkills myFuture, ReEmployment portal, Workforce3One, 
        CareerOneStop electronic tools) for distribution at national 
        meetings of the Public Library Association (PLA) and ALA;
  --delivered Webinars to the public workforce system and library staff 
        nationwide to promote and identify effective partnerships 
        between the public workforce system and libraries, and provided 
        training to library staff on ETA electronic tools; and
  --continued to interact with leaders at IMLS and the ALA.
    Most recently, the Department has met with representatives from the 
IMLS and the ALA to brief them on AJCN proposal and has invited their 
input and participation in this initiative.
    Question. How many of the first round applicants for the Workforce 
Innovation Fund (WIF) have included working with public libraries as 
part of their proposal? In the next round of applications, will the 
Department emphasize public libraries as key partners in an innovative 
workforce investment strategy?
    Answer. The WIF grant solicitation closed on March 22, 2012, and 
applications are being paneled. The Department will continue to 
emphasize the importance of a wide range of partners, including 
libraries, as appropriate, in future rounds.
                               job corps
    Question. The Department has rightly been focused on working with 
Job Corps Centers to strengthen accountability and improve outcomes for 
students. However, the Department's interpretation of the small 
business set-aside requirements may mean that performance is not one of 
the key criteria for awarding or renewing Job Corps contracts.
    What criteria are used in the Department's determination to set 
aside a Job Corps contract? Are factors such as center performance, 
operator past performance, and student outcomes the primary factors in 
set aside determinations?
    Answer. Employment and Training Administration (ETA) supports the 
use of small businesses as part of the economic engine for the economy. 
ETA's determination to set aside Job Corps procurements arises under 
the express terms of Federal Acquisition Regulations (FAR) section 
19.502-2(b), which requires the Contracting Officer to set aside a 
procurement more than $150,000 for small businesses, ``when there is a 
reasonable expectation that: (1) Offers will be obtained from at least 
two responsible small business concerns offering the products of 
different small business concerns; and (2) Award will be made at fair 
market prices.''
    In determining if there is a reasonable expectation that offers 
will be obtained from at least two responsible small business concerns, 
the Contracting Officer performs market research. This market research 
may include an analysis of prior procurement history and recent 
performance of contractors similar in size, scope, and complexity to 
the pending requirement. Thus, contractor quality and performance are 
primary factors in the small business set-aside determinations.
    The Contracting Officers in the ETA use market research, most often 
via a sources sought notice, to arrive at the most suitable approach 
for acquiring services, as discussed in FAR 10.000. ETA uses the 
resulting market research to determine if a there is a reasonable 
expectation that offers will be obtained from at least two responsible 
(i.e., capable) small businesses and that the award will be made at 
fair market prices. ETA's market research allows DOL to identify 
companies that have experience performing services of a similar size 
and scope to that of the contract in question. For example, if a 
contractor has operated one or more Job Corps centers within the recent 
past that were similar in size and scope to the requirement, DOL will 
consider that information in assessing the available sources to compete 
for a potential contract award.
    In addition, the procurement process includes an analysis of 
several evaluation factors in which technical approach (i.e., quality 
of services provided to the students) is the most important. Also, 
companies' past performance is evaluated during the procurement process 
and is considered in this analysis. Past performance is not the most 
important factor, but it is an important factor that is considered in 
the evaluation. Also, the past performance evaluation includes a 
consideration of the student outcomes achieved if the contractor has 
past performance that includes operating a Job Corps center.
    Question. Are there Job Corps centers that have chronically 
underperformed under several different operators? What performance 
criteria has the Department considered in making its estimates of the 
number of centers that could potentially be closed for chronic low 
performance?
    Answer. Yes, there are Job Corps centers that have had more than 
one operator and have continued to underperform. The Department is 
using its existing performance measures as the key component for 
developing its methodology for identifying centers for closure that 
will be published in the Federal Register for the public and 
stakeholders to provide feedback, prior to its use in selecting centers 
for closure. A timeline has not yet been developed for the closure 
process.
                                 ______
                                 
               Questions from Senator Barbara A. Mikulski
                           h-2b program rules
    Question. It is my understanding that the Department of Labor (DOL) 
currently requires that all workers requested on an application be 
brought over on that application's singular date of need. This policy 
has been raised as a concern in the context of the upcoming 
comprehensive rule, which among many provisions, will require that 
employers pay each H-2B employee three-quarters of the hours guaranteed 
in the contract, over a 12-week period.
    Does the Department believe that practical interaction of these two 
policies--that all workers must come over at once, and then be paid 
three-quarters of the hours in the contract--is a realistic expectation 
of employers in the H-2B program?
    Answer. The Immigration and Nationality Act provides for the 
importation of foreign workers in nonagricultural employment through 
the H-2B program. The Department's Employment and Training 
Administration (ETA) approves applications for foreign workers under 
the H-2B program only if no U.S. workers are available for the job. To 
determine the availability of U.S. workers for the job, ETA requires 
employers to test the labor market--that is, to see whether U.S. 
workers are available for the job under the conditions specified in the 
job order and for the period of need specified in the job order. To 
allow employers to recruit for U.S. workers based on an application 
representing a singular date of need when, in fact, the employer has 
multiple dates of need, unfairly discriminates against U.S. workers who 
may be available for some of the later period, but not the entire 
period, indicated on a singular job order. The Department takes very 
seriously its responsibility to ensure that employers are not 
authorized to bring in foreign workers when U.S. workers are available 
for the jobs. In addition, both the 2008 DOL regulations and those from 
the Department of Homeland Security prohibit the practice known as 
``staggered entry dates'' on a single labor certification. In other 
words, if an employer needs workers at different times (staggered) in 
their DOL-approved period of temporary need, they are required to 
submit separate applications for those ``staggered'' dates of need in 
order to timely test the labor market for domestic workers.
    The three-fourths guarantee is a necessary protection that ensures 
that workers--both United States and H-2B workers--are given a chance 
to evaluate the desirability of the offered job and that their 
commitment to a particular employer results in a real job that meets 
reasonable expectations for the full-time work that is required for an 
employer to participate in the H-2B program during the period requested 
by the employer. The three-fourths guarantee also ensures that 
employers do not overstate their need for workers, thereby using visas 
that could have gone to other employers with legitimate needs.
    Question. If so, does that assessment hold true for small, coastal 
businesses that are dependent on nature, such as the seafood industry?
    Answer. The Department recognizes the impact weather can have on 
seasonal businesses and therefore, included a provision whereby 
employers can seek to have their job orders terminated in the event of 
fire, weather, or other act of God that makes fulfillment of the job 
order impossible. The Department also included catastrophic or man-made 
events, such as controlled flooding or oil spills as reasons for 
termination of the job order. An employer whose contract is terminated 
under this provision would be required to comply with the three-fourths 
guarantee provision through the cancellation of the contract rather 
than through the entire period of the job order.
    Question. Has the Department taken a thorough review to make sure 
that its existing regulations work in harmony with its revised 
regulations in order to make sure that they are imposing requirements 
on small businesses which are readily achievable?
    Answer. The Department carefully reviewed the proposed 
requirements, comments received on the proposed rule, and current 
program operations and sought to achieve a final rule that balances 
important protections for U.S. workers, H-2B workers, and employers who 
seek to play by the rules with the needs of employers using the H-2B 
program.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                       workforce innovation fund
    Question. Madam Secretary, I remain concerned that as more 
workforce training programs become competitively awarded they will not 
reach those for whom training programs are intended. I also have 
reservations about appropriating a third year of funding for the 
Workforce Innovation Fund (WIF), a competitive program whose first year 
of funding has not been awarded yet. Why is $100 million from the 
Department of Labor (DOL) in fiscal year 2013 necessary for an 
unproven, untested program that already has $175 million in the bank?
    Answer. The purpose of WIF is to support innovative approaches to 
the design and delivery of employment and training services that 
generate long-term improvements in the performance of the workforce 
system, both in terms of employment and training outcomes and cost-
effectiveness. Each grant awarded under WIF must include an independent 
third-party evaluation; thus, we anticipate that the benefit of WIF 
investments will extend not only to those individuals who receive 
services under the grant, but also to the broader workforce system, 
which will be able to learn about and adopt those practices shown to be 
promising. We believe having this source of funding is critical to 
drive continuous innovation and evolution in the largely formula-funded 
WIA system.
    Fiscal year 2011 WIF resources must be obligated by September 30, 
2012. This extended period of obligation was intentional to provide the 
Department with sufficient time to create a well-designed program in 
consultation with workforce system stakeholders and Federal agency 
partners, including the Departments of Justice and Education. We intend 
to award approximately $118 million of fiscal year 2011 funds and 
approximately $30 million of the fiscal year 2012 funds by September 
30, 2012 under SGA-DFA-PY11-05. The remaining $20 million of fiscal 
year 2012 funds will be used to fund Pay for Success grants under the 
solicitation we anticipate releasing this spring. By the time fiscal 
year 2013 funds become available, the first round of WIF grantees will 
have been operational for at least a year, giving us valuable 
information about the program and which innovations warrant further 
support in the form of additional grants.
                          governor's set aside
    Question. The Governor's Workforce Investment Act (WIA) set-aside 
allows 15 percent of WIA funding to be used by the Governor, at the 
State level, to pursue creative workforce development initiatives. In 
both fiscal years 2011 and 2012 and proposed for 2013, the set-aside is 
reduced to 5 percent.
    The fiscal year 2013 budget proposal states that the funding for 
the WIF will offset the loss of such funds for statewide initiatives by 
providing targeted demonstration projects across the country. However, 
the loss of funds from the reduction in the set-aside is significantly 
more than the WIF request in 2013.
    Are you concerned that the WIF grants will not be awarded to every 
State and that Governors no longer have the flexibility to implement 
innovative statewide projects?
    Answer. WIF will test the most compelling and innovative models 
across the country and build knowledge that can be applied to future 
programming. While there will be an effort to fund high-quality 
applications across the country, we do not expect that will be awarded 
to every State. By the time fiscal year 2013 funds become available, 
approximately $154 million in WIF grants (fiscal year 2011 funds and 
part of fiscal year 2012 funds) will have been operational for at least 
a year. Funding for the fiscal year 2013 WIF will provide States with 
another opportunity to participate in the initiative.
                veterans--transition assistance program
    Question. In the past several years, the unemployment rate for 
veterans has been significantly higher than the national average. It is 
critical that veterans can transition effectively out of military 
service into civilian life.
    The budget request assumes that 160,000 transitioning 
servicemembers are expected to use the Transition Assistance Program 
(TAP) in fiscal year 2013. However, it is my understanding that with 
the new requirement that all separating servicemembers participate in 
the TAP, combined with the high number of veterans separating from 
service this year, the amount of veterans using the TAP could be as 
high as 290,000. It is critical that adequate funding be provided for 
TAP to ensure our servicemembers receive proper services during their 
transition period.
    Madam Secretary, are you concerned the budget request cannot 
support increased TAP utilization?
    Answer. We are looking at the issue you have highlighted to ensure 
that we have the ability to meet needs of separating servicemembers. In 
fiscal year 2011, Veterans' Employment and Training Service (VETS) 
conducted 4,200 TAP Employment Workshops to more than 144,000 
servicemembers and their spouses at military installations worldwide 
using a combination of State Workforce Agency employees and contract 
facilitators. With the passage of the VOW Act, and based on separation 
projections from Department of Defense (DOD), we anticipate that 
participation in the DOL Employment Workshop will increase by nearly 40 
percent to approximately 201,000 in fiscal year 2013. We are continuing 
to work with DOD to refine those separation estimates and to better 
understand the plans of our DOD and VA partners for delivering their 
components of the TAP workshops.
                          mandatory proposals
    Question. Madam Secretary, I believe it is important to review the 
entire budgetary picture when appropriating funding. Although the 
Senate Appropriations Committee only has jurisdiction over the 
discretionary side of the ledger, it is still critical that we 
understand how much funding programs receive in mandatory dollars so we 
are able to make responsible choices.
    The President has recently announced several large, mandatory 
programs that affect the DOL. In particular, he has announced an $8 
billion Community College Initiative which will be funded by $4 billion 
from the DOL and $4 billion from the Department of Education; $4 
billion for the ``Reemployment Now'' Initiative; and $12.5 billion for 
a ``Pathways Back to Work'' fund.
    Madam Secretary, how will these programs supplement current worker 
training programs?
    Answer. The administration's proposals that you mention will help 
community colleges and businesses train Americans to acquire the 
critical skills that employers need to succeed and help businesses 
succeed and grow. While the DOL has worked closely with local 
businesses and community colleges through various workforce system 
programs, the Community College to Career Fund provides the resources 
and support necessary to enhance the development and improvement of 
educational and career training programs for workers. These investments 
will give more community colleges the resources they need to become 
community career centers where people learn crucial skills that local 
or regional businesses are looking for right now. Through increased 
employer partnerships, this investment will also ensure that employers 
have the skilled workforce they need and that workers are gaining 
industry-recognized credentials and receiving training relevant to the 
local or regional needs of employers to build strong careers.
    This administration is committed to protecting the financial 
integrity of the Unemployment Insurance (UI) system and helping 
unemployed workers return to work as swiftly as possible, and the 
Reemployment NOW Initiative supports that effort. The proposed 
Reemployment NOW program would provide funds for programs that allow 
the flexible use of unemployment benefits for short-term on-the-job 
training or for claimants to start their own businesses. The bipartisan 
Middle Class Tax Relief and Job Creation Act of 2012 adopted a number 
of the reforms the President proposed in the American Jobs Act, 
including some of the initiatives that would be eligible for funding 
under the Reemployment NOW Initiative. This new law, enacted in 
February 2012 extends UI to prevent 6 million long-term unemployed 
Americans looking for work from losing their benefits, while at the 
same time reforming the system to help them build real skills and 
connect to real jobs. For example, as the President proposed last year, 
Reemployment and Eligibility Assessments (REAs) and Reemployment 
Services (RES) are now required for claimants entering the Emergency 
Unemployment Compensation (EUC) program. That initiative is already 
being implemented by the States. REAs and RES have been found to be 
highly effective at helping UI claimants find higher-paying jobs 
sooner, while at the same time saving money for the UI system. The 
Middle Class Tax Relief and Job Creation Act also included the 
President's proposal for making EUC recipients eligible for State Self-
Employment Assistance programs, which provide support to claimants who 
start their own businesses. Finally, the new law allows for 10 States 
to conduct demonstration programs similar to the proposed Bridge to 
Work program that would help speed claimants' return to work. These 
demonstrations would allow States to use funds from the unemployment 
trust fund, but the programs must be cost neutral.
    Building on successful American Recovery and Reinvestment Act 
programs that provided employment opportunities for low-income adults 
and youths, the Pathways Back to Work Fund makes it easier for the 
long-term unemployed and low-income workers to remain connected to the 
workforce and gain new skills for long-term employment, through 
subsidized employment and other innovative work-based strategies. 
Pathways Back to Work offer a win-win strategy for job seekers and 
employers. It gives job-seekers an opportunity to gain and demonstrate 
in-demand skills for an extended period of time, while earning much 
needed income to support themselves and their families and stimulate 
their local economies. At the same time, it provides employers with a 
low-risk approach to staffing their businesses and building their 
talent pipeline to remain competitive. The ``earn and learn'' 
approaches to be supported by Pathways Back to Work are an important 
complement to more traditional, classroom-based occupational training 
currently supported by DOL and enhance the ability of program 
participants, particularly those lacking work experience, to benefit 
from occupational training.
    Question. How can you ensure that such an influx of funding, twice 
the size of the DOL's current discretionary budget, will be efficiently 
and effectively spent?
    Answer. DOL will work to ensure that these requested mandatory 
grant dollars are efficiently and effectively spent through the same 
strong management and oversight processes it uses now for its grants. 
DOL already utilizes comprehensive processes to regularly review and 
monitor all of its grantees, including an electronic grants management 
system, required quarterly reporting from all grantees on their 
financial and technical performance, and on-site grantee monitoring 
visits. DOL reviews grantees' progress against the program performance 
metrics of entered employment, employment retention and average 
earnings, and plans to use this set of common measures as the basis for 
future programs in addition to any program-specific measures. DOL also 
provides technical assistance to help grantees meet the outcomes to 
which they commit in their grant statements of work.
    DOL is also working to leverage its investments to increase their 
impact across the country by coordinating with other Federal agencies 
on a number of initiatives. Examples of inter-agency coordination 
activities include joint guidance on programs serving similar 
populations, jointly funded discretionary grant programs, and efforts 
to identify opportunities for promoting joint strategic planning across 
programs.
                        duplication and overlap
    Question. The Government Accountability Office (GAO) released a 
report in February that stated, ``HHS is collaborating with Labor to 
conduct an evaluation to better understand policies, practices, and 
service delivery strategies that lead to better alignment of the 
Workforce Investment Act and Temporary Assistance for Needy Families.''
    Can you provide further information on this collaboration, 
including examples of State and local practices that may be models for 
other areas to follow and how the Workforce Investment Act (WIA)/
Temporary Assistance for Needy Families (TANF) duplication can be 
reduced?
    Answer. The Department of Health and Human Services (HHS) is 
working in close collaboration with the DOL to conduct an evaluation to 
better understand policies, practices, and service delivery strategies 
that lead to better alignment of WIA and TANF, including identifying 
promising State and local practices for successful coordination between 
these programs. The Work Participation and TANF/WIA Coordination Study 
will identify strategies to improve the employment outcomes of current 
and former TANF recipients, reduce administrative inefficiencies, and 
remove the structural and policy barriers that inhibit coordination 
between WIA and TANF. Researchers also will document the reasons for 
collaboration and the process for creating and sustaining partnerships. 
A technical workgroup of subject-matter experts is currently working on 
selecting States and local areas for approximately nine site visits, to 
be conducted during summer 2012, to examine governance structures, 
policy coordination, service delivery pathways, shared data systems, 
and funding. We anticipate that the final report will be available for 
dissemination in spring 2013. The Departments will share the results of 
the evaluation with the public workforce system and other stakeholders.
    As another example of DOL-HHS collaboration, a report entitled 
``Using TANF Funds to Support Subsidized Youth Employment: The 2010 
Summer Youth Employment Initiative'' was published and posted recently 
on both Departments' Web sites. This work is the culmination of the 
Departments' continued collaboration throughout a study to evaluate WIA 
and TANF coordination and the potential benefits and challenges of the 
TANF-funded summer youth employment initiative. Funded through an 
Interagency Agreement between the Departments, this study followed up 
on the 2010 joint DOL-HHS letter that encouraged States to use TANF 
funds for subsidized youth employment and for workforce and human 
service agencies to co-enroll youth in WIA and TANF programs.
    Question. GAO report also noted that the DOL will award competitive 
grants to encourage States to reduce program overlap. Can you describe 
the program overlap that could be eliminated through these grants?
    Answer. By September 30, 2012, DOL intends to award approximately 
$118 million of fiscal year 2011 funds and approximately $30 million of 
the fiscal year 2012 funds provided for competitive grants under WIF. 
The WIF provides States and local areas with an opportunity to pursue a 
variety of innovation strategies, including those that foster stronger 
cooperation across programs and funding streams--such as integrated 
data management information systems, ``braided'' funding, or changes 
that create a more seamless service delivery experience for 
participants who need help from multiple programs.
    DOL also anticipates awarding up to $20 million through a separate 
grant competition for Pay for Success pilot projects to support an 
innovative approach to funding public social service programs, for 
example through leveraged capital from private or philanthropic 
investors. Under the Pay for Success model, the government pays for 
services only after clearly defined outcomes are achieved. This allows 
effective and evidence-based solutions to be identified and implemented 
while maximizing taxpayer dollars by paying only for demonstrated 
results.
    It is our goal that grants awarded under WIF will achieve greater 
efficiency in the delivery of quality services, such as achieving 
positive outcomes for a lower cost or reducing program overlap and 
administrative costs. We expect that successful strategies will be 
sustained beyond the grant period through other funding streams 
currently available to grantees.
    Question. At last year's hearing, we discussed GAO's 2011 report on 
duplication across job training programs. In particular, the report 
stated that 44 of the 47 Federal employment and training programs 
identified overlap with at least one other program. What steps has the 
DOL taken to reduce duplication within job training programs over the 
past year?
    Answer. DOL recognizes that there are opportunities for the further 
alignment and streamlining of employment and training programs, and our 
fiscal year 2013 budget reflects this reality by including several 
proposals. These proposals include expansion of the WIF which will 
support innovative ways of delivering services working across program 
silos; the transfer of the Senior Community Service Employment Programs 
to the HHS, where the program can work more closely with other senior-
serving programs; developing single access points for job seekers to 
access all available services through a rebranded and improved network 
of American Job Centers; the elimination of the Women in Apprenticeship 
and Nontraditional Occupations and Veterans Workforce Investment grant 
programs, whose missions can be met through other programs and 
activities; and the merging of the Trade Adjustment Assistance and WIA 
Dislocated Worker program into a single program providing a uniform and 
comprehensive suite of services to all displaced workers in fiscal year 
2014.
                            upper big branch
    Question. The recent internal review by the Mine Safety and Health 
Administration (MSHA) regarding the tragic accident at Upper Big Branch 
claimed that much of the managerial and personnel issues in district 4 
stemmed from budget cuts prior to 2006. However, MSHA's budget 
increased from $246.3 million in fiscal year 2001 to $277.7 million in 
fiscal year 2006. Blame can be placed on many factors for the Upper Big 
Branch tragedy, but Secretary Solis, why did DOL choose to place 
culpability mainly on funding levels, especially given that MSHA's 
budget increased $129 million from fiscal year 2000-2010?
    Answer. The internal review is about more than funding levels. The 
internal review team was comprised of career MSHA employees with 
various specialties and expertise who did not have current enforcement 
responsibility in Coal Mine Safety and Health District 4. Their report 
attributes the shortcomings identified to a number of underlying causes 
in addition to resources, including inspector inexperience, management 
turnover, supervisory and managerial oversight, internal communication 
of policies, and training. We are looking at all of these issues to 
ensure they are addressed.
    As Assistant Secretary Main recently noted during testimony before 
the House Education and Workforce Committee:

    ``The internal review team found the number of coal enforcement 
personnel had eroded to 584 by the end of fiscal year 2005, a result of 
attrition and budget constraints. By comparison, there were 653 such 
personnel in fiscal year 2001. Following the 2006 Sago, Darby and 
Aracoma disasters, MSHA received additional funds to hire more 
inspectors. However, despite efforts to re-establish staffing levels, 
by the time of the UBB explosion, the inspection and supervisory staff 
was significantly composed of new inspectors, replacing a number of 
experienced inspectors who retired. For example, from fiscal year 2005 
to fiscal year 2008, MSHA lost 252 coal enforcement personnel from its 
ranks. Some inspectors retired, were recruited by industry, moved to 
new positions within the agency, or left MSHA for other reasons . . . 
The budget constraints and constant loss of experienced personnel due 
to attrition adversely affected the entire agency.''

    I appreciate all of the support that the subcommittee has provided 
to ensure that MSHA obtains the funding needed not only to meet these 
critical inspection activities, but in related activities such as the 
work that MSHA and the Office of the Solicitor are doing to address the 
backlog of cases before the Federal Mine Safety and Health Review 
Commission.
                 pension benefit guarantee corporation
    Question. Secretary Solis, as Chair of Pension Benefit Guaranty 
Corporation (PBGC), how are you addressing the systemic problems 
uncovered in the Inspector General reports on the National Steel and 
United Airlines (UAL) pension plans? What timelines have been set up to 
address the serious issues raised in the report, to include the 
possible reorganization of the Benefits Administration and Payment 
Department office?
    Answer. The PBGC Office of Inspector General (OIG) found long-
standing systemic failures at the PBGC that resulted in errors in the 
valuations of assets of the terminated UAL and National Steel pension 
plans, as well as other plans trusteed by the PBGC. The OIG uncovered 
serious flaws in the work of the original contractor and the re-
valuation work prepared by a second contractor. The PBGC board is 
working with the OIG and the PBGC leadership to ensure that appropriate 
steps are taken to remedy deficient asset valuations for terminated 
plans, erroneous benefit determinations for affected participants, and 
any systemic failures.
    PBGC is redoing the asset valuations for the pension plans of UAL 
and National Steel and taking other actions to make corrections where 
necessary. The board and PBGC are committed to finalizing the asset re-
valuations for UAL and National Steel as quickly as possible without 
sacrificing accuracy or quality. Participants in UAL or National Steel 
plans whose benefits change as a result of the asset re-valuation will 
be notified this summer.
    For other asset valuations, PBGC is using the experience gained 
from the UAL and National Steel reviews to develop a risk-based 
approach to screen the other plans on which the original contractor 
worked, and to identify plans where contractor errors may have affected 
beneficiaries. The PBGC continues to review its actions with the OIG 
and the board.
    By law, the PBGC's Director is responsible for administering the 
PBGC's operations, and the board is responsible for setting policy and 
providing oversight. The Board is committed to holding the PBGC 
management accountable for effectively selecting and monitoring outside 
auditors. This is a core management function of being a good steward 
for the plans the PBGC trustees and for making sure these mistakes do 
not happen again. Over a year ago, PBGC began a strategic review to 
make improvements to the Benefits Administration and Payment 
Department's (BAPD) organizational structure and operations. Based on 
that review, PBGC identified a wide range of actions to address long-
term systemic failures within BAPD and to ensure that BAPD has 
sufficient expertise to effectively select and monitor outside 
auditors. The agency has already begun to make changes in its 
organization, personnel and processes, including the qualifications and 
training of BAPD staff, improved contractor management, and improved 
quality control overall.
                        wyoming job corps center
    Question. Secretary Solis, can you provide an update on the 
progress of the Wyoming Job Corps Center, including when you anticipate 
publishing a construction bid in the Federal Register and your timeline 
for opening the Center?
    Answer. A new center in Wyoming is planned to open after program 
year 2013.
                      voluntary protection program
    Question. Assistant Secretary Michaels recently stated the 
Voluntary Protection Program (VPP) would be expanded. However, the 
budget request for the Occupational Health and Safety Administration 
(OSHA) decreases compliance assistance in fiscal year 2013. Further, 
OSHA is projected to conduct far fewer VPP site evaluations (down 40 
percent from fiscal year 2011) and will completely halt the corporate 
and merit VPP program at new sites. Can you explain why the Department 
is announcing VPP is expanding, when no budget documents support this 
claim?
    Answer. Assistant Secretary Michaels supports the expansion of VPP 
to additional worksites that meet the criteria for VPP participation. 
To that end, OSHA plans to approve 60 new VPP sites and to recertify 
280 during fiscal year 2013. The VPP program is not being cut. In order 
to achieve efficiencies, OSHA will no longer offer its Corporate and 
Merit VPP programs. It is also important to note that none of the steps 
we are taking will eliminate the access of small businesses to the VPP 
program.
    In May 2004, OSHA created the VPP Corporate Pilot to significantly 
expand participation in VPP by allowing corporations committed to VPP 
and interested in achieving VPP recognition at multiple facilities a 
more efficient means of accomplishing this. Over the years, several of 
the corporate participants have failed to meet their commitments to 
bring in 10 participants within 5 years and others have chosen to drop 
out of the program. In addition, it became clear that the Pilot did not 
produce the expected application and onsite evaluation efficiencies. 
Eliminating VPP Corporate will not adversely affect a company's ability 
to achieve VPP status.
    After evaluating participation in the Merit program, OSHA has 
concluded that its resources could be more effectively used for site 
visits to bring qualified companies directly into VPP rather than 
putting resources into developing new VPP candidates, many of whom 
never qualify for VPP, spend little time in the program after 
qualifying, or would qualify without the Merit program. Resources OSHA 
previously used for site visits and reevaluations for Merit 
participants will be directed towards new VPP sites and 
recertifications of existing sites.
                               farm labor
    Question. Secretary Solis, the DOL announced it would re-propose a 
regulation on the existing agriculture ``parental exemption'' after the 
original, highly controversial proposed rule was withdrawn. The 
original proposal significantly narrowed the application of the 
parental exemption by limiting it to parents that wholly owned the 
family farm. This change ignored the structure of modern agriculture. 
While I appreciate the rule being withdrawn, I question whether a re-
proposal is even necessary.
    Why is DOL moving forward with another rule? Will DOL rewrite the 
new rule based on the numerous public comments that were made? Is DOL 
conducting outreach with the agriculture industry to ensure that the 
new rules take into account the current structure of the modern farm?
    Answer. As you may know, DOL announced on April 26, 2012, the 
withdrawal of the proposed rule addressing hired farm workers under the 
age of 16. In the same announcement, DOL committed to working with the 
U.S. Department of Agriculture and with rural stakeholders, such as the 
American Farm Bureau Federation, the National Farmers Union, the Future 
Farmers of America, and 4-H, to develop an educational program to 
reduce accidents to young workers and promote safer agricultural work 
practices.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                       gulfport job corps center
    Question. The Gulfport Job Corps Center was destroyed by Hurricane 
Katrina in 2005. Since that time, I worked to appropriate both 
dedicated funding of $14 million, as well as other annual construction 
funds for use towards the rebuilding efforts for that facility. The 
bulk of the dedicated $14 million in funding was used for a temporary 
facility and to construct a dorm, but I understand that $4.5 million in 
dedicated funds remain. I continue to work on behalf of the community 
to ensure that the new facility balances their priorities with the best 
interest of the Job Corps training activities. It is my understanding 
that the Department of Labor (DOL) is continuing to consult with the 
Gulfport community, as well as the State of Mississippi, to resolve 
outstanding issues relating to specific design details. Please discuss 
the path forward for this project as well as your plan to protect the 
money that has been reserved for the Gulfport Job Corps facility's new 
construction. Will the construction phase cost more than the remaining 
dedicated funds? If so, how will you approach securing the balance?
    Answer. I recognize that you have been a tireless champion for the 
Job Corps program and have been very eager to see us move from a 
temporary facility to a permanent one in Gulfport--one that we both 
hoped would serve double the amount of students of the temporary 
center, while creating employment opportunities for the community both 
in the construction and operations phases.
    Several months ago, the redevelopment of the Gulfport Job Corps 
Center was placed on hold as the project proposed the demolition of the 
former 33rd Avenue High School, which was eligible for inclusion in the 
National Registry of Historic Places. Since that time, DOL has been 
engaged in the section 106 process, as outlined in the National 
Historic Preservation Act, to gather feedback and input from interested 
parties before making a determination to move forward with the proposed 
project. In addition to the DOL and the Advisory Council on Historic 
Preservation, this process has included consultation with the 
Mississippi Department of Archives and History (MDAH), the city of 
Gulfport, and Gulfport community members.
    Because a mutually agreeable resolution to move forward with the 
proposed project was not reached, on Friday, March 16, 2012, DOL 
terminated the construction contract to redevelop the Gulfport Job 
Corps Center. This will allow the portion of the project's funding that 
expires on June 30, 2012, to be reallocated prior to its expiration. 
The remaining $4.5 million of funding dedicated to the project does not 
expire and will remain available for future redevelopment efforts.
    DOL is committed to serving the youth of the Gulfport community, 
having operated a center in this gulf coast region for more than 30 
years. The DOL will work with the MDAH, the city of Gulfport, and all 
identified consulting parties to begin a new section 106 process for 
the redevelopment of the Gulfport Job Corps Center, which will inform 
future decisions about the establishment of a permanent center in 
Gulfport, Mississippi.
    As you point out, the cost of a new construction project will 
exceed the remaining amount of dedicated funds. By redistributing the 
funding from the cancelled contract to other shovel-ready projects, our 
intent was to free up future years' construction funding for Gulfport, 
rather than allowing those funds to expire. As you know, the Job Corps 
program receives an annual Construction, Rehabilitation, and 
Acquisition (CRA) appropriation each year, and develops a funding plan 
with priority given to the most critical deficiencies. As with each new 
funding cycle, DOL will review the redesign for a Gulfport Center 
redevelopment project alongside the program's other construction and 
rehabilitation needs before making a final funding determination. We 
will continue to work with the Appropriations Committee and your office 
on this matter and appreciate your support for the Job Corps program.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
                 proposed companionship exemption rule
    Question. At a January 25, 2012 briefing, representatives of the 
Department of Labor's (DOL) Wage and Hour Division and the Centers for 
Medicare & Medicaid Services (CMS) told my staff that they did not meet 
with a single State's Medicaid Director.
    Did DOL directly consult or meet with any State Medicaid Directors 
when promulgating the proposed rules? If yes, please provide details 
regarding which State Medicaid Directors DOL met or consulted with, the 
substance of their recommendations, and how their recommendations were 
incorporated into the proposed rule and accompanying economic impact 
analysis. If no, will DOL be willing to withdraw the rule to meet with 
State Medicaid Directors and conduct a more comprehensive analysis of 
the impact of the rule on State Medicaid programs and budgets that 
incorporates their recommendations before moving forward?
    Answer. In development of the proposed rule, Application of the 
Fair Labor Standards Act to Domestic Service (76 FR 81190, December 27, 
2011), DOL reviewed publicly available data to estimate the impact of 
the proposed revisions, and consulted with the Department of Health and 
Human Services' CMS. A significant number of comments were received on 
the Department's proposed rule, including a few from State Departments 
of Human Services, as well as from the National Association of Medicaid 
Directors representing the Nation's 56 State and territorial Medicaid 
agencies. DOL is currently reviewing the comments received on the 
proposed rule and will continue to consult with the Centers for 
Medicare and Medicaid Services on this important matter. Any final rule 
resulting from this Notice of Proposed Rulemaking will address comments 
received on the proposal, including those expressing concerns about the 
potential impact of the proposal on State Medicaid budgets.
    Question. On March 12, 2012, the Office of Advocacy at the Small 
Business Administration sent a letter to you stating that DOL's 
economic analysis does not fully reflect the information provided by 
small businesses in the companion care industry and recommending that 
DOL consider the impact and regulatory alternatives, as required under 
the Regulatory Flexibility Act, before moving forward. Will the DOL 
withdraw the proposed rule to conduct a more thorough economic impact 
analysis that accurately reflects the nature of the private market for 
companion services, economic impact of the rule on small businesses, 
and alternatives proposed by industry?
    Answer. On December 27, 2011, DOL published a proposed rule: 
Application of the Fair Labor Standards Act to Domestic Service. After 
two extensions of public comment period, the comment period closed on 
March 21, 2012. The preliminary regulatory impact analysis contained in 
the proposed rule is based on the best available data. DOL relied on 
data from: the Bureau of Labor Statistics (BLS) 2009 Occupational 
Employment Survey employment and wages by State for the standard 
occupational codes covering Personal Care Aides and Home Health Aides, 
the workers most likely to be impacted by the proposed rule; BLS 
National Employment Matrix, 2008; BLS Quarterly Census of Employment 
and Wages, 2009, the 2007 Statistics of U.S. Businesses, and the 2007 
Economic Census by State for industries most likely to be impacted by 
the proposed rule, Home Health Care Services, and Services for Elderly 
and Persons with Disabilities. In estimating the number of employees 
potentially impacted, and the average hours worked by home health 
aides, DOL also considered research from Paraprofessional Healthcare 
Institute (PHI) which was based, in part, on the Centers for Disease 
Control and Prevention's (CDC) National Home Health Aide Survey.
    The letter from the Office of Advocacy at the Small Business 
Administration was received during the comment period for the proposed 
rule and is a part of the rulemaking record. See Office of Advocacy, 
Winslow Sargeant, comment id: WHD-2011-0003-7756 available at: http://
www.regulations.gov/#!documentDetail;D=WHD-2011-0003-7756. In its 
comment letter, the Office of Advocacy referenced the Small Business 
Roundtable it had convened; a summary of the Small Business Roundtable 
meeting as well as materials provided to the Department during that 
meeting are part of the rulemaking record (document id: WHD-2011-0003-
3235, available at: http://www.regulations.gov/#!documentDetail;D=WHD-
2011-0003-3235). In addition, the Office of Advocacy's letter mentioned 
comments submitted as part of the rulemaking record, including those 
from the International Franchise Association which submitted, as part 
of its comment, a study it commissioned by IHS Global Insight, and the 
California Association of Health Services at Home. These comments are 
included in the rulemaking record (http://www.regulations.gov/
#!documentDetail;D=WHD-2011-0003-9590 and http://www.regulations.gov/
#!documentDetail;D=WHD-2011-0003-0134, respectively).
    DOL is continuing to review the comments received on the proposed 
rule, including the letter from the Office of Advocacy and the comments 
referenced in that letter; however, we note that very little economic 
data was provided by the more than 26,000 individuals who commented on 
the proposal. The comments and other materials are part of the 
rulemaking record, available at: http://www.regulations.gov/
#!searchResults;rpp=25;po=0;s=WHD-2011-0003.
                proposed child agricultural safety rule
    Question. Based on the major effects this rule would have on the 
agriculture community do you plan to delay implementation of the rule 
and hold more listening sessions with stakeholder groups to gain a 
better understanding of the complexities in a farming operation?
    Answer. As you may know, the Department announced on April 26, 
2012, the withdrawal of the proposed rule addressing hired farm workers 
under the age of 16. In the same announcement, the Department committed 
to working with the U.S. Department of Agriculture (USDA) and with 
rural stakeholders, such as the American Farm Bureau Federation, the 
National Farmers Union, the Future Farmers of America, and 4-H, to 
develop an educational program to reduce accidents to young workers and 
promote safer agricultural work practices.
    Question. If you cannot commit to delaying the implementations, 
what assurances can you give farmers that this will not limit the 
ability for their children to help out on the family farm?
    Answer. As you may know, the Department announced on April 26, 
2012, the withdrawal of the proposed rule addressing hired farm workers 
under the age of 16. In the same announcement, the Department committed 
to working with USDA and with rural stakeholders, such as the American 
Farm Bureau Federation, the National Farmers Union, the Future Farmers 
of America, and 4-H, to develop an educational program to reduce 
accidents to young workers and promote safer agricultural work 
practices.
                 proposed community college career fund
    Question. The President's fiscal year 2013 budget includes $8 
billion in new spending, over 3 years, to support a new community 
college career fund for the Departments of Labor and Education to 
jointly support new partnerships between States, community colleges and 
businesses that will train 2 million workers for good-paying jobs in 
high-growth and high-demand industries.
    While I appreciate the goals of this proposal, we are continually 
facing significant near and long-term funding gaps in the Pell grant 
program. Based on the March 2012 Congressional Budget Office baseline 
estimates, it is projected that Pell grant funding requirements will 
balloon to $30.7 billion in fiscal year 2014, resulting in a funding 
gap of between $6 billion and $9.7 billion. At the same time, the 
maximum Pell grant award in 2012-2013 is $5,550, while the average 
tuition rate at community colleges in the United States is under $3,000 
per year. Therefore, rather than creating another duplicative program, 
wouldn't the requested $8 billion be better spent in support of Pell 
grants, which would then enable more low-income students to attend the 
university or community college of their choice?
    Answer. The Pell grant program and the Community College to Career 
Fund serve two different purposes and are complementary rather than 
duplicative. DOL supports the Pell grant program's goal of expanding 
low-income students' access to postsecondary education and believes 
this program is a key component for meeting the President's goal of 
every American completing at least 1 year of postsecondary education or 
training. Unlike Pell grants, which are awarded to individual students, 
the Community College to Career Fund will support competitive grants to 
community colleges that have partnered with employers to provide 
individuals with the training and industry-recognized credentials that 
are needed by employers. In addition to providing training to 
individuals, the Community College to Career Fund primarily will be 
used to address the serious capacity shortages of many community 
college training programs in high-growth occupations. In combination, 
the Pell grant program and Community College to Career Fund will 
provide individuals with access to a greater range of education and 
training opportunities.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                        veterans' jobs programs
    Question. I am the co-chair of the Veterans Jobs Caucus in the 
Senate, which is working to ensure that our veterans have access to and 
information about available jobs especially as they return from 
overseas. I was a co-sponsor of the first ``Hiring Our Heroes'' fair 
held in Chicago last spring, sponsored by the U.S. Chamber of Commerce. 
The U.S. Chamber has held numerous similar fairs across the country 
over the last year, with the 100th being in Chicago at the end of this 
month.
    A number of programs and initiatives exist across different 
agencies that are designed to help our veterans enter the civilian 
workforce. While agencies like the Departments of Labor (DOL) and the 
Veterans Affairs and the Office of Personnel Management all have 
something to add to these programs, I am concerned that a lack of 
coordination and duplicative efforts are actually hindering the end 
goal: to get veterans jobs. Especially as the Veterans Opportunity to 
Work (VOW) to Hire Heroes Act, passed last fall by the Congress, comes 
online, I have the following questions: Which is the lead agency 
responsible for coordinating veterans' jobs programs? And who within 
DOL is the point person on interagency coordination?
    Answer. DOL's Veterans' Employment and Training Service (VETS) is 
the lead agency for employment and training programs for veterans. 
Deputy Assistant Secretary Junior Ortiz is the point person, and 
ensures coordinated efforts amongst other Federal agencies in issues 
and initiatives related to veteran employment.
    Question. How is DOL ensuring that you handle initiatives that fall 
within your jurisdiction and expertise, such workforce training?
    Answer. DOL has developed an internal workgroup that leads and 
oversees all efforts related to employment and training for veterans. 
This workgroup is co-chaired by the VETS Deputy Assistant Secretary, 
John Moran, and Employment and Training Administration (ETA) Deputy 
Assistant Secretary, Gerri Fiala. The mission of the workgroup is 
specifically to monitor all initiatives, legislative requirements, and 
ongoing programs that directly benefit our transitioning servicemembers 
and veterans.
    Question. What is DOL doing to ensure that veterans know where to 
go to find jobs that match up the skills they have developed in the 
military with the needs in the civilian workforce?
    Answer. VETS has recently redesigned our Transition Assistance 
Program (TAP) Employment Workshop, which includes a module specifically 
on transferrable skills. During the Employment Workshop, participants 
are educated on the services available through the nearly 3,000 
American Jobs Centers funded through DOL. With the recent passage of 
the VOW to Hire Heroes Act, attendance at our TAP Employment Workshop 
is now mandatory for all separating military personnel with only 
limited exceptions.
    DOL funds several employment programs for job seekers, which are 
operated out of the American Jobs Centers. These centers serve as the 
cornerstone for the Nation's workforce investment system. By law, 
veterans receive priority of service in all DOL-funded programs 
administered through the American Jobs Centers. DOL and the State 
workforce agencies actively outreach to both job seekers and employers 
to raise awareness of the services available at these centers. Outreach 
to job seeking veterans occurs prior to separation for both active duty 
military and members of the Guard and reserves. American Jobs Centers 
staff are often present at the Transition Assistance Program Employment 
Workshop and at demobilization events.
    During job fairs, American Jobs Center staff will make contact with 
participants and ensure they are aware of the services available.
    Disabled Veterans Outreach Program (DVOP) specialists conduct 
targeted outreach to located those veterans that face barriers to 
employment. Typical outreach will include visits to Homeless Veteran 
Reintegration Program grantees, homeless shelters, Vet Centers, and VA 
Medical Centers.
    Further, VETS provides grants to each State to fund two staff 
positions DVOP specialists and Local Veterans' Employment 
Representative staff to provide specialized services to veterans.
    In addition, DOL launched a new suite of on-line tools, My Next 
Move for Veterans (www.MyNextMove.org/vets). On My Next Move for 
Veterans, transitioning servicemembers and veterans can access a simple 
and quick search engine where they enter their military experience 
(branch of service and military occupation code or title) and link to 
the resources they need to explore information on civilian careers and 
related training, including information they can use to write resumes 
that highlight related civilian skills.
                                 ______
                                 
               Question Submitted by Senator Jerry Moran
       addressing the shortage of medical laboratory technicians
    Question. One of the many challenges facing our Nation involves a 
shortage of well-trained allied health professionals to meet the 
increasing medical needs of the aging workforce. Hospitals, 
laboratories, and other employers in my home State of Kansas and across 
the country are having difficulty finding medical laboratory 
technicians (lab techs) who can fill current job openings. As a lab 
tech, an individual with a 2-year degree in laboratory science can earn 
an annual salary of around $35,000-$50,000, but employers are 
struggling to find qualified individuals with the appropriate education 
and training to fill these science and healthcare jobs.
    Does the Department of Labor (DOL) currently direct any Federal 
funding it receives to initiatives that support laboratory education 
programs in community colleges and other educational institutions to 
address this healthcare workforce shortage?
    Answer. Yes, through the American Recovery and Reinvestment Act of 
2009 (ARRA), DOL awarded more than $150 million to projects focused on 
healthcare under the Healthcare and Other High-Growth and Emerging 
Industries grant program. The grants allow community colleges, 
community-based organizations, State workforce agencies, and other 
public entities to deliver training that leads to employment in a range 
of healthcare fields, including laboratory technicians. In addition, 
DOL recently awarded more than $130 million to healthcare-focused 
projects under the H-1B Technical Skills Training grants. This grant 
program is designed to provide education, training, and job placement 
assistance in the occupations and industries for which employers are 
using H-1B visas to hire foreign workers, and the related activities 
necessary to support such training. DOL also funded 18 projects that 
include healthcare as a focus area under the first year of the Trade 
Adjustment Assistance Community College and Career Training (TAACCCT) 
program. The TAACCCT program provides $2 billion over 4 fiscal years to 
institutions of higher education to expand and improve their ability to 
deliver education and career training programs that can be completed in 
2 years or less; result in skills, degrees, and credentials that 
prepare program participants for employment in high-wage, high-skill 
occupations; and are suited for workers who are eligible for training 
under the TAA for Workers program. DOL intends to widely disseminate 
the results, including curricula, of successful grantees from these 
initiatives to the public workforce system and stakeholders.
    Question. The Bureau of Labor Statistics estimates that there will 
be almost 11,000 laboratory professional job openings each year 
annually through 2018. However, our Nation is currently only graduating 
around 5,000 students each year that are capable of filling these job 
openings. What actions is DOL taking to address this workforce 
shortage?
    Answer. DOL will continue to address the education and training 
needs of the healthcare sector through workforce development programs 
that are designed to be responsive to the demands of the labor market, 
especially at the regional level. These programs will continue to 
support training programs for industries and occupations that are high-
growth, including laboratory professionals. These activities will occur 
through both the formula-funded public workforce investment system, as 
well as discretionary grant programs, such as future years of the 
TAACCCT program previously discussed.
                               job corps
    Question. As a supporter of Job Corps, it is essential that 
students enrolled in this education and job training program receive 
the best instruction and support. What is the DOL doing to ensure that 
student outcomes and performance remain the foundation of Job Corps' 
procurement policies and practices?
    Answer. As you know, Job Corps provides high-quality services to 
help students acquire the skills and tools they need to be successful 
in good jobs or further education. Thus, all contract statements of 
work, which describe the contractor's expected outcomes, required 
deliverables, and levels of performance, are crafted with the intent of 
ensuring that students receive quality education, training, and support 
services. The program's policies and requirement are either directly 
stated, or incorporated by reference, in Job Corps' Outreach and 
Admissions, Center Operations, and Career Transition Services 
contracts. Contracts are performance-based, providing financial 
incentives and penalties directly tied to student outcomes.
    Question. What is DOL's justification for its current use of the 
``Rule of Two'' in Job Corps operations contracting?
    Answer. Job Corps procurements are governed by Federal Acquisition 
Regulation (FAR) section 19.502-2(b), which requires the Contracting 
Officer to set aside a procurement more than $150,000 for small 
businesses,

    ``when there is a reasonable expectation that: (1) Offers will be 
obtained from at least two responsible small business concerns offering 
the products of different small business concerns; and (2) Award will 
be made at fair market prices.''

    Due to pending litigation, DOL cannot comment further on its use of 
the ``Rule of Two'' in Job Corps operations contracting.

                          SUBCOMMITTEE RECESS

    Senator Harkin. Thank you very much, Madam Secretary.
    Secretary Solis. Thank you very much.
    [Whereupon, at 11:45 a.m., Wednesday, March 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
